No. 20-____
IN THE

Supreme Court of the United States
————
GRUPO CEMENTOS DE CHIHUAHUA S.A.B. DE C.V.,
GCC LATINOAMÉRICA, S.A. DE C.V.,
Petitioners,
v.
COMPAÑÍA DE INVERSIONES MERCANTILES, S.A.,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
DAVID M. COOPER
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
51 Madison Avenue
22nd Floor
New York, NY 10010
(212) 849-7000
davidcooper@
quinnemanuel.com

DEREK L. SHAFFER
Counsel of Record
JUAN P. MORILLO
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
1300 I St NW
Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@
quinnemanuel.com

Counsel for Petitioners
January 14, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
In cases where the Convention on the Service
Abroad of Judicial and Extrajudicial Documents in
Civil and Commercial Matters, Nov. 15, 1965, 20
U.S.T. 361 (“Hague Service Convention”) applies, it
“provide[s] the exclusive means of valid service.”
Volkswagenwerk Aktiengesellschaft v. Schlunk, 486
U.S. 694, 705 (1988). The means of service stated in
the Hague Service Convention do not include service
by email. In the decision below, however, the Tenth
Circuit approved service by email on the U.S. counsel
of foreign defendants. It also held that personal
jurisdiction was satisfied because the U.S. contacts—
even if they were not the actual cause of the plaintiff’s
claim—formed part of the “narrative” of the case.
The questions presented are:
1. Does service by email on the U.S. counsel of a
foreign party pursuant to Federal Rule of Civil Procedure
4(f)(3) violate the Hague Service Convention?
2. Does a case satisfy the “arising out of” test for
personal jurisdiction merely because meetings in the
United States were part of the “narrative” of the case,
notwithstanding that the governing contract was
formed and the alleged breach occurred outside the
United States?

(i)

ii
PARTIES TO THE PROCEEDING BELOW
Petitioner Grupo Cementos de Chihuahua, S.A.B.
de C.V. was a defendant-appellant below.
Petitioner GCC Latinoamérica, S.A. de C.V. was a
defendant-appellant below.
Respondent Compañía de Inversiones Mercantiles,
S.A. was a plaintiff-appellee below.

iii
RULE 29.6 STATEMENT
Grupo Cementos de Chihuahua S.A.B. de C.V. has
no parent corporation, and CAMCEM, S.A. de C.V.
owns more than 10% of its stock. CAMCEM, S.A. de
C.V. is owned by Promotora de Proyectos Proval, S.A.
de C.V. and Cemex S.A.B. de C.V., a publicly held
corporation.
GCC Latinoamérica, S.A. de C.V. is a subsidiary of
Grupo Cementos de Chihuahua S.A.B. de C.V. and no
publicly held corporation owns more than 10% of its
stock.

iv
RELATED PROCEEDINGS
United States District Court (D. Colo.):
Compañía de Inversiones Mercantiles S.A. v. Grupo
Cementos de Chihuahua, S.A.B. de C.V., et al., No.
1:15-CV-02120-JLK (Mar. 26, 2019).
United States Court of Appeals (10th Cir.):
Compañía de Inversiones Mercantiles S.A. v. Grupo
Cementos de Chihuahua, S.A.B. de C.V., et al., No. 191151 (Aug. 17, 2020).

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDING BELOW .....

ii

RULE 29.6 STATEMENT ...................................

iii

RELATED PROCEEDINGS ...............................

iv

INTRODUCTION ................................................

1

OPINION BELOW ..............................................

3

JURISDICTION ..................................................

3

TREATY AND RULES
PROVISIONS INVOLVED ..............................

3

STATEMENT ......................................................

4

A. The Alleged Breach Of Contract ..............

4

B. The Arbitration In Bolivia ........................

5

C. The District Court Proceedings ................

5

D. The Court Of Appeals Decision ................

6

REASONS FOR GRANTING THE WRIT ..........

8

I. THE COURT SHOULD RESOLVE THE
CONFLICT IN THE LOWER COURTS
OVER WHETHER EMAIL SERVICE
ON A FOREIGN PARTY UNDER RULE
4(f)(3) VIOLATES THE HAGUE SERVICE
CONVENTION .........................................

11

A. There Is A Widespread Division Of
Authority On This Issue......................

11

(v)

vi
TABLE OF CONTENTS—Continued
Page
B. Decisions Allowing Service By Email
Conflict With This Court’s Precedents .....................................................

15

C. This Case Is An Ideal Vehicle To
Resolve The Conflict ............................

21

D. The Issue Should Be Addressed Now
Given Its Frequency And Importance

23

II. IN THE ALTERNATIVE, THIS COURT
SHOULD HOLD THE PETITION AND
GVR IN LIGHT OF FORD MOTOR ........

25

CONCLUSION ....................................................

28

APPENDIX
APPENDIX A – Tenth Circuit Opinion,
August 17, 2020. .............................................

1a

APPENDIX B – District Circuit Opinion &
Order, March 25, 2019 ...................................

56a

APPENDIX C – District Court Order,
December 12, 2018 .........................................

96a

APPENDIX D – District Court Order,
October 22, 2018 ............................................. 119a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Affinity Labs of Texas, LLC v.
Nissan N. Am., Inc.,
No. 13-cv-369, 2014 WL 11342502
(W.D. Tex. July 2, 2014) ...........................

13

Agha v. Jacobs,
No. 07-cv-01800-RMW, 2008 WL
2051061 (N.D. Cal. May 13, 2008) ...........

12

Angiodynamics, Inc. v. Neuberger,
No. 18-cv-30092, 2018 WL 5792321
(D. Mass. Nov. 5, 2018) .............................

13

Anova Applied Elecs., Inc. v.
Hong King Grp., Ltd.,
334 F.R.D. 465 (D. Mass. 2020) ................

12

Bazarian Int’l Fin. Assocs., L.L.C. v.
Desarrollos Aerohotelco, C.A.,
168 F. Supp. 3d 1 (D.D.C. 2016) ...............

13

Bristol-Myers Squibb Co. v. Superior Court
of California, San Francisco County,
137 S. Ct. 1773 (2017) ...............................

27

Cardona v. Kreamer,
235 P.3d 1026 (Ariz. 2010) .......................

12

Carrico v. Samsung Elecs. Co.,
No. 15-cv-02087-DMR, 2016 WL
2654392 (N.D. Cal. May 10, 2016) ...........

18

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Chanel, Inc. v. Lin,
No. 09-cv-04996-JCS, 2010 WL 2557503
(N.D. Cal. May 7, 2010), report and
recommendation adopted, No. 09-cv04996-SI, 2010 WL 2557561 (N.D. Cal.
June 21, 2010) ...........................................

14

Codigo Music, LLC v. Televisa S.A.,
No. 15-cv-21737, 2017 WL 4346968 (S.D.
Fla. Sept. 29, 2017) ................................... 13, 20
Commodity Futures Trading Comm’n v.
Fingerhut,
No. 1:20-cv-21887, 2020 WL 4499198
(S.D. Fla. May 29, 2020) ...........................

15

Compass Bank v. Katz,
287 F.R.D. 392 (S.D. Tex. 2012) ...............

12

Convergen Energy LLC v. Brooks,
No. 20-cv-03746-LJL, 2020 WL 4038353
(S.D.N.Y. July 17, 2020) ...........................

23

CRS Recovery, Inc. v. Laxton,
No. 06-cv-7093-CW, 2008 WL 11383537
(N.D. Cal. Jan. 8, 2008) ............................

12

Cunningham v. Gen. Motors LLC,
No. 20-cv-3097-AKH, 2020 WL 4748157
(S.D.N.Y. Aug. 17, 2020) ...........................

14

Document Operations LLC v.
AOS Legal Techs.,
No. 4:20-CV-1532, 2020 WL 6685488
(S.D. Tex. Nov. 12, 2020) ..........................

14

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Elobeid v. Baylock,
299 F.R.D. 105 (E.D. Pa. 2014) ................

12

Facebook, Inc. v. 9 Xiu Network
(Shenzhen) Tech. Co.,
No. 19-cv-01167-JST, 2020 WL 5036085
(N.D. Cal. Aug. 19, 2020) .............. 11, 12, 16, 17
Ford Motor Co. v. Bandemer,
No. 19-369 (S. Ct.) ....... 1, 2, 8, 10, 25, 26, 27, 28
Ford Motor Co. v. Montana Eighth
Judicial District Court,
No. 19-368 (S. Ct.) ....... 1, 2, 8, 10, 25, 26, 27, 28
Fourte Int’l Ltd. BVI v. Pin Shine Indus. Co.,
No. 18-cv-00297-BAS-BGS, 2019 WL
246562 (S.D. Cal. Jan. 17, 2019) ..............

13

Freedom Watch, Inc. v. Org. of the
Petroleum Exporting Countries,
(OPEC), 766 F.3d 74 (D.C. Cir. 2014) ......

21

Friedman v. Estate of Presser,
929 F.2d 1151 (6th Cir. 1991) ...................

22

F.T.C. v. PCCare247 Inc.,
No. 12-cv-7189-PAE, 2013 WL 841037
(S.D.N.Y. Mar. 7, 2013) ............................

14

FTC v. Repair All PC, LLC,
No. 1:17-cv-00869-DAP, 2017 WL
2362946 (N.D. Ohio May 31, 2017) ..........

18

Gamboa v. Ford Motor Co.,
414 F. Supp. 3d 1035 (E.D. Mich. 2019).... 13, 17

x
TABLE OF AUTHORITIES—Continued
Page(s)
Gonzalez v. US Human Rights Network,
No. CV-20-00757-PHX-DWL, 2021 WL
86767 (D. Ariz. Jan. 11, 2021) .................. 12, 22
Grand Ent. Grp., Ltd. v.
Star Media Sales Inc.,
988 F.2d 476 (3d Cir. 1993) ......................

22

Gucci Am., Inc. v. Wang Huowing,
No. 09-cv-05969-JCS, 2011 WL 31191
(N.D. Cal. Jan. 3, 2011), report and
recommendation adopted, 09-cv-05969CRB, 2011 WL 30972 (N.D. Cal. Jan. 5,
2011) ..........................................................

14

Habas Sinai Ve Tibbi Gazlar Istihsal A.S.
v. Int’l Tech. & Knowledge Co.,
No. 19-cv-00608-PLD, 2019 WL 7049504
(W.D. Pa. Dec. 23, 2019) ...........................

12

Hardin v. Tron Found.,
No. 20-cv-2804-VSB, 2020 WL 5236941
(S.D.N.Y. Sept. 1, 2020) ............................

14

Henry F. Teichmann, Inc. v.
Caspian Flat Glass OJSC,
No. 13-cv-458, 2013 WL 1644808
(W.D. Pa. Apr. 16, 2013) ...........................

14

In re Bibox Grp. Holdings Ltd. Sec. Litig.,
No. 20-cv-2807-DLC, 2020 WL 4586819
(S.D.N.Y. Aug. 10, 2020) ...........................

15

In re Cathode Ray Tube (CRT) Antitrust
Litig.,
27 F. Supp. 3d 1002 (N.D. Cal. 2014) ....... 18, 19

xi
TABLE OF AUTHORITIES—Continued
Page(s)
In re Chinese-Manufactured Drywall Prod.
Liab. Litig.,
No. 09-cv-02047, 2015 WL 13387769
(E.D. La. Nov. 9, 2015)..............................

13

In re Zantac (Ranitidine) Prod. Liab. Litig.,
No. 9:20-md-02924-RLR, 2020 WL
5501141 (S.D. Fla. Sept. 11, 2020) ...........

19

Jackson Lab. v. Nanjing Univ.,
No. 17-cv-00363-GZS, 2018 WL 615667
(D. Me. Jan. 29, 2018) ...............................

13

Juicero, Inc. v. Itaste Co.,
No. 17-cv-01921-BLF, 2017 WL 3996196
(N.D. Cal. June 5, 2017) ...........................

13

Keck v. Alibaba.com, Inc.,
No. 17-cv-05672-BLF, 2018 WL 3632160
(N.D. Cal. July 31, 2018) ..........................

13

Kipu Sys., LLC v. ZenCharts, LLC,
No. 17-cv-24733, 2018 WL 8264634 (S.D.
Fla. Mar. 29, 2018)....................................

13

Knit With v. Knitting Fever, Inc.,
Nos. 08-cv-4221, 08-cv-4775, 2010 WL
4977944 (E.D. Pa. Dec. 7, 2010) ...............

14

Lawrence v. Chater,
516 U.S. 163 (1996) ...................................

25

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Luxottica Grp. S.p.A. v. Partnerships &
Unincorporated Ass’ns Identified on
Schedule “A”,
391 F. Supp. 3d 816 (N.D. Ill. 2019)
reconsideration denied in part, No. 18cv-02188, 2019 WL 2357011 (N.D. Ill.
June 4, 2019) ....................................... 11, 12, 16
Magma Holding, Inc. v.
Ka Tat “Karter” Au-Yeung,
No. 20-cv-00406-RFB-BNW, 2020 WL
5877821 (D. Nev. Oct. 2, 2020) .................

14

Magpul Indus. Corp. v. Zejun,
No. 14-cv-01556-JSW, 2014 WL 7213344
(N.D. Cal. Dec. 16, 2014) ..........................

13

Mapping Your Future, Inc. v.
Mapping Your Future Servs., Ltd.,
266 F.R.D. 305 (D.S.D. 2009) ...................

12

Marks Law Offs., LLC v. Mireskandari,
704 F. App’x 171 (3d Cir. 2017) ................ 21, 22
Microsoft Corp. v.
Gameest Int’l Network Sales Co.,
No. 17-cv-02883-LHK, 2017 WL 4517103
(N.D. Cal. Oct. 10, 2017) ...........................

13

Microsoft Corp. v.
Goldah.com Network Tech. Co.,
No. 17-cv-02896-LHK, 2017 WL 4536417
(N.D. Cal., Oct. 11, 2017) ..........................

13

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
Midmark Corp. v.
Janak Healthcare Private Ltd.,
No. 14-cv-088, 2014 WL 1764704 (S.D.
Ohio May 1, 2014) .....................................

13

MultiFab, Inc. v. ArlanaGreen.com,
No. 15-cv-0066-SMJ, 2015 WL 12880504
(E.D. Wash., Mar. 13, 2015) .....................

13

Nagravision SA v. Gotech International
Technology Ltd.,
882 F.3d 494 (5th Cir. 2018) ..................... 17, 18
The Neck Hammock, Inc v. Danezen.com,
No. 2:20-CV-287-DAK-DBP, 2020 WL
6364598 (D. Utah Oct. 29, 2020) ..............

14

Nuance Commc’ns, Inc. v.
Abbyy Software House,
626 F.3d 1222 (Fed. Cir. 2010) .................

21

Omni Capital Int’l, Ltd. v.
Rudolf Wolff & Co.,
484 U.S. 97 (1987) .....................................

23

Phoenix Process Equip. Co. v.
Capital Equip. & Trading Corp.,
250 F. Supp. 3d 296 (W.D. Ky. 2017) .......

13

Prem Sales, LLC v.
Guangdong Chigo Heating,
No. 20-CV-141-M-BQ, 2020 WL 6063452
(N.D. Tex. Oct. 14, 2020) .......................... 12, 18

xiv
TABLE OF AUTHORITIES—Continued
Page(s)
Rang Dong Joint Stock Co. v. J.F.
Hillebrand USA, Inc.,
No. 18-cv-003195-KJM-KJN, 2020
WL 3841185 (E.D. Cal. July 8, 2020) .......

15

Reflex Media, Inc. v. Richard Easton Ltd.,
No. 2:20-cv-00051-GMN-EJY, 2021 WL
24687 (D. Nev. Jan. 4, 2021) ....................

14

Richemont Int'l SA v. montblanchot.com,
No. 20-cv-61941, 2020 WL 5763931 (S.D.
Fla. Sept. 28, 2020) ...................................

14

Richmond Techs., Inc. v. Aumtech Bus. Sols.,
No. 5:11-cv-02460-LHK, 2011 WL
2607158 (N.D. Cal. July 1, 2011) .............

19

Rio Properties, Inc. v.
Rio International Interlink,
284 F.3d 1007 (9th Cir. 2002) ............. 17, 18, 21
RPost Holdings, Inc. v. Kagan,
No. 11-cv-238-JRG, 2012 WL 194388
(E.D. Tex. Jan. 23, 2012) ..........................

14

Rubie’s Costume Co., Inc. v.
Yiwu Hua Hao Toys Co.,
No. 18-CV-01530-RAJ, 2019
WL 6310564 (W.D. Wash. Nov. 25, 2019) ...

13

Russell Brands, LLC v.
GVD Int’l Trading, SA,
282 F.R.D. 21 (D. Mass. 2012) ..................

14

xv
TABLE OF AUTHORITIES—Continued
Page(s)
Seaboard Marine Ltd., Inc. v.
Magnum Freight Corp.,
No. 17-cv-21815, 2017 WL 7796153 13
(S.D. Fla. Sept. 21, 2017) ..........................

13

SEC v. de Nicolas Gutierrez,
No. 17-cv-2086-JAH-JLB, 2020
WL 1307143 (S.D. Cal. Mar. 19, 2020) .... 15, 18
Sibbach v. Wilson & Co.,
312 U.S. 1 (1941) .......................................

19

Sulzer Mixpac AG v. Medenstar Indus. Co.,
312 F.R.D. 329 (S.D.N.Y. 2015) ................

13

Terrestrial Comms LLC v. NEC Corp.,
No. 20-cv-00096-ADA, 2020 WL 3452989
(W.D. Tex. June 24, 2020) ........................

14

United States v. Besneli,
2015 WL 4755533 (S.D.N.Y. Aug. 12,
2015) ..........................................................

13

United States v. Real Prop. Known As 200
Acres of Land Near FM 2686 Rio Grande
City, Tex.,
773 F.3d 654 (5th Cir. 2014) .....................

17

Volkswagenwerk Aktiengesellschaft v.
Schlunk,
486 U.S. 694 (1988) .. i, 2, 8, 15, 16, 18, 19, 20, 21
Water Splash, Inc. v. Menon,
137 S. Ct. 1504 (2017) ..................... 2, 15, 16, 18
Wellons v. Hall,
558 U.S. 220 (2010) ...................................

25

xvi
TABLE OF AUTHORITIES—Continued
Page(s)
Williams-Sonoma, Inc. v. Friendfinder, Inc.,
No. 06-cv-06572-JSW, 2007 WL 1140639
(N.D. Cal. Apr. 17, 2017) ..........................

13

WorldVentures Holdings, LLC v. Mavie,
No. 18-cv-00393-ALM-KPJ, 2018
WL 6523306 (E.D. Tex. Dec. 12, 2018) .... 12, 17
STATUTORY AUTHORITIES
28 U.S.C. § 1254(1) .......................................

3

RULES AND REGULATIONS
Fed. R. Civ. P. 4(f) ........................................

4, 7

Fed. R. Civ. P. 4(f)(3) ........ i, 6, 7, 8, 11, 12, 14, 17,
19-22, 14
Fed. R. Civ. P. 4(k)(2) ...................................

6

ADDITIONAL AUTHORITIES
Hague Conference on Private International
Law (“HCCH”) website, https://www.
hcch.net/en/instruments/conventions/sta
tustable/notifications/?csid=412&disp=re
sdn .............................................................

22

Hague Service Convention, art. 1 .................. 3, 18
Hague Service Convention, art. 2 ................

3

Hague Service Convention, art. 14 ..............

3

Maggie Gardner, Parochial Procedure, 69
Stan. L. Rev. 941 (2017) ............... 11, 16, 17, 20

xvii
TABLE OF AUTHORITIES—Continued
Page(s)
Michael A. Rosenhouse, Annotation, Permissibility of Effectuating Service of
Process by Email Between Parties to
Hague Convention on Service Abroad of
Judicial and Extrajudicial Documents in
Civil or Commercial Matters, 14 A.L.R.
Fed. 3d Art. 8 (2016) .................................

11

N.D. Cal Gets It Right, Hague Law Blog,
https://www.haguelawblog.com/2020/08/
n-d-cal-gets-it-right (Aug. 13, 2020) .........

16

Theodore J. Folkman, Gurung v. Malhotra
Is Wrongly Decided (manuscript at 12),
https://papers.ssrn.com/sol3/papers.cfm?
abstract_id=2370078.................................

16

U.S. Department of State—Bureau of
Consular Affairs, “Judicial Assistance
Country Information: Mexico,” available
at https://travel.state.gov/content/travel/
en/legal/Judicial-Assistance-Country-Inf
ormation/Mexico.html (last updated Oct.
19, 2017) ....................................................

16

Vienna Convention on the Law of Treaties,
1155 U. N. T. S. 331, T. S. No. 58 (1980),
8 I. L. M. 679 (1969) .................................. 16, 19

INTRODUCTION
In this case, Plaintiff Compañía de Inversiones
Mercantiles, S.A. (“CIMSA”) failed to serve its complaint
on Defendants Grupo Cementos de Chihuahua, S.A.B.
de C.V. and GCC Latinoamérica, S.A. de C.V. (together,
“GCC”), two Mexican companies, in accordance with
the Hague Service Convention. The Tenth Circuit
held that CIMSA nonetheless properly served GCC—
and could evade the detailed methods of service
prescribed by the Hague Service Convention—simply
by sending an email with the complaint to GCC’s U.S.
counsel. The Tenth Circuit further held that it had
specific personal jurisdiction over GCC based on U.S.
contacts that predated the alleged breach of contract,
on the theory that those U.S. contacts supposedly had
“some causal relationship” to, and “form part of the
narrative” of, the case.
This Court should grant certiorari to decide whether
email service under Federal Rule of Civil Procedure
4(f)(3) violates the Hague Service Convention. In the
alternative, the Court should hold this petition and
grant certiorari, vacate the judgment, and remand in
light of the Court’s forthcoming decision on personal
jurisdiction in Ford Motor Co. v. Montana Eighth
Judicial District Court, No. 19-368 (S. Ct.); Ford Motor
Co. v. Bandemer, No. 19-369 (S. Ct.) (together, “Ford
Motor”).
On the service-by-email question, there is a deep
and entrenched split of authority, with over a dozen
district court cases holding that email service violates
the Hague Service Convention and several dozen more
taking the opposite view. This Court should not await
further percolation in the courts of appeals given the
enormous number of district court opinions and the
rarity with which courts of appeals reach the issue

2
(typically only in cases where email service is upheld,
as opposed to where it is deemed inadequate, thereby
prompting compliant service abroad). Moreover, there
is a substantial harm in waiting—as an international
treaty is being trampled while dozens of cases are barreling forward with proceedings that stand to be voided
to the extent service may later be deemed improper.
Ultimate voiding is very likely because the email
service approved by the Tenth Circuit and dozens of
district courts breaks from this Court’s precedents. In
particular, this Court has held that, where the Hague
Service Convention applies, it provides the “exclusive”
method of service and “pre-empts” other methods of
service. Volkswagenwerk, 486 U.S. at 699, 706; see
also Water Splash, Inc. v. Menon, 137 S. Ct. 1504, 1507
(2017). Because the Hague Service Convention does
not list email as an acceptable means of service, it
is prohibited. Indeed, the courts and commentators
examining this issue have recognized this straightforward logic and have criticized the lack of analysis
in decisions like the one below.
On the personal-jurisdiction question, the decision
in Ford Motor likely will require a GVR here. Whatever
the precise outcome in Ford Motor, the Court is very
unlikely to adopt the Tenth Circuit’s standard, under
which forum contacts suffice so long as they are “part
of the narrative” of the case. App. 30a. In addition,
the Tenth Circuit stated that it confronted a “close
question” on personal jurisdiction and specifically
noted the need for this Court’s guidance on the proper
standard for determining when a claim “aris[es] out
of” forum contacts. App. 27a. Accordingly, this Court
should afford the Tenth Circuit the opportunity to
reconsider its opinion with the benefit of this Court’s
forthcoming guidance.

3
OPINION BELOW
The opinion of the U.S. Court of Appeals for the
Tenth Circuit is reported at 970 F.3d 1269 and
reproduced at App. 1a-55a.
JURISDICTION
The court of appeals issued its opinion on August 17,
2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
TREATY AND RULES PROVISIONS INVOLVED
The relevant provisions of the Hague Service
Convention are as follows:
The present Convention shall apply in all
cases, in civil or commercial matters, where
there is occasion to transmit a judicial or
extrajudicial document for service abroad. ...
Hague Service Convention, art. 1.
Each Contracting State shall designate a
Central Authority which will undertake to
receive requests for service coming from other
Contracting States and to proceed in conformity with the provisions of Articles 3 to 6. ...
Id., art. 2.
Difficulties which may arise in connection
with the transmission of judicial documents
for service shall be settled through diplomatic
channels.
Id., art. 14.

4
The relevant provisions of the Federal Rules of Civil
Procedure are as follows:
(f) Serving an Individual in a Foreign
Country. Unless federal law provides otherwise, an individual—other than a minor, an
incompetent person, or a person whose waiver
has been filed—may be served at a place not
within any judicial district of the United States:
. . .
(3) by other means not prohibited by
international agreement, as the court orders.
Fed. R. Civ. P. 4(f).
STATEMENT
A. The Alleged Breach Of Contract
CIMSA is a Bolivian corporation, with its principal
place of business in Bolivia. App. 57a. GCC are Mexican
corporations based in Chihuahua, Mexico. Id.
GCC and CIMSA conducted extensive, in-person
negotiations and due diligence regarding GCC’s purchase of shares of Sociedad Boliviana de Cemento, S.A.
(“SOBOCE”), a cement company that operates in Bolivia.
App. 5a. These meetings occurred almost entirely in
Bolivia and Mexico; only one preliminary meeting
occurred in Florida, at which no agreement was reached
and no negotiations were conducted over any terms.
App. 57a-58a.
GCC and CIMSA entered into a shareholder agreement in Bolivia, whereby GCC acquired a 47% interest
in SOBOCE, and CIMSA would have a right of first
refusal if GCC sold these shares. App. 98a. GCC and
CIMSA also agreed that all disputes arising out of the

5
agreement would be subject to arbitration in Bolivia
under Bolivian law. App. 99a.
A dispute later arose regarding GCC’s sale of its
shares in SOBOCE to a Peruvian cement company,
Consorcio Cementero del Sur, S.A. (“CCS”). App. 59a.
CIMSA claimed that this sale violated its right of first
refusal. App. 60a.
B. The Arbitration In Bolivia
Pursuant to the shareholder agreement, CIMSA
began arbitration proceedings in Bolivia under Bolivian
law. App. 7a. The arbitral tribunal issued an award
finding GCC liable to CIMSA. (App. 8a) and a second
award concluding that damages were US$36,139,223
plus interest (App. 60a).
C. The District Court Proceedings
CIMSA brought a petition in district court to confirm
the arbitral award, id., but failed to effect service
of process upon GCC through the Hague Service
Convention, App. 12a-13a. CIMSA sought an order
authorizing alternative service, and the district court
granted this motion, authorizing service on GCC
through its U.S. counsel, App. 13a. The district court
did not address the legal basis for allowing email
service, but ruled:
[I]t is clear that Respondents are on notice of
these proceedings and are in regular contact
with counsel. They have submitted multiple
briefs and other filings, yet refuse to waive
service or authorize their counsel to accept
service. I will not abide Respondents’ irksome
and peevish attempts to frustrate service
unnecessarily while they actively participate
in the present litigation. Therefore, I find

6
that service of Respondents through their
U.S. counsel, Cleary Gottlieb and/or general
counsel Sergio Saenz, by e-mail will comport
with due process.
App. 121a.
The district court denied GCC’s motion to dismiss
CIMSA’s petition on personal-jurisdiction grounds.
App. 96a-118a. Although Colorado lacked personal
jurisdiction over GCC, the court held that Federal
Rule of Civil Procedure 4(k)(2) authorized it to consider
GCC’s nationwide contacts. App. 103a & n.4. It then
exercised jurisdiction over GCC based on three U.S.
contacts: (1) meetings in Miami where GCC negotiated
a failed agreement with CIMSA to purchase the
SOBOCE shares; (2) one meeting in Houston where
CIMSA proposed terms for the SOBOCE purchase
that GCC rejected; and (3) GCC’s hiring of U.S.-based
attorneys. App. 109a-110a. The court ruled that it did
not matter whether the U.S. contacts were relevant to
the claim for confirmation of the arbitral award
because requiring such a link would “frustrate the primary purpose of the [New York] Convention.” App. 111a.
D. The Court Of Appeals Decision
The Tenth Circuit (Briscoe, J., joined by Ebel and
Lucero, JJ.) affirmed. The court held that CIMSA
properly served defendants by email to GCC’s U.S.
counsel. App. 39a-43a. The court acknowledged that
“the Hague Service Convention does not authorize
service methods beyond the use of [Mexico’s] central
authority.” App. 42a. Yet it nonetheless held that “the
relevant inquiry under Rule 4(f)(3) is not whether the
agreement affirmatively endorses service outside the
central authority,” but “whether the alternative service
method in question is ‘prohibited’ by the agreement.”

7
Id. (quoting Fed. R. Civ. P. 4(f)(3)). And it relied on
“[s]everal tribunals” ruling that the Hague Service
Convention “does not contain a specific prohibition on
this form of service.” Id. It further held that service
complied with Rule 4(f)(3) because an email sent to
U.S. counsel, to give notice to a foreign party, constitutes service “‘at a place not within any judicial district
of the United States.’” App. 44a (quoting Fed. R. Civ.
P. 4(f)).
The Tenth Circuit also found personal jurisdiction
satisfied, holding there was specific jurisdiction over
GCC. The court began by holding that there need only
be a connection to the breach-of-contract claim underlying the Bolivian arbitration, rather than a connection
to the sole claim in U.S. court: the claim for enforcement of the Bolivian arbitral award. App. 24a-27a. As
to the breach-of-contract claim, the Tenth Circuit
recognized that it was a “close question” whether the
U.S. contacts here were sufficiently connected to the
case. App. 27a. It also noted that this Court “has
not yet explained the scope of the ‘arising out of’
requirement.” Id. (quotation marks omitted). The
court focused on meetings in the United States that
predated the alleged breach of CIMSA’s right of first
refusal. App. 29a-30a. And it held that “GCC’s American
contacts bear at least some causal relationship with
CIMSA’s injury, even if CIMSA’s loss was not proximately caused in a tort sense by GCC’s activities in the
United States.” App. 29a. The court concluded that it
sufficed for personal jurisdiction that the U.S. contacts
“form part of the narrative determining when and how
GCC’s breach occurred.” App. 30a.
After the Tenth Circuit decision at issue here, the
Bolivian courts vacated the damages portion of the
arbitral award, and, on November 20, 2020, GCC filed

8
a Rule 60(b) motion to vacate the judgment, which
motion is pending in the district court.
REASONS FOR GRANTING THE WRIT
This Court should grant certiorari to address the
Tenth Circuit’s decision to allow email service to
circumvent the requirements of the Hague Service
Convention and, in the alternative, this Court should
GVR the Tenth Circuit’s personal jurisdiction decision
in light of Ford Motor.
I. There is an enormous and ever-growing split of
authority on whether email service on a foreign
party under Rule 4(f)(3) violates the Hague Service
Convention. There are at least a dozen district courts
that have prohibited such email service, and at least
three dozen others that have allowed it. In the last
year alone, over twenty courts have addressed the
issue, and they continue to divide on the outcome.
The Tenth Circuit’s decision to allow email service
conflicts with this Court’s holding that the Hague
Service Convention’s methods of service are “exclusive”
and “pre-empt[ive].” Volkswagenwerk, 486 U.S. at
699, 706. The Tenth Circuit, along with the dozens of
district courts allowing email service, fail to confront
this Court’s precedents. Instead, they simply cite
other cases, all stemming from the same foundational
error in over-reading an old Ninth Circuit case that did
not at all concern the Hague Service Convention. The
result is a body of case law that springs from imagined
foundations but is nonetheless spawning a very real
explosion of email service across the country—all in
defiance of the Hague Service Convention. And to the
extent that courts attempt to justify email service,
they rely on the claim that Rule 4(f)(3) somehow

9
trumps the Hague Service Convention, a conclusion
that is misconceived.
This case affords an ideal vehicle to address the
issue. The district court and court of appeals squarely
decided the question of email service. The particular
context here is an especially common means for district
courts to evade the Hague Service Convention—i.e.,
allowing email service on U.S. counsel. This context is
also especially problematic, as it effectively punishes
foreign companies for hiring U.S. counsel to contest
service by allowing service on that counsel to substitute
for proper service under the Hague Service Convention.
This issue is worthy of this Court’s review, and this
Court should not await further circuit court decisions
on the issue. The sheer number of cases on the issue
is staggering, yet the issue rarely reaches the courts of
appeals. Moreover, when it does reach the court of
appeals, it typically does so in cases where email
service is being authorized (because otherwise a plaintiff
will have simply turned to an authorized mode of
service abroad), and where ultimate appeal to this
Court (following an adverse final judgment) is remote.
Accordingly, if certiorari is not granted in this case, it
may be many more years until the issue returns to this
Court. In the interim, dozens of cases will proceed
under the mistaken view that email service can
circumvent the Hague Service Convention. All of the
proceedings in those cases may become void for lack of
jurisdiction in the event that view is later rejected. As
such, it would benefit courts and parties across the
country—as well as international relations and the
interests of foreign sovereigns around the world—for
this Court to decide now whether email service is
permissible.

10
II. In the alternative, if this Court does not grant
certiorari on the first question presented, it should
hold the petition and GVR in light of Ford Motor.
The Tenth Circuit’s decision on personal jurisdiction
addressed the same issue this Court is considering in
Ford Motor: the proper standard for determining
whether the forum contacts are sufficiently connected
to the case for specific personal jurisdiction. In considering this issue, the court openly acknowledged the
need for this Court’s guidance on the correct standard,
and did so in what even it deemed a “close question”
on personal jurisdiction. App. 27a. The court also
recognized that the forum contacts asserted here were
connected only to the underlying claim in the Bolivian
arbitration, not to the claim in the United States for
enforcement of the arbitral award. The court further
held that, even for the underlying claim for breach of
contract, it sufficed that the forum contacts formed
“part of the narrative” of the case, even if they did
not actually cause the breach. App. 30a. Given the
uniqueness of the Tenth Circuit’s standard, the
closeness of the case, and the Tenth Circuit’s statement that this Court had not yet provided guidance on
the issue, it is very likely that Ford Motor’s analysis
will call into question the Tenth Circuit’s reasoning
and will therefore warrant a GVR.

11
I. THE COURT SHOULD RESOLVE THE
CONFLICT IN THE LOWER COURTS
OVER WHETHER EMAIL SERVICE ON
A FOREIGN PARTY UNDER RULE
4(f)(3) VIOLATES THE HAGUE SERVICE
CONVENTION
A. There Is A Widespread Division Of
Authority On This Issue
District courts across the country are intractably
divided on the question whether email service is proper
under the Hague Service Convention. Courts and
commentators consistently recognize this split of authority. See, e.g., Luxottica Grp. S.p.A. v. Partnerships &
Unincorporated Ass’ns Identified on Schedule “A”, 391
F. Supp. 3d 816, 822 (N.D. Ill. 2019), reconsideration
denied in part, No. 18-cv-02188, 2019 WL 2357011
(N.D. Ill. June 4, 2019) (“Federal trial courts have
divided over whether the Convention limits their
authority to authorize service of process by email.”);
Facebook, Inc. v. 9 Xiu Network (Shenzhen) Tech.
Co., No. 19-cv-01167-JST, 2020 WL 5036085, at *5-6
(N.D. Cal. Aug. 19, 2020) (similar); see also Michael A.
Rosenhouse, Annotation, Permissibility of Effectuating
Service of Process by Email Between Parties to Hague
Convention on Service Abroad of Judicial and Extrajudicial Documents in Civil or Commercial Matters, 14
A.L.R. Fed. 3d Art. 8 (2016) (“A split of authority has
developed concerning whether service by email is
permissible under the Hague Convention and the
Federal Rules.”); Maggie Gardner, Parochial Procedure,
69 Stan. L. Rev. 941, 998-1003 (2017) (discussing the
split).
At least a dozen courts have recognized that email
service is improper because the methods of service the
Hague Service Convention allows are exclusive, and

12
email service is not among the listed methods. See,
e.g., Luxottica, 391 F. Supp. 3d at 827 (“Because
email would bypass the methods of service the Hague
Convention authorizes, the Convention preempts it
as inconsistent.”); Facebook, 2020 WL 5036085, at *8
(“Service by e-mail on defendants in China is not one
of the Hague Service Convention’s approved methods
of service. Thus, unless an exception to the Convention
applies, service by e-mail on the China-based defendants in question here cannot be authorized under Rule
4(f)(3).”); Anova Applied Elecs., Inc. v. Hong King Grp.,
Ltd., 334 F.R.D. 465, 471-72 (D. Mass. 2020) (“Rule 4(f)(3)
does not permit e-mail service on defendants . . . .”).1
Nonetheless, the majority position is that email
service is permitted under Rule 4(f)(3) despite the
express limitations set forth in the Hague Service
Convention. As one court noted, “courts routinely
direct service on an international defendant’s counsel
under Rule 4(f)(3).” WorldVentures Holdings, LLC v.
1

See also, e.g., Gonzalez v. US Human Rights Network, No.
CV-20-00757-PHX-DWL, 2021 WL 86767, at *15 (D. Ariz. Jan.
11, 2021); Prem Sales, LLC v. Guangdong Chigo Heating, No. 20CV-141-M-BQ, 2020 WL 6063452, at *9 (N.D. Tex. Oct. 14, 2020);
Habas Sinai Ve Tibbi Gazlar Istihsal A.S. v. Int’l Tech. &
Knowledge Co., No. 19-cv-00608-PLD, 2019 WL 7049504, at *3
(W.D. Pa. Dec. 23, 2019); Midmark Corp. v. Janak Healthcare
Private Ltd., No. 14-cv-088, 2014 WL 1764704, at *3 (S.D. Ohio
May 1, 2014); Elobeid v. Baylock, 299 F.R.D. 105, 108 (E.D. Pa.
2014); Compass Bank v. Katz, 287 F.R.D. 392, 395 (S.D. Tex.
2012); Mapping Your Future, Inc. v. Mapping Your Future Servs.,
Ltd., 266 F.R.D. 305, 308 (D.S.D. 2009); Agha v. Jacobs, No. 07civ-01800-RMW, 2008 WL 2051061 (N.D. Cal. May 13, 2008);
CRS Recovery, Inc. v. Laxton, No. 06-cv-7093-CW, 2008 WL
11383537, at *1-2 (N.D. Cal. Jan. 8, 2008). One state supreme
court has taken the same view. See Cardona v. Kreamer, 235 P.3d
1026, 1030 (Ariz. 2010) (“When the Convention applies, alternative service in Mexico through postal channels and email is
prohibited, and the superior court erred in ruling otherwise.”).

13
Mavie, No. 18-cv-00393-ALM-KPJ, 2018 WL 6523306,
at *14 (E.D. Tex. Dec. 12, 2018). Dozens of courts have
taken this position over the last decade.2
2

Rubie’s Costume Co., Inc. v. Yiwu Hua Hao Toys Co., No. 18cv-01530-RAJ, 2019 WL 6310564, at *3 (W.D. Wash. Nov. 25, 2019);
Gamboa v. Ford Motor Co., 414 F. Supp. 3d 1035, 1042 (E.D.
Mich. 2019), opinion modified on reconsideration, No. 18-cv10106-DPH-EAS, 2019 WL 8378038 (E.D. Mich. Nov. 15, 2019);
Fourte Int’l Ltd. BVI v. Pin Shine Indus. Co., No. 18-cv-00297BAS-BGS, 2019 WL 246562, at *2-3 (S.D. Cal. Jan. 17, 2019);
Angiodynamics, Inc. v. Neuberger, No. 18-cv-30092, 2018 WL 5792321,
at *1 (D. Mass. Nov. 5, 2018); Keck v. Alibaba.com, Inc., No. 17cv-05672-BLF, 2018 WL 3632160, at *3-4 (N.D. Cal. July 31, 2018);
Kipu Sys., LLC v. ZenCharts, LLC, No. 17-cv-24733, 2018 WL
8264634, at *2 (S.D. Fla. Mar. 29, 2018); Jackson Lab. v. Nanjing
Univ., No. 17-cv-00363-GZS, 2018 WL 615667, at *4 (D. Me. Jan.
29, 2018); Phoenix Process Equip. Co. v. Capital Equip. & Trading
Corp., 250 F. Supp. 3d 296, 308 (W.D. Ky. 2017); Microsoft Corp.
v. Goldah.com Network Tech. Co., No. 17-cv-02896-LHK, 2017
WL 4536417, at *4 (N.D. Cal., Oct. 11, 2017); Microsoft Corp. v.
Gameest Int’l Network Sales Co., No. 17-cv-02883-LHK, 2017 WL
4517103, at *2-3 (N.D. Cal. Oct. 10, 2017); Codigo Music, LLC v.
Televisa S.A., No. 15-cv-21737, 2017 WL 4346968, at *7 (S.D. Fla.
Sept. 29, 2017); Seaboard Marine Ltd., Inc. v. Magnum Freight
Corp., No. 17-cv-21815, 2017 WL 7796153, at *2 (S.D. Fla. Sept.
21, 2017); Williams-Sonoma, Inc. v. Friendfinder, Inc., No. 06-cv06572-JSW, 2007 WL 1140639, at *2 (N.D. Cal. Apr. 17, 2017);
Juicero, Inc. v. Itaste Co., No. 17-cv-01921-BLF, 2017 WL 3996196,
at *3 (N.D. Cal. June 5, 2017); Bazarian Int’l Fin. Assocs., L.L.C.
v. Desarrollos Aerohotelco, C.A., 168 F. Supp. 3d 1, 13-16 (D.D.C.
2016); Sulzer Mixpac AG v. Medenstar Indus. Co., 312 F.R.D. 329,
332 (S.D.N.Y. 2015); In re Chinese-Manufactured Drywall Prod.
Liab. Litig., No. 09-cv-02047, 2015 WL 13387769, at *4 (E.D. La.
Nov. 9, 2015); United States v. Besneli, 2015 WL 4755533, at *2
(S.D.N.Y. Aug. 12, 2015); MultiFab, Inc. v. ArlanaGreen.com, No.
15-cv-0066-SMJ, 2015 WL 12880504, at *3-4 (E.D. Wash., Mar.
13, 2015); Magpul Indus. Corp. v. Zejun, No. 14-cv-01556-JSW,
2014 WL 7213344, at *2 (N.D. Cal. Dec. 16, 2014); Affinity Labs
of Texas, LLC v. Nissan N. Am., Inc., No. 13-cv-369, 2014 WL
11342502, at *1-*4 (W.D. Tex. July 2, 2014); Midmark Corp. v.

14
In the last year, courts have accelerated this trend,
now frequently approving service by email notwithstanding several recent decisions, listed above, criticizing
this case law. See, e.g., Terrestrial Comms LLC v. NEC
Corp., No. 20-cv-00096-ADA, 2020 WL 3452989, at *3
(W.D. Tex. June 24, 2020) (“District courts routinely
direct service on an international defendant’s counsel
under Rule 4(f)(3) even if the counsel has not been
expressly authorized to accept service on the defendant’s behalf.”).3

Janak Healthcare Private Ltd., No. 14-cv-088, 2014 WL 1764704,
at *2 (S.D. Ohio May 1, 2014); F.T.C. v. PCCare247 Inc., No. 12cv-7189-PAE, 2013 WL 841037, at *2-4 (S.D.N.Y. Mar. 7, 2013);
Henry F. Teichmann, Inc. v. Caspian Flat Glass OJSC, No. 13-cv458, 2013 WL 1644808, at *1-2 (W.D. Pa. Apr. 16, 2013); RPost
Holdings, Inc. v. Kagan, No. 11-cv-238-JRG, 2012 WL 194388, at
*2-3 (E.D. Tex. Jan. 23, 2012); Russell Brands, LLC v. GVD Int’l
Trading, SA, 282 F.R.D. 21, 26 (D. Mass. 2012); Gucci Am., Inc.
v. Wang Huowing, No. 09-cv-05969-JCS, 2011 WL 31191, at *3
(N.D. Cal. Jan. 3, 2011), report and recommendation adopted,
09-cv-05969-CRB, 2011 WL 30972 (N.D. Cal. Jan. 5, 2011); Knit
With v. Knitting Fever, Inc., Nos. 08-cv-4221, 08-cv-4775, 2010
WL 4977944, at *4-5 (E.D. Pa. Dec. 7, 2010); Chanel, Inc. v. Lin,
No. 09-cv-04996-JCS, 2010 WL 2557503, at *3 n.3 (N.D. Cal. May
7, 2010), report and recommendation adopted, No. 09-cv-04996SI, 2010 WL 2557561 (N.D. Cal. June 21, 2010).
3

See also Reflex Media, Inc. v. Richard Easton Ltd., No. 2:20cv-00051-GMN-EJY, 2021 WL 24687, at *1 (D. Nev. Jan. 4,
2021);Document Operations LLC v. AOS Legal Techs., No. 20-cv1532, 2020 WL 6685488, at *3-5 (S.D. Tex. Nov. 12, 2020); The
Neck Hammock, Inc v. Danezen.com, No. 20-cv-287-DAK-DBP,
2020 WL 6364598, at *4-5 (D. Utah Oct. 29, 2020); Magma
Holding, Inc. v. Ka Tat ‘‘Karter” Au-Yeung, No. 20-cv-00406-RFBBNW, 2020 WL 5877821, at *4-5 (D. Nev. Oct. 2, 2020);
Richemont Int’l SA v. montblanchot.com, No. 20-cv-61941, 2020
WL 5763931, at *2 (S.D. Fla. Sept. 28, 2020); Hardin v. Tron
Found., No. 20-cv-2804-VSB, 2020 WL 5236941, at *1-2 (S.D.N.Y.
Sept. 1, 2020); Cunningham v. Gen. Motors LLC, No. 20-cv-3097-

15
B. Decisions Allowing Service By Email
Conflict With This Court’s Precedents
1. This Court’s precedents, holding that the Hague
Service Convention’s methods of service are exclusive,
refute the numerous courts allowing service by email
on foreign defendants. As this Court has explained,
the Hague Service Convention “requires each state to
establish a central authority to receive requests for
service of documents from other countries,” and that
central authority “serve[s] the documents by a method
prescribed by,” or compatible with, “the internal law of
the receiving state.” Volkswagenwerk, 486 U.S. at
698-99 (discussing Articles 2 and 5). If “the forum’s
internal law require[s] transmittal of documents for
service abroad,” then “the Convention therefore provide[s]
the exclusive means of valid service.” Id. at 706
(emphasis added). In short, “the Hague Service
Convention specifies certain approved methods of
service and ‘pre-empts inconsistent methods of service’
wherever it applies.” Water Splash, 137 S. Ct. at 1507
(quoting Volkswagenwerk, 486 U.S. at 699); see also
Volkswagenwerk, 486 U.S. at 699 (“the Convention
pre-empts inconsistent methods of service . . . in all
cases to which it applies” (emphasis added)); id. at 703
(holding that the Hague Service Convention eliminated “notification au parquet” by not including it as

AKH, 2020 WL 4748157, at *1 (S.D.N.Y. Aug. 17, 2020); In re
Bibox Grp. Holdings Ltd. Sec. Litig., No. 20-cv-2807-DLC, 2020
WL 4586819, at *3 (S.D.N.Y. Aug. 10, 2020); Rang Dong Joint
Stock Co. v. J.F. Hillebrand USA, Inc., No. 18-cv-003195-KJMKJN, 2020 WL 3841185, at *9 (E.D. Cal. July 8, 2020);
Commodity Futures Trading Comm’n v. Fingerhut, No. 20-cv21887, 2020 WL 4499198, at *1-2 (S.D. Fla. May 29, 2020); SEC
v. de Nicolas Gutierrez, No. 17-cv-2086-JAH-JLB, 2020 WL
1307143, at *2-3 (S.D. Cal. Mar. 19, 2020).

16
an approved method of service).4 Indeed, the inquiry
in Water Splash—whether Article 10 of the Hague
Service Convention permitted service by mail—would
have been superfluous if service by mail were allowed
regardless of whether the Hague Service Convention
permitted it. 137 S. Ct. at 1507.
It is undisputed that the Hague Service Convention
does not permit service by email. Because the Hague
Service Convention’s methods of service are exclusive
and preempt inconsistent methods of service, as this
Court has held, service by email is necessarily improper
in any case governed by the Hague Service Convention.
The courts that have examined Volkswagenwerk have
all agreed in following this inexorable reasoning. See,
e.g., Luxottica, 391 F. Supp. 3d at 827; Facebook, 2020
WL 5036085, at *8. Likewise, many commentators
have recognized the same. See, e.g., Gardner, supra,
at 998-1001; N.D. Cal Gets It Right, Hague Law Blog,
https://www.haguelawblog.com/2020/08/n-d-cal-gets-itright (Aug. 13, 2020) (“It’s not easy to understand why
courts have concluded that Hague methods aren’t
exclusive—it’s utterly baffling in light of [Volkswagenwerk
v.] Schlunk . . . .” (emphasis in original)); Theodore J.
Folkman, Gurung v. Malhotra Is Wrongly Decided
(manuscript at 12), https://papers.ssrn.com/sol3/pap
4

Similarly, the U.S. State Department has explained that
“service through the Mexico Central Authority is the exclusive
method available.”
U.S. Department of State—Bureau of
Consular Affairs, “Judicial Assistance Country Information: Mexico,”
available at https://travel.state.gov/content/travel/en/legal/Judic
ial-Assistance-Country-Information/Mexico.html (last updated
Oct. 19, 2017) (https://perma.cc/PL33-TGE3). This follows from
the well-settled principle that a treaty must first be construed
based on its “ordinary meaning.” Vienna Convention on the Law
of Treaties, 1155 U. N. T. S. 331, T. S. No. 58 (1980), 8 I. L. M.
679 (1969) (“Vienna Convention”), art. 31.1.

17
ers.cfm?abstract_id=2370078 (“Because the Hague
Service Convention is exclusive . . . , it is clear that
Gurung and the cases that have followed it are
wrongly decided.”).
2. The reasoning of the courts permitting email
service is often nonexistent. Instead, the cases simply
cite each other, all going back to a simple error in
relying upon a Ninth Circuit case, Rio Properties, Inc.
v. Rio International Interlink, 284 F.3d 1007 (9th Cir.
2002). See Facebook, 2020 WL 5036085, at *6 (“A
reason for the tilt in the opposite direction is an overly
broad reading of Rio Properties . . . .”); see also
Gardner, supra, at 999-1001 (noting the reliance in the
case law on Rio Properties). While Rio Properties has
some broad language about the authority to allow
email service, it did not and had no reason to consider
the potential conflict with the Hague Service Convention:
“the Hague Convention does not apply in this case
because Costa Rica is not a signatory.” Rio Props., 284
F.3d at 1015 n.4. As such, the many courts that
directly or indirectly rely upon Rio Properties wind up
whistling past what should be the dispositive issue:
the ostensible conflict with the Hague Service Convention.
More recently, several courts have erred in relying
upon Nagravision SA v. Gotech International Technology
Ltd., 882 F.3d 494, 498 (5th Cir. 2018). See, e.g.,
Gamboa, 414 F. Supp. 3d at 1039; WorldVentures,
2018 WL 6523306, at *13 n.26. In Nagravision, the
Fifth Circuit stated in a single sentence of analysis
that “the Hague Convention . . . does not displace Rule
4(f)(3).” Id. at 498. In the sole case that Nagravision
relied upon, however, the address of the party to be
served was unknown, so the Hague Service Convention
did not apply at all. See United States v. Real Prop.
Known As 200 Acres of Land Near FM 2686 Rio

18
Grande City, Tex., 773 F.3d 654, 660 (5th Cir. 2014);
see also Hague Service Convention, art. 1 (“This
Convention shall not apply where the address of the
person to be served with the document is not known.”).
In that posture, Nagravision had no occasion to
address this Court’s precedents addressing the exclusivity of service methods under the Hague Service
Convention; the upshot has misled other courts to cite
Nagravision as always blessing email service without
needing to grapple with the Hague Service Convention.
Notably, one district court within the Fifth Circuit
correctly held that email service was improper, and
that “Nagravision does not stand for the general
proposition that email service on a [foreign] defendant
is permitted under the Convention,” because service in
Nagravision was proper under the Hague Service
Convention. Prem Sales, 2020 WL 6063452, at *5-6.
Indeed, the Tenth Circuit’s opinion here is a perfect
example of how courts are blindly following each other
in allowing email service, rather than considering
whether email service is effectively prohibited by the
Hague Service Convention, when properly read in the
light of this Court’s precedents. The Tenth Circuit
stated simply: “Several tribunals have held . . .
that the Convention does not contain a specific
prohibition on this form of service.” App. 42a. Under
Volkswagenwerk and Water Splash, however, there is
no need for a “specific prohibition” because the
methods of service the Hague Service Convention
permits are exclusive, by definition and by design.
Moreover, the cases the Tenth Circuit cited (App. 42a43a) likewise said little on the issue, beyond simply
overreading Rio Properties. See de Nicolas Gutierrez,
2020 WL 1307143, at *1, *3; FTC v. Repair All PC,
LLC, No. 1:17-cv-00869-DAP, 2017 WL 2362946, at
*3-4 (N.D. Ohio May 31, 2017); Carrico v. Samsung

19
Elecs. Co., No. 15-cv-02087-DMR, 2016 WL 2654392,
at *3-4 (N.D. Cal. May 10, 2016); In re Cathode Ray
Tube (CRT) Antitrust Litig., 27 F. Supp. 3d 1002, 1010
(N.D. Cal. 2014); Richmond Techs., Inc. v. Aumtech
Bus. Sols., No. 5:11-cv-02460-LHK, 2011 WL 2607158,
at *11-13 (N.D. Cal. July 1, 2011).
3. To the extent that the courts allowing email
service have provided some justification for their
position, their reasoning is misconceived. First, some
courts have relied on the theory that Rule 4(f)(3)
somehow supersedes the Hague Service Convention
and that this Court’s holding as to the exclusivity of
the Hague Service Convention was mere dicta.5 But
no legal principle authorizes the Federal Rules of Civil
Procedure to render inoperative the provisions of a
duly-enacted treaty. See, e.g., Sibbach v. Wilson & Co.,
312 U.S. 1, 9-10 (1941) (holding that the authority
exercised in the Federal Rules of Civil Procedure is
“to make rules not inconsistent with the statutes or
Constitution of the United States”); Vienna Convention,
5

See, e.g., Richmond, 2011 WL 2607158, at *12 (“Although the
Supreme Court has stated, in dicta, that ‘compliance with the
Convention is mandatory in all cases to which it applies,’ it has
not provided clear guidance as to how the requirements of the
Hague Convention interact with a court’s authority to order
alternative service under Rule 4(f)(3).”) (quoting Volkswagenwerk,
486 U.S. at 705); In re Zantac (Ranitidine) Prod. Liab. Litig., No.
9:20-md-02924-RLR, 2020 WL 5501141, at *1 (S.D. Fla. Sept. 11,
2020) (“While ‘compliance with the Convention is mandatory in
all cases to which it applies,’ the Court is permitted to order
alternate means of service as long as the signatory nation has not
expressly objected to those means.”) (quoting Volkswagenwerk,
486 U.S. at 705); Fingerhut, 2020 WL 4499198, at *1-2 (“While
‘compliance with the Convention is mandatory in all cases to
which it applies,’ the Court is permitted to order alternate means
of service as long as the signatory nation has not expressly objected
to those means.”) (quoting Volkswagenwerk, 486 U.S. at 705).

20
art. 27 (“A party may not invoke the provisions of its
internal law as justification for its failure to perform a
treaty.”). In any event, Rule 4(f)(3) by its terms does
not purport to do any such thing: to the contrary, it
permits service only “by other means not prohibited
by international agreement.” Fed. R. Civ. P. 4(f)(3)
(emphasis added). In other words, where an international
agreement (such as the Hague Service Convention)
effectively prohibits a particular method of service,
Rule 4(f)(3) by its own terms does not permit that
method. And as this Court held in Volkswagenwerk—
in language that is not dicta but fundamental to the
decision—the Hague Service Convention’s methods of
service are exclusive and preemptive.
Second, some courts have held that, if the email is
sent to an individual inside the United States, then
the Hague Service Convention does not apply. See,
e.g., Codigo Music, 2017 WL 4346968, at *13. But the
Tenth Circuit expressly and correctly rejected that
notion, holding that the email constituted service
outside the United States. App. 44a-45a. Regardless,
this argument cannot support service in any case
concerning Rule 4(f)(3) because that rule applies only
to “serv[ice] at a place not within any judicial district
of the United States.” Fed. R. Civ. P. 4(f). Therefore,
if service is deemed to have occurred within the United
States, then Rule 4(f)(3), by its express terms, does not
apply.6 And if service is deemed to have occurred
6

Where service is deemed to occur is a matter of domestic law
even under the Hague Service Convention. See Volkswagenwerk,
486 U.S. at 707 (“Where service on a domestic agent is valid and
complete under both state law and the Due Process Clause, our
inquiry ends and the Convention has no further implications.”);
see also Gardner, supra, at 1001 (“If a court reaches Rule 4(f)(3),
then, [Volkswagenwerk v.] Schlunk’s exception for domestic substituted service is inherently no longer relevant.”). Accordingly,

21
outside the United States, then the Hague Service
Convention does apply.
In short, Rule 4(f)(3) does not and cannot provide an
end-run around the Hague Service Convention. See
Volkswagenwerk, 486 U.S. at 705 (“[W]e do not think
that this country, or any other country, will draft its
internal laws deliberately so as to circumvent the
Convention in cases in which it would be appropriate
to transmit judicial documents for service abroad.”).
Moreover, in this case (like the majority of the cases
discussed above), there was not even an argument that
service on U.S. counsel was permissible under any law
or rule other than Rule 4(f)(3).
C. This Case Is An Ideal Vehicle To
Resolve The Conflict
Both the district court and the Tenth Circuit
expressly decided that email service under Rule 4(f)(3)
does not violate the Hague Service Convention. Because
the Hague Service Convention does not permit email
service in any situation, the question presented here—
whether email service violates the Hague Service

there is no sense in which service could be deemed within the
United States for purposes of Rule 4(f)(3) yet outside the United
States for purposes of the Hague Service Convention.
Notably, the cases the Tenth Circuit cited on this point (App.
44a-45a) generally concerned situations where the foreign nation
was not a signatory to the Hague Service Convention or had
renounced it. See Freedom Watch, Inc. v. Org. of the Petroleum
Exporting Countries (OPEC), 766 F.3d 74, 79 (D.C. Cir. 2014);
Nuance Commc’ns, Inc. v. Abbyy Software House, 626 F.3d 1222,
1237-38 (Fed. Cir. 2010); Rio Props., 284 F.3d at 1015 n.4; see also
Marks Law Offs., LLC v. Mireskandari, 704 F. App’x 171, 177 (3d
Cir. 2017) (authorizing service by mail, consistent with Water Splash).

22
Convention—is the same basic one on which the cases
discussed above have hinged.7
Moreover, the particular situation here, where
email service was made upon U.S. counsel, especially
warrants this Court’s review. Many of the cases in the
split concern the exact same situation of email service
on U.S. counsel under Rule 4(f)(3). See, e.g., Gonzalez,
2021 WL 86767, at *15; Marks Law Offs., 704 F. App’x
at 177; Bazarian, 168 F. Supp. 3d at 17. Allowing not
only email service, but such service on U.S. counsel, is
especially troubling because it effectively punishes
foreign defendants for hiring U.S. counsel to dispute
service in forthright, respectful fashion. It is well
established that a party does not consent to service
merely by appearing to contest service.8 Yet courts
have been upending that cardinal rule by treating
service upon U.S. counsel as sufficient; in essence,
7

A small number of cases deals with the question whether
email constitutes a “postal channel[]” for which service is proper
under Article 10 of the Hague Service Convention. In most cases,
however, the foreign country has objected to Article 10 such that
it does not apply. The same is true here, as Mexico has rejected
Article 10. See App. 39a (citing Hague Conference on Private
International Law (“HCCH”) website, https://www. hcch.net/en/
instruments/conventions/statustable/notifications/?csid=412&disp
=resdn). That is why CIMSA has not argued—and the Tenth Circuit
had no reason to consider—whether email is a postal channel.
8

See, e.g., Grand Ent. Grp., Ltd. v. Star Media Sales Inc., 988
F.2d 476, 492 (3d Cir. 1993) (“Notice to a defendant that he has
been sued does not cure defective service, and an appearance for
the limited purpose of objecting to service does not waive the
technicalities of the rule governing service.”); Friedman v. Estate
of Presser, 929 F.2d 1151, 1157 n.7 (6th Cir. 1991) (“[A]s [the
defendant’s] first pleading specifically contested the insufficiency
of service of process, it cannot be plausibly contended that he
waived Rule 4’s requirements and thereby submitted to the
district court’s jurisdiction.”) (emphasis removed).

23
courts are using the challenge to service as the basis
for service—even where, as here, U.S. counsel was
retained specifically and solely to contest service. Such
an abrogation of defendants’ right to contest service
(increasingly adopted by district courts across the
country) cries out for this Court’s review. See Convergen
Energy LLC v. Brooks, No. 20-cv-03746-LJL, 2020 WL
4038353, at *8 (S.D.N.Y. July 17, 2020) (“The law
should encourage foreign individuals and entities to
consult with United States counsel about their obligations under United States law. There thus is a public
value in allowing an individual who in good faith seeks
such advice to obtain it without simultaneously and
automatically appointing counsel as an agent for service
of process or relieving any adversary of the otherwise
applicable requirements for service of process.”).
D. The Issue Should Be Addressed Now
Given Its Frequency And Importance
The enormous, ever-increasing number of district
court cases on this issue establishes its importance as
well as why the Court should resolve it without pause.
This Court’s attention is especially warranted because
the issue goes to jurisdiction, and thus to whether the
cases should be proceeding at all. See, e.g., Omni
Capital Int’l, Ltd. v. Rudolf Wolff & Co., 484 U.S. 97,
104 (1987) (“[B]efore a court may exercise personal
jurisdiction over a defendant,” there must be “authorization for service of summons on the defendant.”).
Further percolation in the courts of appeals is
unnecessary and undesirable in these circumstances.
There are already at least fifty district court cases on
this issue, with at least twenty such cases in 2020
alone. Despite the frequency of district court cases,
there are few court of appeals decisions on this issue
and another may not arise for quite some time. The

24
reason is that decisions denying email service are
almost never appealed, as the plaintiff instead simply
pursues proper service under the Hague Service
Convention. In contrast, decisions allowing email
service are not appealable until after final judgment,
which takes many years, if it happens at all in cases
with foreign defendants. The result is that only one
side of the split—the erroneous side—has been
translating into court of appeals’ precedent, while this
Court has been starved of opportunity to correct an
obvious, important, recurring error by district courts
around the country.
Moreover, there is substantial harm in waiting. If
the dozens of cases allowing email service under Rule
4(f)(3) are erroneous, then all of the proceedings in
these cases may be voided for lack of jurisdiction.
Given the enormous time and resources the parties
and the courts typically spend on these cases, it would
be far better for them to know sooner rather than later
whether service was improper and the proceedings
need to restart from scratch after proper service.
Indeed, given that this issue now seems to be arising
in district courts across the country at least once every
few weeks, see supra at n.3, district courts should not
be forced to guess whether email service is permissible
and thereby put all future proceedings in jeopardy.
That is especially true given, as discussed above, the
clear conflict with this Court’s precedents that district
courts (and now the Tenth Circuit) simply ignore.
Further still, the interests of foreign sovereigns and
orderly international relations are implicated by our
courts’ compliance with an international treaty. To
the extent lower courts are giving short shrift to the
specifications and limitations of the Hague Service

25
Convention relative to acceptable means of service
abroad, that problem is worthy of this Court’s solicitude.
II. IN THE ALTERNATIVE, THIS COURT
SHOULD HOLD THE PETITION AND GVR
IN LIGHT OF FORD MOTOR
While this Court should grant certiorari on the first
question presented as going to the antecedent question
of whether there was proper service, the Court should,
failing such a grant, alternatively hold this petition
and GVR on the second question presented. This
Court’s forthcoming decision in Ford Motor should
only be expected to call into question the Tenth
Circuit’s reasoning below on personal jurisdiction.
See Wellons v. Hall, 558 U.S. 220, 225 (2010) (per
curiam) (“A GVR is appropriate when ‘intervening
developments . . . reveal a reasonable probability that
the decision below rests upon a premise that the lower
court would reject if given the opportunity for further
consideration, and where it appears that such a
redetermination may determine the ultimate outcome’
of the matter.’”) (quoting Lawrence v. Chater, 516 U.S.
163, 167 (1996) (per curiam)).
This Court has now heard argument in Ford Motor,
two consolidated cases concerning the proper test for
determining whether the connection between forum
contacts and the claim is sufficient for specific personal
jurisdiction. The question presented in those cases is:
“Whether the ‘arise out of or relate to’ requirement is
met when none of the defendant’s forum contacts
caused the plaintiff’s claims, such that the plaintiff’s
claims would be the same even if the defendant had no
forum contacts.” Pet’r’s Br. at i, Ford Motor, Nos. 19368, 19-369 (S. Ct. Feb. 28, 2020).

26
Whatever the outcome in Ford Motor, it is very
likely to affect the judgment here on personal jurisdiction. The Tenth Circuit expressly acknowledged the
need for this Court’s guidance, stating that “[t]he
Supreme Court has not yet explained the scope of the
‘arising out of’ requirement.” App. 27a (quotation
marks omitted). In addition, the Tenth Circuit held
that “it is a close question whether CIMSA’s underlying claim arose out of GCC’s nationwide contacts.”
Id. Accordingly, when this Court provides muchneeded guidance on the “arising out of” standard,
there is a substantial likelihood that any change or
clarification of the causation test will affect the Tenth
Circuit’s decision on personal jurisdiction.
Furthermore, the Tenth Circuit concluded that GCC’s
nationwide contacts sufficed for personal jurisdiction
based on aberrant reasoning that this Court is
unlikely to adopt in Ford Motor.
First, the Tenth Circuit held that, while the U.S.
contacts here did not constitute the supposed breach
of contract, it sufficed that the U.S. contacts had
“causative features” and “form part of the narrative
determining when and how GCC’s breach occurred,”
App. 30a; see also App. 29a-31a (holding it sufficed
that there was “at least some causal relationship,”
App. 29a, but finding neither but-for nor proximate
causation). Regardless of whether this Court adopts a
but-for, proximate-cause, or some other standard, it is
very unlikely to adopt the “part of the narrative”
standard the Tenth Circuit adopted here. And whatever
other standard this Court may choose, the Tenth
Circuit should have the opportunity to apply that here.
Second, the Tenth Circuit held that it suffices for
jurisdiction if “the litigation results from alleged
injuries”—as opposed to claims—“that arise out of or

27
relate to activities by the defendant which were purposefully directed at the forum.” App. 24a (quotation
marks omitted). In reaching this conclusion, the
Tenth Circuit reasoned that Bristol-Myers Squibb Co.
v. Superior Court of California, San Francisco County,
137 S. Ct. 1773 (2017), did not change the “jurisdictional landscape,” and it therefore could look at the
connection to the injury, rather than the specific claim
for enforcement of the arbitral award. App. 24a. But
see Bristol-Myers Squibb, 137 S. Ct. at 1781 (“What is
needed—and what is missing here—is a connection
between the forum and the specific claims at issue.”).
But if this Court holds in Ford Motor—as it did in
Bristol-Myers Squibb—that there must be a connection between the forum contacts and the claim itself,
then it would call into question the Tenth Circuit’s
contrary conclusion, thereby commending remand.

28
CONCLUSION
The Court should grant the petition for certiorari or,
in the alternative, hold the petition and GVR in light
of Ford Motor.
Respectfully submitted,
DAVID M. COOPER
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
51 Madison Avenue
22nd Floor
New York, NY 10010
(212) 849-7000
davidcooper@
quinnemanuel.com

DEREK L. SHAFFER
Counsel of Record
JUAN P. MORILLO
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
1300 I St NW
Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@
quinnemanuel.com

Counsel for Petitioners
January 14, 2021

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[Filed August 17, 2020]
————
No. 19-1151
————
COMPAÑÍA DE INVERSIONES MERCANTILES, S.A.,
Plaintiff-Appellee,
v.
GRUPO CEMENTOS DE CHIHUAHUA S.A.B. DE C.V.;
GCC LATINOAMÉRICA, S.A. DE C.V.,
Defendants-Appellants.
————
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:15-CV-02120-JLK)
————
David M. Cooper, Quinn Emanuel Urquhart &
Sullivan, LLP, New York, New York (Juan P. Morillo
and Daniel Pulecio-Boek, Quinn Emanuel Urquhart &
Sullivan, LLP, Washington, DC, with him on the
briefs), appearing for the Appellants.
Eliot Lauer, Curtis, Mallet-Prevost, Colt & Mosle,
LLP, New York, New York (Gabriel Hertzberg and
Sylvi Sareva, Curtis, Mallet-Prevost, Colt & Mosle,
LLP, New York, New York; and Michael A. Rollin, Fox
Rothschild LLP, Denver, Colorado, with him on the
brief), appearing for the Appellee.
————

2a
Before BRISCOE, EBEL, and LUCERO, Circuit
Judges.
BRISCOE, Circuit Judge.
This case involves a Bolivian company known as
Compañia de Inversiones Mercantiles S.A. (“CIMSA”)
and Mexican companies known as Grupo Cementos de
Chihuahua, S.A.B. de C.V. and GCC Latinoamerica,
S.A. de C.V. (collectively “GCC”). Plaintiff - Appellant
CIMSA brought a district court action in 2015 pursuant to the Federal Arbitration Act, 9 U.S.C. § 207, to
confirm a foreign arbitral award issued in Bolivia
against Defendant - Appellee GCC. The action has
been prolonged by ongoing litigation abroad and obstacles to effectuating service. The underlying dispute
arises out of an agreement under which CIMSA and
GCC arranged to give each other a right of first refusal
if either party decided to sell its shares in a Bolivian
cement company known as Sociedad Boliviana de
Cemento, S.A. (“SOBOCE”). GCC sold its SOBOCE
shares to a third party after taking the position that
CIMSA failed to properly exercise its right of first
refusal. In 2011, CIMSA initiated an arbitration proceeding in Bolivia. The arbitration tribunal determined
that GCC violated the contract and the parties’
expectations. The arbitration tribunal later awarded
CIMSA tens of millions of dollars for GCC’s breach.
GCC initiated Bolivian and Mexican court actions
challenging the arbitration tribunal’s decisions. A
Bolivian judge, holding a position similar to that of an
American trial judge, rejected GCC’s challenge to the
arbitration tribunal’s decision on the merits. A Bolivian
court, acting in a capacity similar to that of an
American intermediate appellate court, reversed and
remanded. On remand, the matter was temporarily
assigned to a different trial judge, who granted GCC’s

3a
request for relief before the original trial judge could
return from a planned vacation. While these remand
proceedings were occurring, however, Bolivia’s highest
court reversed the Bolivian appellate court and affirmed
the original trial judge. But as a result of the simultaneous remand proceedings, Bolivia’s highest court
also issued arguably contradictory orders suggesting
the second trial judge’s ruling on the merits remained
in effect. GCC filed a separate Bolivian court action
challenging the arbitration tribunal’s damages award.
That case made its way to Bolivia’s highest court as
well, which reversed an intermediate appellate court’s
nullification of the award and remanded for further
proceedings. The parties continue to litigate the
damages award in Bolivia.
Invoking the New York Convention on the Recognition and Enforcement of Foreign Arbitral Awards (the
“New York Convention”), June 10, 1958, 21 U.S.T.
2517, CIMSA filed a confirmation action in the United
States District Court for the District of Colorado. After
encountering difficulties with conventional service
of process in Mexico under the Hague Convention on
Service Abroad of Judicial and Extrajudicial Documents
(the “Hague Service Convention” or “Convention”),
Nov. 15, 1965, 20 U.S.T. 361, CIMSA sought and
received permission from the district court to serve
GCC through its American counsel pursuant to
Federal Rule of Civil Procedure (“Rule”) 4(f)(3). The
district court then rejected GCC’s challenges to
personal jurisdiction, holding (among other things)
that (1) it was appropriate to aggregate GCC’s contacts
with the United States; (2) CIMSA’s injury arose
out of GCC’s contacts; (3) exercising jurisdiction was
consistent with fair play and substantial justice; and
(4) alternative service was proper. The district court
further rejected GCC’s defenses to CIMSA’s claim

4a
under the New York Convention, concluding that (1)
the arbitration tribunal’s ruling on the merits had not
been set aside by a competent Bolivian authority; and
(2) the arbitration tribunal’s ruling on damages was
sufficiently “binding” to allow confirmation. These
issues are now before us on appeal.
Although the jurisdictional questions are difficult,
we consider this appeal pursuant to 28 U.S.C. § 1291
and affirm the district court. The district court appropriately aggregated GCC’s contacts with the United
States as a whole under Rule 4(k)(2). GCC forfeited
arguments based on Rule 4(k)(2) and, regardless, we
conclude that those arguments fall short on the merits.
The district court properly determined that CIMSA’s
injury arose out of or related to GCC’s nationwide
contacts. Contacts concerning GCC’s underlying breach
of contract are pertinent, and those contacts satisfy
the applicable version of the test for “proximate cause.”
The district court correctly decided that exercising
personal jurisdiction over GCC comported with fair
play and substantial justice because CIMSA established minimum contacts and GCC did not make a
compelling case to the contrary. Last, the district court
accurately concluded that substitute service on GCC’s
United States counsel did not run afoul of the Hague
Service Convention or Rule 4(f)(3).
We also affirm the district court’s confirmation of
the arbitration tribunal’s decisions. We agree with the
district court that the best reading of the Bolivian
proceedings is that the arbitration panel’s merits
award has not been set aside, because the Bolivian
court orders supporting the second trial judge’s decision favoring GCC lost any legal effect after Bolivia’s
highest court affirmed the initial trial judge’s decision
favoring CIMSA. In addition, the arbitration tribu-

5a
nal’s damages award may be confirmed in the United
States under the New York Convention even if GCC’s
Bolivian judicial challenge remains pending. By
necessity, we highlight in today’s opinion some differences between the American judicial system and the
Bolivian judicial system (and, at times, the Mexican
judicial system). We note these differences only to
place this case in context, not as a critique.
I. Background
CIMSA is a Bolivian company. Appellant’s Appendix
(“App.”) at 130. GCC is a set of Mexican companies. Id.
The relationship between CIMSA and GCC began no
later than 2005, when the parties met in Miami to
discuss a potential joint venture relating to SOBOCE.
Appellee’s Supplemental Appendix (“Supp. App.”) at
6-7. SOBOCE is Bolivia’s largest cement company. Id.
at 6. After the Miami meeting, GCC made an offer
to purchase a substantial interest in SOBOCE for
approximately $59 million. Id. at 7. That offer was
accepted and consummated a few months later, as
GCC and CIMSA simultaneously entered into a shareholder agreement (the “2005 Shareholder Agreement”).
Id. The 2005 Shareholder Agreement was governed by
Bolivian law. App. at 561. GCC paid for the acquired
SOBOCE shares (and later distributed SOBOCE
dividends) through a San Francisco bank account.
Supp. App. at 8. GCC’s General Counsel is located in
Colorado. Id. at 60.
Several years after the execution of the 2005
Shareholder Agreement, a disagreement arose between
CIMSA and GCC involving a right of first refusal. The
2005 Shareholder Agreement enabled each party to
transfer its shares in SOBOCE to a third party after a
period of five years, provided that the transferring
party gave notice and afforded the other party an

6a
opportunity to purchase the shares on the same or
better terms within 30 days. Id. at 8. In late 2009, after
GCC signaled its intention to sell its SOBOCE shares
at the end of the five-year holding period, CIMSA
and GCC again met in Miami. Id. at 8-9. In early 2010,
the parties met six more times in Miami, and the
discussions included price, sales terms, valuation, and
other features of a possible deal in which CIMSA
would purchase GCC’s SOBOCE shares. Id. at 9-10.
The parties reached agreement on the fundamental
terms of the sale during an April 2010 meeting in
Miami, and signed an agreement (the “2010 Shareholder
Agreement”) in May 2010 in La Paz, Bolivia. Id. at 10.
The transaction contemplated by the 2010 Shareholder
Agreement did not close, however, because the Bolivian
government expropriated a division of SOBOCE’s
business. Id.
In the wake of the expropriation, CIMSA and GCC
began negotiating a new agreement. In mid-2011,
the parties met in Houston, where CIMSA proposed
two alternative payment structures. Id. at 10-11. In
the weeks following the Houston meeting, the parties
continued to discuss CIMSA’s proposals via telephone
and email. Id. at 11. In July 2011, GCC notified
CIMSA that a Peruvian company had tendered a firm
offer to buy GCC’s SOBOCE shares. Id. CIMSA
reiterated its willingness to purchase the shares, and
requested a longer payment schedule than the one
proposed by the Peruvian company. Id. GCC indicated
that, assuming the parties could reach an agreement
on all relevant terms, GCC would accept one of the
payment terms proposed by CIMSA at the Houston
meeting. Id.
By early August 2011, CIMSA and GCC had nearly
finalized the terms of the new SOBOCE transaction.

7a
Id. GCC instructed CIMSA to hire New York counsel
to draft a final agreement. Id. CIMSA did so, and GCC
hired its own New York counsel. Id. GCC sent CIMSA
a draft purchase agreement (the “2011 Agreement”)
that was governed by New York law. Id. Right before
the transaction was set to close, GCC demanded an
increase in the number of SOBOCE shares CIMSA
would place in trust, from 4% to 27%, allegedly to
ensure CIMSA’s compliance with a longer payment
schedule. Id. at 11-12. In the months that followed,
CIMSA attempted to exercise its right of first refusal
under the terms proposed in Houston that had been
negotiated by the parties. Id. at 12. GCC took the
position that CIMSA’s attempt was invalid, and
during the second week of August 2011, sold its
SOBOCE shares to the Peruvian company. Id.
The 2005 Shareholder Agreement contained an
arbitration clause. The parties agreed that any “dispute,
litigation, discrepancy, issue, or claim” that may arise
“regarding the existence, application, validity, interpretation, compliance or breach, and termination” of
the 2005 Shareholder Agreement “shall be submitted
to mediation and then to international arbitration for
a final resolution, pursuant to the rules and regulations of the Inter-American Commercial Arbitration
Commission” (the “IACAC”). Id. at 2. The parties
further agreed that the arbitration “shall be administered by the national chapter of the [IACAC] in
Bolivia[.]” Id. (brackets added). CIMSA invoked this
clause and submitted a notice of arbitration in
November 2011. App. at 169. The arbitration was
conducted by a three-person tribunal in La Paz and
subject to Bolivian law. Id. at 169-70. The parties
agreed to bifurcate the arbitration proceedings into a
merits phase and a damages phase. Id. at 170.

8a
In September 2013, the arbitration tribunal issued
a ruling on the merits, holding that GCC breached
the right of first refusal in the 2005 Shareholder
Agreement and acted inappropriately. Id. at 170-71,
352-53. Among other things, the arbitration tribunal
found that GCC in 2011 created a legitimate expectation CIMSA’s proposed payment schedule would be
accepted, yet GCC later turned down the proposal
without extending CIMSA an opportunity to submit a
new offer. Id. at 171, 353-54.
In November 2013, GCC sought leave from a
Bolivian court to file a request to annul the arbitration
tribunal’s ruling on the merits. Id. at 180, 675. Once
leave was granted and GCC made the filing, the
annulment request was assigned to the Eighth Judge
for the Civil and Commercial Court of the Judicial
District of La Paz (the “Eighth Judge”). Id. at 181, 675.
In August 2015, the Eighth Judge denied GCC’s
annulment request (the “Eighth Judge Decision”). Id.
at 181-82. Unable to directly appeal the Eighth Judge
Decision, GCC initiated an amparo. Id. at 182-83, 383,
675-76. An amparo is an extraordinary remedy that
must be based on an alleged violation of rights protected by the Bolivian Constitution. Id. at 182-83, 676.
GCC’s amparo was assigned to what is known as a
“Guarantee Court,” which in October 2015 granted
GCC’s requested relief, annulled the Eighth Judge
Decision, and remanded the matter to the Eighth
Judge for a new decision. Id. at 183-84, 384, 676-77.
The remand of GCC’s amparo did not immediately
end up in front of the Eighth Judge. Because the
Guarantee Court sent the case back during a period
when the Eighth Judge was known to be on vacation,
GCC’s amparo was assigned to a substitute jurist, the
Ninth Judge of the Civil and Commercial Court of the

9a
Judicial District of La Paz (the “Ninth Judge”). Id. at
185, 390. Given these unusual circumstances surrounding the remand—and the fact that the existing case
record was 30,000 pages—CIMSA moved to disqualify
the Ninth Judge. Id. at 185-86. Within seven days of
receiving the voluminous case file, the Ninth Judge
denied CIMSA’s disqualification motion and granted a
request by GCC to annul and vacate the Eighth Judge
Decision (the “Ninth Judge Decision”). Id. at 186, 679.
CIMSA then filed its own amparo against the Ninth
Judge Decision, which a Guarantee Court granted in
February 2016. Id. at 189-90, 681-82.
By law, each Guarantee Court decision in an
amparo is sent for review to the highest court in
Bolivia, the Plurinational Constitutional Tribunal
(the “PCT”). Id. at 184-85, 676. Remand proceedings in
the lower court continue while the PCT conducts its
review. Id. at 676. In March 2016, the PCT rejected
GCC’s amparo against the Eighth Judge Decision,
concluding that the Eighth Judge had not violated
GCC’s constitutional rights. Id. at 191, 387-88.
Without providing notice to CIMSA, GCC in July 2016
filed a request for clarification of the March 2016 PCT
order reinstating the Eighth Judge Decision. Id. at
193-94. After that request was denied, GCC filed a
memorandum asking the President of the PCT to
address the issue. Id. at 194-95. The President obliged,
stating in a decree dated November 2016 (but unknown
to CIMSA until January 2018) that:
[I]t is appropriate to reconsider the effects of
[the Eighth Judge Decision], in such a way
that the acts following the issuance of [the
Guarantee Court resolution granting GCC’s
amparo against the Eighth Judge], subsist;
that is, the continued adjudication of the

10a
request for annulment of the award by the
judicial authorities, without retroactively
invalidating procedural or adjudicative acts[.]
Id. at 195 (brackets added); see also id. at 790 (setting
forth GCC’s translation of this portion of the decree).
Armed with the PCT’s March 2016 order, CIMSA
withdrew its amparo against the Ninth Judge Decision
in September 2016. Id. at 192. Despite the withdrawal,
the PCT notified the parties in November 2016 of an
order that had been backdated to May 2016. Id. at 19293. Among other things, the May 2016 PCT order
stated that CIMSA had not identified a constitutional
right which had been violated by the Ninth Judge. Id.
The May 2016 PCT order indicated that it did not
constitute a ruling on the merits of CIMSA’s amparo
against the Ninth Judge Decision, and added that
CIMSA was entitled to file another such amparo. Id.
Again without providing notice to CIMSA, GCC in
November 2016 filed a request for clarification of the
PCT’s backdated May 2016 order. Id. at 196. The
PCT then issued an order dated January 2017 (again
unknown to CIMSA until January 2018) stating that
the Ninth Judge Decision annulling the Eighth Judge
Decision “subsists according to the terms established
in [herein].” Id. (brackets in original); see also id. at
795 (setting forth GCC’s translation of this portion of
the order). The PCT President served as one of the two
signatories on the January 2017 order after another
PCT judge recused himself. Id. at 197. The January
2017 order went into the public record on the same day
as the November 2016 decree, which was also the PCT
President’s last day in office. Id. at 197, 407-08.

11a
All told, the Bolivian proceedings concerning the
merits award may be summarized as follows:
9/13 Arbitration Merits
Award
GCC files annulment
motion
8/15 Eighth Judge Order
Denying Annulment
GCC files amparo
10/15 Guarantee Court
Ô Order Reversing
Eighth Judge

Case is simultaneously
remanded

CIMSA appeals to PCT

1/16 Ninth Judge Order
Granting Annulment

3/16 PCT Order
Reversing Guarantee
Court

CIMSA files amparo

GCC files memo with
President

2/16 Guarantee Court
Order Reversing Ninth
Judge

11/16 PCT Presidential
Decree On Ninth Judge
Order

CIMSA withdraws
amparo
11/16 PCT Order On
Alleged Constitutional
Violation
GCC files clarification
motion with PCT
1/17 PCT Order On
Ninth Judge Order

12a
Meanwhile, proceedings relating to the damages
phase of the arbitration were taking place as well. In
April 2015, the arbitration tribunal held that CIMSA
was entitled to more than $34 million in damages and
more than $2 million in fees and costs, resulting in an
overall award in excess of $36 million. Id. at 174-75.
GCC filed a request to annul the damages award in
July 2015. Id. at 200. The matter was assigned to the
Twelfth Civil and Commercial Court of the Judicial
District of La Paz (the “Twelfth Judge”), who granted
GCC’s request and annulled the damages award in
October 2015. Id. at 201-02,689.
In April 2016, CIMSA filed an amparo against the
Twelfth Judge’s damages decision. Id. at 202, 689-90.
A Guarantee Court denied CIMSA’s amparo, but
the PCT revoked the denial, found that the Twelfth
Judge had violated CIMSA’s constitutional rights, and
remanded for further proceedings. Id. at 202-03, 69091. According to the parties, the Twelfth Judge has not
yet issued a new damages decision on remand. Cf. id.
at 651 (stating that annulment proceedings on the
damages award are “still in process”). Nor has the
Twelfth Judge ruled on a motion submitted by GCC
prior to October 2015 asserting, based on the
purported invalidation of the arbitration tribunal’s
ruling on the merits, that the Twelfth Judge lacks
jurisdiction over the damages annulment request. Id.
at 1178-79, 1181. Under Bolivian law, an arbitration
award is not enforceable while an action to annul the
award is pending. Id. at 691.
CIMSA initiated this case in September 2015 by
filing a petition in federal district court to confirm the
arbitration award under the New York Convention.
App. at 129-44. Pursuant to the Hague Service Convention, CIMSA delivered a summons and other

13a
materials to the Mexican central authority to serve on
GCC. Supp. App. at 55-56. In June 2017, the Mexican
central authority notified CIMSA that service had not
been effected because GCC’s offices supposedly could
not be located at the headquarters address shown on
GCC’s website. Id. at 56-57. In May 2018, CIMSA
sought permission from the district court to serve GCC
through GCC’s counsel in the United States. App. at
145-61. Citing Rule 4(f)(3), the district court authorized this alternative form of service. Id. at 1124-26.
Around the time it filed the alternative service
motion, CIMSA also filed a motion to confirm the
arbitration award. Id. at 420-69. GCC responded to
the confirmation motion and filed a “cross-motion” to
dismiss the petition. Id. at 481-552. In that combined
pleading, GCC contended it was not subject to personal
jurisdiction because (1) GCC had not purposefully
directed activities at American residents; (2) CIMSA
had not adequately alleged the lawsuit arose out of
GCC’s asserted contacts; and (3) the exercise of personal jurisdiction would not be reasonable. Id. at 51020. GCC further contended that the award could not
be confirmed because, inter alia, (1) Bolivian courts
had nullified or set aside the arbitration tribunal’s
decision on the merits; and (2) the arbitration tribunal’s decision on damages was in the process of judicial
review and unenforceable under Bolivian law. Id. at
527-50. The district court “considered the jurisdictional challenges” and concluded it could “properly
exercise personal jurisdiction over Respondents in this
case.” Id. at 1127, 1132-44. In a separate order, the
district court determined that the arbitration tribunal’s award was binding for purposes of the New York
Convention, and granted CIMSA’s petition and confirmation motion. Id. at 1237-70.

14a
II. The district court did not err in exercising
personal jurisdiction over GCC
It is generally acknowledged that there are “two
types of personal jurisdiction: ‘general’ (sometimes called
‘all-purpose’) jurisdiction and ‘specific’ (sometimes
called ‘case-linked’) jurisdiction.” Bristol-Myers Squibb
Co. v. Superior Ct. of Cal., San Francisco Cty., 137
S. Ct. 1773, 1779-80 (2017) (citation omitted). General
jurisdiction involves “continuous and systematic general
business contacts” between a party and the forum,
empowering the forum “to resolve any dispute involving that party, not just the dispute at issue.” Newsome
v. Gallacher, 722 F.3d 1257, 1264 (10th Cir. 2013)
(citations and internal quotation marks omitted). No
theory of general jurisdiction has been advanced here.
We thus limit our attention to specific jurisdiction,
and we consider the issue solely as the parties have
framed it. The parties agree that due process requires
constitutionally sufficient “minimum contacts” between
the defendant and the forum. Dudnikov v. Chalk &
Vermilion Fine Arts, Inc., 514 F.3d 1063, 1070 (10th
Cir. 2008) (quoting Int’l Shoe Co. v. Washington, 326
U.S. 310, 316 (1945)). Using this framework, we
generally ask “(1) whether the defendant purposefully
directed its activities at residents of the forum state;
(2) whether the plaintiff’s injury arose from those
purposefully directed activities; and (3) whether exercising jurisdiction would offend traditional notions of
fair play and substantial justice.” Newsome, 722 F.3d
at 1264; see also Monge v. RG Petro-Mach. (Grp.) Co.,
701 F.3d 598, 614 (10th Cir. 2012) (“Whether a defendant has the requisite minimum contacts with the
forum state must be decided on the particular facts of

15a
each case.”) (citation and internal quotation marks
omitted).1
We review a district court’s ruling on personal
jurisdiction de novo. Melea, Ltd. v. Jawer SA, 511 F.3d
1060, 1065 (10th Cir. 2007). “The plaintiff has the
burden of proving that the court has jurisdiction.” Id.
When personal jurisdiction is decided on the basis
of a complaint and affidavits, both this court and
the district court take as true “all well-pled (that is,
plausible, non-conclusory, and non-speculative) facts
alleged in plaintiffs’ complaint.” Dudnikov, 514 F.3d at
1070 (citations omitted). Any factual disputes in the

1

For a claim arising under federal law, we have previously
held that “[w]here Congress has statutorily authorized nationwide
service of process, such service establishes personal jurisdiction,
provided that the federal court’s exercise of jurisdiction comports
with Fifth Amendment due process.” Cory v. Aztec Steel Bldg.,
Inc., 468 F.3d 1226, 1229 (10th Cir. 2006); see also GCIU-Emp’r
Ret. Fund v. Coleridge Fine Arts, 700 F. App’x 865, 867-68 (10th
Cir. 2017) (unpublished) (indicating for a federal claim that if
the defendant is not subject to the authority of any state court of
general jurisdiction, then jurisdiction may be exercised if it
comports with Fifth Amendment due process). Because no party
in the case at bar asserts that there is a meaningful distinction
between the Fifth and Fourteenth Amendments, we have no
occasion to consider that argument, or the potential application
of cases like Peay v. BellSouth Med. Assistance Plan, 205 F.3d
1206 (10th Cir. 2000). In any event, Peay teaches that personal
jurisdiction should be refused under the Fifth Amendment in a
nationwide-service-of-process case where (1) litigation in the
forum is “so gravely difficult and inconvenient” that the defendant “unfairly is at a severe disadvantage in comparison to his
opponent;” and (2) this burden on the defendant is not outweighed by “the federal interest in litigating the dispute in the
chosen forum[.]” Id. at 1212-13 (citations omitted). For the
reasons discussed below, GCC has not satisfied these criteria.

16a
parties’ affidavits are also resolved “in plaintiffs’
favor.” Id.
A. GCC’s objection to the use of nationwide
contacts fails
In limited circumstances, Rule 4(k)(2) allows courts
to examine a defendant’s contacts with the United
States as a whole, as opposed to contacts with a
particular state. The Rule provides that for “a claim
that arises under federal law,” serving a summons
establishes personal jurisdiction if “the defendant is
not subject to jurisdiction in any state’s courts of
general jurisdiction,” and “exercising jurisdiction is
consistent with the United States Constitution and
laws.” Fed. R. Civ. P. 4(k)(2)(A)–(B). GCC argues that
CIMSA cannot invoke Rule 4(k)(2) because the plaintiff has the burden to establish personal jurisdiction
and there is no evidence (from CIMSA or otherwise)
that GCC is not subject to the jurisdiction of any of the
50 states.
GCC forfeited these Rule 4(k)(2) arguments by
failing to raise them in district court. CIMSA alleged
in its petition that GCC’s “activities at several jurisdictions within the United States” were sufficient “for
specific personal jurisdiction pursuant to Fed. R. Civ.
P. 4(k)(2), the federal long arm statute, where, as here,
Respondents are not subject to general jurisdiction
in any state of the United States.” App. at 133. GCC
responded to CIMSA’s motion to confirm the arbitration award and simultaneously filed a “cross-motion”
to dismiss CIMSA’s petition. See supra § I. GCC
argued that CIMSA had not shouldered its burden to
show “purposeful availment,” an injury “arising out of’
relevant contacts, and reasonableness for purposes of
personal jurisdiction. Id. GCC did not assert, however,

17a
that its nationwide contacts could not or should not be
aggregated.
Nor did GCC oppose aggregating nationwide contacts in subsequent district court briefs. CIMSA
pointed this out in its reply brief in support of the
motion to confirm the award:
Rule 4(k)(2) permits federal courts to aggregate a foreign defendant’s nationwide contacts
in order to exercise jurisdiction where the
defendant’s contacts with any individual state
are insufficient. In order to establish jurisdiction under Rule 4(k)(2), a plaintiff must show
that (1) the claim arises under federal law;
(2) the defendant is not subject to the
jurisdiction of the courts of general jurisdiction of any state; and (3) the court’s exercise
of jurisdiction would be consistent with the
Constitution and laws of the United States.
Respondents do not dispute the first two requirements for jurisdiction under Rule 4(k)(2).
Rather, Respondents argue that, under the
third element, the Court’s exercise of jurisdiction would not comport with due process.
App. at 926-27 (citations, internal quotation marks,
and indentation omitted). And CIMSA’s reply brief
was not the last word. GCC filed what it styled as a
reply in support of its cross-motion to dismiss. Id. at
1046-1123. Once more, GCC said its contacts did not
satisfy the requirements of purposeful availment,
relatedness, and reasonableness. Id. at 1074-93. But
GCC never argued before the district court that those
contacts could not, or should not, be aggregated under
Rule 4(k)(2).

18a
GCC’s arguments on appeal challenging the application of Rule 4(k)(2) thus come too late. GCC’s decision
not to raise those arguments in the district court
constitutes a forfeiture, rather than a waiver, and thus
is reviewable for plain error. See Platt v. Winnebago
Indus., Inc., 960 F.3d 1264, 1273 (10th Cir. 2020)
(explaining that a waiver requires intentional relinquishment or abandonment, whereas a forfeiture arises
through mere neglect). Nevertheless, “[i]n order to
avoid a waiver on appeal, a party is required to
identify plain error as the standard of review in their
opening brief and to provide a defense of that
standard’s application.” Id.; see also McKissick v.
Yuen, 618 F.3d 1177, 1189 (10th Cir. 2010) (“A party
cannot count on us to pick out, argue for, and apply a
standard of review for it on our own initiative, without
the benefit of the adversarial process, and without any
opportunity for the adversely affected party to be
heard on the question.”). This principle applies here,
as GCC did not discuss the plain error factors in its
opening appellate brief. See, e.g., Benham v. Ozark
Materials River Rock, LLC, 885 F.3d 1267, 1276-77
(10th Cir. 2018) (converting a forfeiture to a waiver in
the absence of an argument for plain error).
It is true that “[t]his forfeiture rule does not apply
when the district court explicitly considers and resolves
an issue of law on the merits. In that circumstance, the
appellant may challenge that ruling on appeal on the
ground addressed by the district court even if he failed
to raise the issue in the district court.” Tesone v.
Empire Mktg Strategies, 942 F.3d 979, 991-92 (10th
Cir. 2019) (citation and internal quotation marks
omitted). In a footnote, the district court in this case
cited authority for the proposition that GCC did not
shoulder its burden to “name some other state in
which the suit could proceed” under Rule 4(k)(2). App.

19a
at 1133 n.4. But the district court made that observation only after confirming that GCC “d[id] not
dispute” CIMSA’s contention that GCC was not
subject to jurisdiction in any state. Id. The district
court therefore focused on the arguments GCC did
make, i.e., “whether the Court’s exercise of personal
jurisdiction would comport with due process.” Id. GCC
does not assert on appeal that the forfeiture rule is
inapplicable because the district court ruled on Rule
4(k)(2)’s “no state” requirement. Even if GCC had
made such an argument, the facts in this case are
unique—the district court addressed the “no state”
issue only in passing and in dicta. Cf. Tesone, 942 F.3d
at 992 (stating that a district court “passes upon” an
issue “when it applies the relevant law to the relevant
facts”) (citation and internal quotation marks omitted).
Even assuming arguendo that the issue was properly
preserved, we find GCC’s Rule 4(k)(2) arguments
unpersuasive. The First Circuit was the first circuit
court to address how burdens of proof should be
allocated under Rule 4(k)(2). That court held a plaintiff seeking to invoke 4(k)(2) must “make a prima facie
case for the applicability of the rule,” including a
certification “based on the information that is readily
available to the plaintiff and his counsel” that “the
defendant is not subject to suit in the courts of general
jurisdiction of any state.” United States v. Swiss Am.
Bank, Ltd., 191 F.3d 30, 41 (1st Cir. 1999). The Fourth
Circuit has cited Swiss Am. Bank with approval, albeit
without extensive analysis. E.g., Base Metal Trading,
Ltd. v. OJSC “Novokuznetsky Aluminum Factory”, 283
F.3d 208, 215 (4th Cir. 2002). Every other circuit court
to consider the issue has placed the initial burden on
the defendant to identify a state in which the lawsuit
could proceed. E.g., Touchcom, Inc. v. Bereskin & Parr,
574 F.3d 1403, 1413-15 (Fed. Cir. 2009); Oldfield v.

20a
Pueblo De Bahia Lora, S.A., 558 F.3d 1210, 1218 n.22
(11th Cir. 2009); Holland Am. Line Inc. v. Wartsila N.
Am., Inc., 485 F.3d 450, 461-62 (9th Cir. 2007); Mwani
v. Bin Laden, 417 F.3d 1, 11 (D.C. Cir. 2005); Adams
v. Unione Mediterranea Di Sicurta, 364 F.3d 646, 65051 (5th Cir. 2004); ISI Int’l, Inc. v. Borden Ladner
Gervais LLP, 256 F.3d 548, 551-52 (7th Cir. 2001).
The rationale for the majority rule was articulated
by the Seventh Circuit in ISI. That court explained:
Now one might read Rule 4(k)(2) to make
matters worse by requiring 51 constitutional
decisions: The court must first determine that
the United States has power and then ensure
that none of the 50 states does so . . . .
Constitutional analysis for each of the 50
states is eminently avoidable by allocating
burdens sensibly. A defendant who wants to
preclude use of Rule 4(k)(2) has only to name
some other state in which the suit could
proceed. Naming a more appropriate state
would amount to a consent to personal jurisdiction there (personal jurisdiction, unlike
federal subject-matter jurisdiction, is waivable).
If, however, the defendant contends that he
cannot be sued in the forum state and refuses
to identify any other where suit is possible,
then the federal court is entitled to use Rule
4(k)(2).
256 F.3d at 552. Other appellate courts have agreed
with this reasoning, often expressly choosing the
Seventh Circuit’s approach over the First Circuit’s
approach. See, e.g., Touchcom, 574 F.3d at 1414-15
(noting the First Circuit’s decision in Swiss Am. Bank
but concluding “the approach articulated by the
Seventh Circuit is more in tune with the purposes

21a
behind the enactment of Rule 4(k)(2)”); Holland,
485 F.3d at 461-62 (acknowledging Swiss Am. Bank
but deciding to “join the Fifth, Seventh, and D.C.
Circuits”).
Based on the arguments presented by the parties
in this case, we join the majority. Following the
prevailing rule on aggregating contacts under Rule
4(k)(2) is consistent with this court’s unpublished
decision in GCIU. There, we applied the Rule after
observing the defendants had conceded the plaintiff’s
claims arose under federal law and “no state court has
jurisdiction over them.” 700 F. App’x at 867-68. We
cited Holland for the proposition that “a defendant
who wants to preclude the use of Rule 4(k)(2) has only
to name some other state in which the suit could
proceed.” Id. at 868; see also GCIU-Emp’r Ret. Fund v.
Coleridge Fine Arts, 808 F. App’x 655, 661-66 (10th
Cir. 2020) (unpublished) (holding, after remanding the
case for additional discovery, that personal jurisdiction was lacking). Continuing in GCIU’s footsteps, we
adopt the approach endorsed by the Fifth, Seventh,
Ninth, Eleventh, District of Columbia, and Federal
Circuits.
B. GCC’s contacts were sufficient to confer
jurisdiction
Aside from resisting the application of Rule 4(k)(2),
GCC challenges personal jurisdiction on other grounds.
First, GCC asserts that neither CIMSA’s claim to
enforce the arbitration award nor CIMSA’s underlying
claim arises from GCC’s alleged contacts with the
United States. Second, GCC argues that the exercise
of personal jurisdiction would be inconsistent with
traditional notions of fair play and substantial justice.
We address each argument in turn.

22a
1. CIMSA’s injury was “proximately caused”
by, and thus arose out of, GCC’s contacts
A plaintiff’s injury must “arise out of or relate to”
the defendant’s forum contacts. Burger King Corp.
v. Rudzewicz, 471 U.S. 462, 472-73 (1985) (citation
omitted). “The import of the `arising out of’ analysis is
whether the plaintiff can establish that the claimed
injury resulted from the defendant’s forum-related
activities.” Newsome, 722 F.3d at 1271. This requirement has been subject to different interpretations.
“Some courts have interpreted the phrase ‘arise out of’
as endorsing a theory of ‘but-for’ causation, while other
courts have required proximate cause to support the
exercise of personal jurisdiction.” Dudnikov, 514 F.3d
at 1078 (citations omitted). But-for causation means
“any event in the causal chain leading to the plaintiff’s
injury is sufficiently related to the claim to support the
exercise of specific jurisdiction.” Id. “[C]onsiderably
more restrictive” is proximate causation, which turns
on “whether any of the defendant’s contacts with the
forum are relevant to the merits of the plaintiff’s
claim.” Id. (citation omitted).
This court on several occasions has declined to
choose between but-for and proximate causation,
finding that neither test was outcome determinative
given the facts at hand. E.g., Newsome, 722 F.3d at
1270; Dudnikov, 514 F.3d at 1079. Nonetheless, “[i]n
contract actions, we have consistently applied the
more-restrictive proximate-cause approach,” Emp’rs
Mut. Cas. Co. v. Bartile Roofs, Inc., 618 F.3d 1153,
1161 n.7 (10th Cir. 2010), and the parties here agree
that proximate causation is required. Consequently,
in evaluating the “arising out of’ requirement, we
must “determine whether a nexus exists” between
GCC’s “forum-related contacts” and CIMSA’s “cause of

23a
action.” Monge, 701 F.3d at 614 (citation omitted); see
also Bristol-Myers Squibb, 137 S. Ct. at 1781 (stating
that “there must be an affiliation between the forum
and the underlying controversy, principally, [an]
activity or an occurrence that takes place in the forum
State”) (brackets in original, citation and internal
quotation marks omitted).2 The “arising out of’ requirement is not satisfied when a plaintiff “would have
suffered the same injury even if none of the [defendant’s forum] contacts had taken place.” Kuenzle v.
HTM Sport-Und Freizeitgerate AG, 102 F.3d 453, 45657 (10th Cir. 1996) (brackets in original, citation and
internal quotation marks omitted).
We have, however, rejected a “third approach”
which veers away from “causation-based principles.”
Dudnikov, 514 F.3d at 1078. This third approach “asks
whether there is a ‘substantial connection’ or ‘discernible relationship’ between the contacts and the suit.”
Id. (citation omitted). Put another way, the “substantial connection” test “merely requires the tie between
the defendant’s contacts and the plaintiff’s claim [to
be] close enough to make jurisdiction fair and reasonable.” Emp’rs Mut., 618 F.3d at 1160-61 n.6 (brackets
in original, citation and internal quotation marks
omitted). Among other things, we have held that “the
‘substantial connection’ test inappropriately blurs the
distinction between specific and general personal
jurisdiction.” Dudnikov, 514 F.3d at 1078; see also
Emp’rs Mut., 618 F.3d at 1161 (confirming that “we
2

The Supreme Court explained in Bristol-Myers Squibb that
“since our decision concerns the due process limits on the exercise
of specific jurisdiction by a State, we leave open the question
whether the Fifth Amendment imposes the same restrictions on
the exercise of personal jurisdiction by a federal court.” 137 S. Ct.
at 1783-84.

24a
have rejected the substantial-connection approach
outright”).
Although the parties agree that a “proximate cause”
test applies, they dispute which contacts are relevant
to the analysis. GCC contends that because the claim
at this stage is merely to confirm a foreign arbitral
award, the only contacts that matter are those relating
to the arbitration. To press this point, GCC argues
that the jurisdictional landscape changed with the
Supreme Court’s decision in Bristol-Myers Squibb. But
that case merely applied the principle that there must
be “a connection between the forum and the specific
claims at issue,” holding that personal jurisdiction
over a corporate defendant was lacking with respect to
nonresident products liability plaintiffs who suffered
no harm in, and whose claims were based on conduct
outside, the forum. 137 S. Ct. at 1780-83. The Supreme
Court made clear that it resolved the matter using
“settled principles” of personal jurisdiction. Id. at
1781, 1783.
Based on the facts and arguments presented here,
we conclude that contacts relating to the underlying
claim (i.e., the formation and alleged violation of the
2005 Shareholder Agreement) are pertinent. Consistent
with the Due Process Clause, a court may exercise
specific personal jurisdiction only if “the litigation
results from alleged injuries” that arise out of or relate
to activities by the defendant which were purposefully
directed at the forum. Burger King, 471 U.S. at 472-73
(emphasis added, citations omitted); accord Newsome,
722 F.3d at 1269-71. In a case like this one, this
guidance makes more sense—and perhaps only makes
sense—if applied with an eye toward the underlying
dispute. Although personal jurisdiction turns on due
process principles, rather than the elements of a given

25a
claim, an action to confirm or enforce an arbitral
award does not involve a conventional “injury.”
“Under the New York Convention, a court must
‘confirm the award unless it finds one of the grounds
for refusal or deferral of recognition or enforcement of
the award specified in the said Convention.’ CEEG
(Shanghai) Solar Sci. & Tech. Co. v. LUMOSLLC, 829
F.3d 1201, 1206 (10th Cir. 2016) (quoting 9 U.S.C.
§ 207). The New York Convention thus enumerates
“specific” and exclusive grounds “on which a court with
secondary jurisdiction may refuse enforcement.” Karaha
Bodas Co., LLC v. Perusahaan Pertambangan Minyak
Dan Gas Bumi Negara, 364 F.3d 274, 287-88 (5th Cir.
2004). Article V sets forth those seven grounds:
1. Recognition and enforcement of the award
may be refused, at the request of the party
against whom it is invoked, only if that party
furnishes to the competent authority where
the recognition and enforcement is sought,
proof that:
(a) The parties to the agreement referred
to in article II were, under the law applicable to them, under some incapacity, or the
said agreement is not valid under the law
to which the parties have subjected it or,
failing any indication thereon, under the
law of the country where the award was
made; or
(b) The party against whom the award is
invoked was not given proper notice of the
appointment of the arbitrator or of the
arbitration proceedings or was otherwise
unable to present his case; or

26a
(c) The award deals with a difference not
contemplated by or not falling within the
terms of the submission to arbitration, or it
contains decisions on matters beyond the
scope of the submission to arbitration,
provided that, if the decisions on matters
submitted to arbitration can be separated
from those not so submitted, that part of
the award which contains decisions on
matters submitted to arbitration may be
recognized and enforced; or
(d) The composition of the arbitral authority or the arbitral procedure was not in
accordance with the agreement of the
parties, or, failing such agreement, was not
in accordance with the law of the country
where the arbitration took place; or
(e) The award has not yet become binding
on the parties, or has been set aside or
suspended by a competent authority of the
country in which, or under the law of which,
that award was made.
2. Recognition and enforcement of an arbitral
award may also be refused if the competent
authority in the country where recognition
and enforcement is sought finds that:
(a) The subject matter of the difference is
not capable of settlement by arbitration
under the law of that country; or
(b) The recognition or enforcement of the
award would be contrary to the public
policy of that country.
New York Convention, 21 U.S.T. 2157, art. V(1)–(2).

27a
A confirmation action under the New York Convention “is a summary proceeding in nature, which is
not intended to involve complex factual determinations, other than a determination of the limited
statutory conditions for confirmation or grounds for
refusal to confirm.” Zeiler v. Deitsch, 500 F.3d 157, 169
(2d Cir. 2007); accord Argentine Republic v. Nat’l Grid
PLC, 637 F.3d 365, 369 (D.C. Cir. 2011). This more
limited focus means that “[t]he party opposing
enforcement of an arbitral award has the burden to
prove that one of the seven defenses under the New
York Convention applies.” Zeiler, 500 F.3d at 164; see
also CEEG, 829 F.3d at 1206 (“As the party opposing
enforcement of the arbitral award, LUMOS bears the
burden of proving that one of the defenses applies.”).
These substantive and procedural features of an
action to confirm an arbitration award support the
conclusion that the proper jurisdictional inquiry is
whether the beneficiary of an award can show he or
she sustained an injury caused by the defendant’s
forum activities in connection with the claim that led
to the arbitration, as opposed to an injury caused by
the defendant’s forum activities in connection with the
arbitration proceeding itself. We therefore agree with
CIMSA’s suggested approach to the due process
analysis, which is not limited to GCC’s conduct at the
arbitration.
As it is a close question whether CIMSA’s underlying claim arose out of GCC’s nationwide contacts,
it is important that we apply the operative legal
standard with precision. The Supreme Court “has
not yet explained the scope” of the “arising out of’
requirement. O’Connor v. Sandy Lane Hotel Co., 496
F.3d 312, 318 (3d Cir. 2007); see also SPV Osus Ltd.
v. UBS AG, 882 F.3d 333, 344 (2d Cir. 2018) (“The
Supreme Court has yet to address exactly how a

28a
defendant’s activities must be tied to the forum for a
court to properly exercise specific personal jurisdiction
over a defendant.”). In Dudnikov, we cited O’Connor
when articulating the type of proximate causation
required for purposes of personal jurisdiction. Dudnikov,
514 F.3d at 1078. O’Connor clarified that proximate
causation in this context is not necessarily coterminous with proximate causation in the tort context:
With each purposeful contact by an out-ofstate resident, the forum state’s laws will
extend certain benefits and impose certain
obligations . . . . The relatedness requirement’s function is to maintain balance in this
reciprocal exchange. In order to do so, it must
keep the jurisdictional exposure that results
from a contact tailored to that contact’s
accompanying substantive obligations. The
causal connection can be somewhat looser
than the tort concept of proximate causation,
but it must nonetheless be intimate enough to
keep the quid pro quo proportional and
personal jurisdiction reasonably foreseeable.
496 F.3d at 323 (citations omitted). Other cases
similarly suggest that tort-level proximate causation
may not always be required. See SPV Osus, 882 F.3d
at 344 (indicating that proximate cause is required
when a defendant “had only limited contacts,” but may
not be required where the defendant’s contacts “are
more substantial”) (citation omitted); Nowak v. Tak
How Invs., Ltd., 94 F.3d 708, 716 (1st Cir. 1996) (“[W]e
intend to emphasize the importance of proximate
causation, but to allow a slight loosening of that
standard when circumstances dictate. We think such
flexibility is necessary in the jurisdictional inquiry;

29a
relatedness cannot merely be reduced to one tort
concept for all circumstances.”).
We agree that the test for proximate causation for
purposes of personal jurisdiction may be, in appropriate circumstances, somewhat looser than the tort
concept of proximate causation. CIMSA has satisfied
that test in this case. GCC met with CIMSA in Miami
in 2005 to discuss a potential purchase of shares of
SOBOCE. See supra § I. After the Miami meeting,
GCC and CIMSA consummated the 2005 Shareholder
Agreement with a right of first refusal. Id. In 2009
and 2010, the parties met multiple times in Miami to
discuss how CIMSA would exercise its right of first
refusal once GCC indicated it intended to sell its
SOBOCE shares. Id. The parties then signed the 2010
Shareholder Agreement in Bolivia, but the actions of
the Bolivian government prevented the transaction
from closing. Id. CIMSA proposed new terms in
Houston in 2011, which GCC subsequently appeared
to accept. Id. Using New York counsel and contemplating the application of New York law, the parties began
drafting the 2011 Agreement. Id. At the eleventh hour,
GCC took the position that there was no agreement
and CIMSA could not exercise its right of first refusal,
a position that was later rejected by arbitrators in
Bolivia who awarded CIMSA more than $36 million.
Id.
GCC’s American contacts bear at least some causal
relationship with CIMSA’s injury, even if CIMSA’s
loss was not proximately caused in a tort sense by
GCC’s activities in the United States. CIMSA’s injury
became manifest when GCC declined to honor the
right of first refusal. Although GCC technically rejected
CIMSA’s offer after the parties met in Houston in 2011
(which came after the parties’ meetings in Miami in

30a
2005, 2009, and 2010), those prior meetings contributed to CIMSA’s understanding that the parties had
agreed on terms for CIMSA to exercise the right of first
refusal and purchase GCC’s SOBOCE shares. Id. Had
GCC allegedly not led CIMSA to this belief, GCC’s
excuse for not honoring the right of first refusal in the
2005 Shareholder Agreement might have carried more
weight, and at a minimum the timing and circumstances of the breach could have been different. These
contacts in 2005, 2009, 2010, and 2011 are all
“relevant to the merits of the plaintiff’s claim,”
Dudnikov, 514 F.3d at 1078, thereby satisfying the
“arising out of’ requirement.
Our holding that CIMSA’s harm arises out of GCC’s
American contacts should not be understood as unduly
diluting the proximate causation standard or adopting
a “substantial connection” test. As noted, under the
but-for test, a plaintiff must show that “any event in
the causal chain” leading to injury is “sufficiently
related to the claim.” Dudnikov, 514 F.3d at 1078
(citation omitted). Under the “substantial connection”
test, the plaintiff’s only obligation is to show some
reasonable tie “between the defendant’s contacts and
the plaintiff’s claim.” Emp’rs Mut., 618 F.3d at 116061 n.6 (citation and internal quotation marks omitted).
GCC’s contacts not only constitute events in the causal
chain leading to CIMSA’s financial loss, but also form
part of the narrative determining when and how
GCC’s breach occurred. And because GCC’s contacts
have causative features, relying on them should not
and cannot be interpreted as reviving any “substantial
connection” standard.
Likewise, finding some form of proximate causation
is not inconsistent with our prior decisions. Previous
contract cases that have addressed the “arising out of’

31a
element do not necessarily speak to the specific facts
now before the court, but several of those earlier
decisions deem that element satisfied. See, e.g.,
TH Agric. & Nutrition, LLC v. ACE European Grp.
Ltd., 488 F.3d 1282, 1291-92 (10th Cir. 2007) (finding
the “arising out of’ requirement satisfied where the
defendants’ contacts included a denial of insurance
coverage under one or more contracts classifying
the forum as “covered territory,” with at least one
allegedly covered claim filed in the forum); Pro Axess,
Inc. v. Orlux Distribution, Inc., 428 F.3d 1270, 127879 (10th Cir. 2005) (finding the requirement satisfied
where the defendant knowingly solicited the plaintiff
in the forum, developed and supposedly broke a
business agreement with the plaintiff in the forum,
and communicated with the plaintiff in the forum);
Benton v. Cameco Corp., 375 F.3d 1070, 1076-78 (10th
Cir. 2004) (finding the requirement satisfied where
the defendant knowingly entered into a contract with
a forum resident calling for at least partial performance in the forum, sent employees to the forum to
conduct due diligence, and sent correspondence to the
forum); OMI Holdings, Inc. v. Royal Ins. Co. of
Canada, 149 F.3d 1086, 1095 (10th Cir. 1998) (finding
the requirement satisfied where the defendant issued,
but allegedly failed to honor, insurance policies requiring a defense from suit in the forum). We conclude that
GCC’s contacts in connection with the claim underlying the arbitration satisfy the test for “proximate
cause” for purposes of personal jurisdiction.
2. Relying on GCC’s contacts was consistent
with fair play and substantial justice
The next issue is whether the district court’s
exercise of personal jurisdiction was reasonable.
“Even when a defendant has purposefully established

32a
minimum contacts with a forum state, ‘minimum
requirements inherent in the concept of fair play and
substantial justice may defeat the reasonableness of
jurisdiction.’” TH, 488 F.3d at 1292 (quoting Burger
King, 471 U.S. at 477-78). We consider “(1) the burden
on the defendant, (2) the forum state’s interest in
resolving the dispute, (3) the plaintiff’s interest in
receiving convenient and effective relief, (4) the
interstate judicial system’s interest in obtaining the
most efficient resolution of controversies, and (5) the
shared interest of the several states in furthering
fundamental substantive social policies.” OMI, 149
F.3d at 1095. A defendant must present a “compelling”
case that factors like these render jurisdiction
unreasonable. Burger King, 471 U.S. at 477. The
reasonableness inquiry “evokes a sliding scale: the
weaker the plaintiff’s showing on [minimum contacts],
the less a defendant need show in terms of unreasonableness to defeat jurisdiction.” TH, 488 F.3d at 1292
(brackets in original, citation and internal quotation
marks omitted). Still, instances where the exercise of
personal jurisdiction offends fair play and substantial
justice are “rare.” Rusakiewicz v. Lowe, 556 F.3d 1095,
1102 (10th Cir. 2009); accord Newsome, 722 F.3d at
1271.
GCC’s case for unreasonableness has some traction,
but is less than compelling. Even taking into account
a sliding scale, CIMSA’s demonstration of minimum
contacts is not so feeble as to provide a definitive
advantage to GCC. CIMSA may only narrowly satisfy
the “arising out of’ requirement, but there is no bona
fide challenge in GCC’s opening appellate brief to
CIMSA’s showing of “purposeful availment.” GCC
asserts in its appellate reply brief that it did not
surrender the debate over purposeful availment, but
GCC’s point heading in its opening brief only referred

33a
to the “arising out of’ requirement, with any “purposeful availment” arguments buried at the end of
that section (Aplt. Br. at 29-32). That is not enough to
preserve the issue. See Bronson v. Swensen, 500 F.3d
1099, 1104 (10th Cir. 2007) (“[W] e routinely have
declined to consider arguments that are not raised, or
are inadequately presented, in an appellant’s opening
brief.”); Adams-Arapahoe Joint Sch. Dist. No. 28-J v.
Cont’l Ins. Co., 891 F.2d 772, 776 (10th Cir. 1989) (“An
issue not included in either the docketing statement or
the statement of issues in the party’s initial brief is
waived on appeal.”). Furthermore, with only one
possible exception, each of the five reasonableness
factors at best only marginally supports GCC.
The first reasonableness factor recognizes that
“[t]he unique burdens placed upon one who must
defend oneself in a foreign legal system should have
significant weight in assessing the reasonableness of
stretching the long arm of personal jurisdiction over
national borders.” Asahi Metal Indus. Co. v. Super. Ct.
of Cal., 480 U.S. 102, 114 (1987); see also OMI, 149
F.3d at 1096 (urging “great care and reserve” before
exercising personal jurisdiction over a defendant
from another country) (citation omitted). GCC’s onus
associated with litigating an arbitration confirmation
action in the United States is real but not crushing.
GCC previously traveled to the United States for
meetings, has its General Counsel located here, and
does hundreds of millions of dollars of business
here. See supra § I; Supp. App. at 179-81. “[Modern
transportation and communications have made it
much less burdensome for a party sued to defend
himself in a State where he engaged in economic
activity.” Burger King, 471 U.S. at 474 (citation
omitted). The progression of this case has shown that

34a
GCC has the wherewithal to defend itself in an
American forum.
As to the second reasonableness factor, “States have
an important interest in providing a forum in which
their residents can seek redress for injuries caused
by out-of-state actors.” OM/, 149 F.3d at 1096; see
also id. (explaining that a state’s interest “is also
implicated where resolution of the dispute requires a
general application of the forum state’s law”). CIMSA
is not a United States resident, so America’s “interests
in the dispute” are “considerably diminished.” Asahi,
480 U.S. at 114. Similarly, the financial harm which
prompted CIMSA’s arbitration confirmation action
involves a Bolivian plaintiff, a Mexican defendant
(though with ties to the United States), and a contract
governed by Bolivian law. See supra § I. Nevertheless,
the Supreme Court has declared that the “emphatic
federal policy in favor of arbitral dispute resolution”
applies “with special force in the field of international
commerce.” Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614, 631 (1985); see also Coors
Brewing Co. v. Molson Breweries, 51 F.3d 1511, 1514
(10th Cir. 1995) (commenting that the “federal policy
favoring arbitration for dispute resolution” is “particularly strong in the context of international transactions”)
(citations omitted). Given the New York Convention
and its implementation in the United States through
the Federal Arbitration Act, America has at least some
interest in providing a forum.
The third reasonableness factor “evaluates whether
the plaintiff may receive convenient and effective
relief in another forum.” TH, 488 F.3d at 1294. This
factor “may weigh heavily in cases where a Plaintiff’s
chances of recovery will be greatly diminished by
forcing him to litigate in another forum because of that

35a
forum’s laws or because the burden may be so
overwhelming as to practically foreclose pursuit of the
lawsuit.” Benton, 375 F.3d at 1079 (citation omitted).
GCC argues that Mexico can confirm any arbitration
award, and it appears Mexico is indeed a signatory to
the New York Convention. See New York Arbitration
Convention (“NYAC”) website, http://www.newyork
convention.org/countries (last visited July 17, 2020)
(indicating that Mexico signed in 1971). We also
recognize that in the context of motions seeking dismissal based on the doctrine of forum non conveniens,
courts frequently hold (or affirm, under an abuse of
discretion standard) that Mexico is an available and
adequate forum. E.g., In re Ford Motor Co., 591 F.3d
406, 412-13 (5th Cir. 2009); Loya v. Starwood Hotels &
Resorts Worldwide, Inc., 583 F.3d 656, 664 (9th Cir.
2009). The Fifth Circuit, for instance, has held not only
that Mexico is adequate in certain circumstances, but
also that there is “a nearly airtight presumption” that
Mexico is available. Saqui v. Pride Cent. Am., LLC,
595 F.3d 206, 211-13 (5th Cir. 2010).
Yet even if we assume for purposes of argument that
Mexico generally is an available and adequate forum,
the record shows CIMSA has encountered specific
roadblocks in this case. The district court found that
GCC obtained “an ex parte order from a Mexican court
expressly enjoin[ing] CIMSA from commencing any
proceedings to confirm the award in Mexico.” App. at
1142 (brackets and emphasis in original, citation and
internal quotation marks omitted). The district court
additionally detected an inability or unwillingness on
the part of the Mexican central authority to timely
serve GCC with process at the publicized address of
GCC’s corporate headquarters. Id. at 1143 n.6. Relief
(including an appeal of the ex parte order) may be
theoretically available in Mexico, but that does not

36a
negate the actual, practical difficulties CIMSA has
faced. We make no broad declarations about the competence or good faith of any foreign court, in Mexico or
elsewhere. Cf. Saqui, 595 F.3d at 212-13 (concluding
that the record was insufficient to establish “corruption” and “long delays” in the Mexican court system).
Instead, we merely conclude that the third reasonableness factor does not favor GCC based on evidence
particular to this dispute.3
The fourth reasonableness factor “asks whether the
forum state is the most efficient place to litigate the
dispute.” TH, 488 F.3d at 1296 (citation and internal
quotation marks omitted). “Key to this inquiry are the
location of witnesses, where the wrong underlying the
lawsuit occurred, what forum’s substantive law governs
the case, and whether jurisdiction is necessary to
prevent piecemeal litigation.” OMI, 149 F.3d at 1097
(citations omitted). Neither GCC nor CIMSA contends
that the location of witnesses points toward any specific forum. But the underlying controversy is governed
by Bolivian law, and it is by no means clear that GCC’s
breach of the right of first refusal occurred in the
United States. See supra § I. Moreover, a confirmation
proceeding in Mexico would be somewhat more effi3

GCC hints that Bolivia, too, could confirm any arbitration
award. Because CIMSA has established minimum contacts, however,
it is GCC’s responsibility to make a compelling case for “unreasonableness.” Burger King, 471 U.S. at 477. Although it appears
that Bolivia signed the New York Convention, see NYAC website,
http://www.newyorkconvention.org/countries (last visited July
17, 2020) (indicating that Bolivia signed in 1995), GCC has not
established that a Bolivian confirmation proceeding would be
convenient and effective. In fact, the evidence provided by CIMSA
describing Bolivian court developments in this matter suggests
the opposite. Hence, on this record, we lack a sufficient basis to
construe the third factor in GCC’s favor.

37a
cient than a confirmation proceeding in the United
States. Judicial proceedings concerning the legal validity of the arbitral award are pending in Mexico, so
a confirmation action in that country could consolidate
at least parts of the litigation. All of this means that
the fourth factor is the one most aligned with GCC’s
position.
The fifth reasonableness factor focuses on “the
procedural and substantive policies of other nations
whose interests are affected by the assertion of jurisdiction.” Asahi, 480 U.S. at 115 (emphasis omitted).
“Important to this inquiry is the extent to which
jurisdiction in the forum state interferes with the
foreign nation’s sovereignty.” OMI, 149 F.3d at 1098.
“Relevant considerations include whether one of the
parties is a citizen of a foreign nation, whether the
foreign nation’s law governs the dispute, and whether
the foreign nation’s citizen chose to conduct business
with a forum resident.” TH, 488 F.3d at 1297 (citation
and internal quotation marks omitted). Here, no party
is a citizen of the United States, Bolivian law governs
the underlying dispute, and American confirmation
might initiate enforcement of an arbitration award
that is later invalidated by Bolivian courts. See supra
§ I. These facts point in GCC’s direction. Yet the
possibility of foreign confirmation of an award that is
unenforceable in the home country was contemplated
by all signatories to the New York Convention, including Bolivia, thereby reducing the threat of sovereign
intrusion. See infra § III. And although CIMSA chose
to work with a pair of Mexican entities, GCC does a
substantial amount of business in the United States
(even if that business is largely unconnected to the
dispute giving rise to the arbitration), and the parties
conducted multiple meetings in America. See supra §
I. It follows that while GCC’s showing on the fifth

38a
reasonableness factor is more than colorable, there are
countervailing considerations as well.
In sum, GCC’s “unreasonableness” arguments are
far from frivolous, but they are not so compelling as to
overcome CIMSA’s demonstration of minimum contacts. See Emp’rs Mut., 618 F.3d at 1164 (“Although
certain traditional notions of fair play and substantial
justice favored [the defendant], it failed to establish a
‘compelling case’ that personal jurisdiction would be
unreasonable.”) (brackets added); see also Newsome,
722 F.3d at 1274 (“A handful of considerations favor
defendants. But they have not carried their overall
burden of convincing us that [forum] jurisdiction would
offend fair play and substantial justice.”) (brackets
added). We conclude that the district court’s exercise
of personal jurisdiction over GCC was consistent with
due process.
C. CIMSA properly served GCC with process
GCC’s final jurisdictional objections relate to service
of process. “Before a federal court may exercise
personal jurisdiction over a defendant, the procedural
requirement of service of summons must be satisfied.”
Omni Capital Int’l, Ltd. v. Rudolf Wolff & Co., 484
U.S. 97, 104 (1987). Service of process notifies a
defendant of the commencement of an action against
him and “marks the court’s assertion of jurisdiction
over the lawsuit.” Okla. Radio Assocs. v. FDIC, 969
F.2d 940, 943 (10th Cir. 1992). Stated differently,
“service of summons is the procedure by which a court
having venue and jurisdiction of the subject matter of
the suit asserts jurisdiction over the person of the
party served.” Omni, 484 U.S. at 104 (citation and
brackets omitted); see also BNSF Ry. Co. v. Tyrrell,
137 S. Ct. 1549, 1556 (2017) (“[A]bsent consent, a basis
for service of a summons on the defendant is pre-

39a
requisite to the exercise of personal jurisdiction.”)
(brackets added).
Evaluating GCC’s challenges requires us to examine
the Hague Service Convention. The purpose of that
agreement is to “simplify, standardize, and generally
improve the process of serving documents abroad.”
Water Splash, Inc. v. Menon, 137 S. Ct. 1504, 1507
(2017). The “primary invention” of the Convention
“is that it requires each state to establish a central
authority to receive requests for service of other
documents from other countries.” Volkswagenwerk
Aktiengesellschaft v. Schlunk, 486 U.S. 694, 698-99
(1988) (citing Article 2). “When a central authority
receives an appropriate request, it must serve the
documents or arrange for their service, and then provide a certificate of service.” Water Splash, 137 S. Ct.
at 1508 (citing Articles 5-6). “A state also may consent
to methods of service within its boundaries other than
a request to its central authority.” Schlunk, 486 U.S.
at 699 (citing Articles 8-11 and 19). For example,
Article 10 says that “[p]rovided the State of destination does not object,” the Convention “shall not
interfere” with “the freedom to send judicial documents, by postal channels, directly to persons abroad,”
or with the freedom of certain individuals “to effect
service of judicial documents directly” through “judicial
officers, officials or other competent persons in the
State of destination.” 20 U.S.T. 361, art. 10(a)–(c).
“[C]ompliance with the Convention is mandatory in all
cases to which it applies[.]” Schlunk, 486 U.S. at 705
(brackets added).
Both Mexico and the United States are signatories
to the Hague Service Convention. See Hague Conference
on Private International Law (“HCCH”) website, https://
www.hcch.net/en/instruments/conventions/status-table/

40a
?cid=17 (last visited July 17, 2020) (indicating that the
treaty entered into force for Mexico in 2000 and the
United States in 1969). Mexico has lodged certain
objections to alternative forms of service. Continuing
with the Article 10 example, Mexico declared in 1999
that “[i]n relation to Article 10, the United Mexican
States are opposed to the direct service of documents
through diplomatic or consular agents to persons in
Mexican territory” according to the procedures described
in sub-paragraphs (a), (b), and (c), “unless the Judicial
Authority exceptionally grants the simplification
different from the national regulations and provided
that such a procedure does not contravene public law
or violate individual guarantees.” HCCH website,
https://www.hcch.net/en/instruments/conventions/statustable/notifications/?csid=412&disp=resdn (last visited
July 17, 2020).4 In 2011, Mexico stated that “[i]n
accordance with Article 21, second paragraph, subparagraph a), Mexico declares that it is opposed to the
use in its territory of the methods of transmission
provided for in Article 10.” Id.
Evaluating GCC’s challenges also requires us to
examine Rule 4. Rule 4(h) states in part that absent a
waiver or federal law to the contrary, a “foreign
4

In carrying treaties into effect, the “public acts and proclamations of [foreign] governments, and those of their publicly recognized
agents,” are “historical and notorious facts, of which the court can
take regular judicial notice.” Gross v. German Found. Indus.
Initiative, 549 F.3d 605, 612 (3d Cir. 2008) (brackets in original,
quoting United States v. Reynes, 50 U.S. (9 How.) 127, 147-48
(1850)). Because the statements of Mexico’s position appearing
on the Hague Service Convention website are “not subject to
reasonable factual dispute” and “capable of determination using
sources whose accuracy cannot reasonably be questioned,” New
Mexico ex rel. Richardson v. Bureau of Land Mgmt., 565 F.3d 683,
702 n.22 (10th Cir. 2009), they are subject to judicial notice.

41a
corporation” must be served “at a place not within any
judicial district of the United States, in any manner
prescribed by Rule 4(f) for serving an individual,
except personal delivery under (f)(2)(C)(i).” Fed. R.
Civ. P. 4(h)(2). Rule 4(f), in turn, states as follows:
(f) SERVING AN INDIVIDUAL IN A FOREIGN
COUNTRY. Unless federal law provides otherwise, an individual—other than a minor, an
incompetent person, or a person whose waiver
has been filed—may be served at a place not
within any judicial district of the United
States:
(1) by any internationally agreed means
of service that is reasonably calculated to
give notice, such as those authorized by the
Hague Convention on the Service Abroad of
Judicial and Extrajudicial Documents;
(2) if there is no internationally agreed
means, or if an international agreement
allows but does not specify other means, by
a method that is reasonably calculated to
give notice:
(A) as prescribed by the foreign country’s
law for service in that country in an
action in its courts of general jurisdiction;
(B) as the foreign authority directs in
response to a letter rogatory or letter of
request; or
(C) unless prohibited by the foreign
country’s law, by:
(i) delivering a copy of the summons
and of the complaint to the individual
personally; or

42a
(ii) using any form of mail that the
clerk addresses and sends to the
individual and that requires a signed
receipt; or
(3) by other means not prohibited by
international agreement, as the court
orders.
Fed. R. Civ. P. 4(f)(1)–(3).
GCC contends that in light of Mexico’s objections,
the Hague Service Convention does not authorize
service methods beyond the use of that country’s
central authority. But the relevant inquiry under Rule
4(f)(3) is not whether the agreement affirmatively
endorses service outside the central authority. Cf. Fed.
R. Civ. P. 4(f)(1) (contemplating “any internationally
agreed means” of service under the Hague Service
Convention). It is whether the alternative service
method in question is “prohibited” by the agreement.
Fed. R. Civ. P. 4(f)(3). The district court approved
service on GCC’s American counsel because the
Mexican central authority did not or would not serve
GCC, despite a well-known headquarters address. See
supra § I; App. at 1143 n.6. Several tribunals have
held—Article 10 objections notwithstanding—that the
Convention does not contain a specific prohibition on
this form of service. See, e.g., SEC v. de Nicolas
Gutierrez, No. 17cv2086-JAH (JLB), 2020 WL 1307143,
at *3 (S.D. Cal. Mar. 19, 2020) (holding that service on
American counsel is permissible “even taking into
account Mexico’s objection to certain articles of the
Hague Convention,” including Article 10); FTC v.
Repair All PC, LLC, No. 1:17 CV 869, 2017 WL
2362946, at *3-4 (N.D. Ohio May 31, 2017) (remarking
that “[t]here are numerous cases where courts have
permitted service through U.S. counsel despite the

43a
foreign signatory’s objection to Article 10 of the Hague
Convention,” and upholding such service even though
“India has objected to Article 10”); Carrico v. Samsung
Elecs. Co., Ltd., No. 15-cv-02087-DMR, 2016 WL
2654392, at *4 (N.D. Cal. May 10, 2016) (holding that
“[n]othing in the Hague Convention bars Plaintiffs’
requested service on Park through her attorney,” despite
the Republic of Korea’s objections to various articles);
In re Cathode Ray Tube (CRT) Antitrust Litig., 27 F.
Supp. 3d 1002, 1010 (N.D. Cal. 2014) (holding, despite
China’s objection to Article 10, that the Convention
“does not prohibit” service on United States counsel,
“a common method of service under Rule 4(f)(3)”);
RSM Prod. Corp. v. Fridman, No. 06 Civ. 11512(DLC),
2007 WL 2295907, at *4 (S.D.N.Y. Aug. 10, 2007)
(determining that the Convention was inapplicable,
but even so, “the Russian Federation’s objections to
Articles 8 and 10 do not prohibit” service through an
American attorney). In short, “numerous courts have
authorized alternative service under Rule 4(f)(3),”
including “[s]ervice upon a foreign defendant’s United
States-based counsel,” in cases involving countries
that “have objected to the alternative forms of service
permitted under Article 10 of the Hague Convention.”
Richmond Techs., Inc. v. Aumtech Bus. Sols., No. 11CV-02460-LHK, 2011 WL 2607158, at *11-13 (N.D.
Cal. July 1, 2011).5 We therefore decline to embrace
GCC’s complaint based on the Convention.

5

The parties have not briefed whether an objection to Article
10 of the Hague Service Convention prohibits service by email.
We express no view on that issue. Nor have the parties briefed
whether service on GCC’s American counsel was “reasonably
calculated, under all of the circumstances, to apprise interested
parties of the pendency of the action and afford them an opportunity to present their objections.” Mullane v. Cent. Hanover

44a
GCC additionally asserts that service on United
States counsel is foreclosed by the text of Rule 4(f),
which envisions service “at a place not within any
judicial district of the United States[.]” Here too,
however, courts have held that the “proper construction” of Rule 4(f)(3) vis-á-vis a foreign defendant
includes service via “delivery to the defendant’s
attorney.” Rio Props., Inc. v. Rio Int’l Interlink, 284
F.3d 1007, 1016 (9th Cir. 2002); see also Marks Law
Offices, LLC v. Mireskandari, 704 F. App’x 171, 177
(3d Cir. 2017) (unpublished) (citing Rio Props. for the
same point); Freedom Watch, Inc. v. Org. of the
Petroleum Exporting Countries (OPEC), 766 F.3d 74,
83 (D.C. Cir. 2014) (“A number of courts thus have
sanctioned service on United States counsel as an
alternative means of service under Rule 4(f)(3) without
requiring any specific authorization by the defendant
for the recipient to accept service on its behalf.”);
Nuance Commc’ns, Inc. v. Abbyy Software House, 626
F.3d 1222, 1239-40 (Fed. Cir. 2010) (indicating that
service may be made under Rule 4(f)(3) “on Defendants’ domestic subsidiaries or domestic counsel”).
Among the theories supporting this view is that “court
orders generally crafted under Rule 4(f)(3) require
transmission of service papers to a foreign defendant
via a domestic conduit like a law firm or agent—
ultimately, the foreign individual is served and thereby
provided notice outside a United States judicial
district, in accordance with Rule 4’s plain language.”
Cathode Ray Tube, 27 F. Supp. 3d at 1010; see
also Bazarian Int’l Fin. Assocs., LLC v. Desarrollos
Aerohotelco, C.A., 168 F. Supp. 3d 1, 14 (D.D.C. 2016)
(“This Court disagrees with the defendants’ cramped
Bank & Trust Co., 339 U.S. 306, 314 (1950). We likewise save
that topic for another day.

45a
interpretation of Rule 4(f) and instead holds that
permitting service of a foreign individual or corporation through retained United States counsel does
not run afoul of the rule’s application to individuals
and corporations located in foreign countries, where
service will be completed.”). We thus decline to adopt
GCC’s complaint based on Rule 4(f)(3) as well.
III. The district court did not err in confirming the
arbitration tribunal’s decisions
As described supra in § II.B.1, a district court must
confirm a foreign arbitration award under the New
York Convention unless the party opposing confirmation makes a specified showing. The New York
Convention states in Article V that “[r]ecognition and
enforcement of the award may be refused, at the
request of the party against whom it is invoked, only
if that party furnishes to the competent authority
where the recognition and enforcement is sought,
proof’ of an enumerated defense. 21 U.S.T. 2157, art.
V(1). Courts construe Article V defenses “narrowly,” to
“encourage recognition and enforcement of commercial
arbitration agreements in international contracts.”
OJSC Ukrnafta v. Carpatsky Petroleum Corp., 957
F.3d 487, 497 (5th Cir. 2020) (citations and internal
quotation marks omitted); see also Ministry of Def. &
Support for the Armed Forces of the Islamic Republic
of Iran v. Cubic Def. Sys., Inc., 665 F.3d 1091, 1096
(9th Cir. 2011) (“These defenses are construed narrowly,
and the party opposing recognition or enforcement
bears the burden of establishing that a defense applies.”).
One such defense is that “[t]he award has not yet
become binding on the parties, or has been set aside or
suspended by a competent authority of the country in
which, or under the law of which, that award was

46a
made.” New York Convention, 21 U.S.T. 2157, art.
V(1)(e).
Relying on this portion of Article V, GCC argues that
the district court should not have confirmed CIMSA’s
arbitration award for two reasons. First, GCC contends that the award on the merits has been set aside
or suspended by a competent Bolivian authority.
Second, GCC maintains that the damages award is not
binding because GCC is in the process of challenging
it in a Bolivian court. “We review a district court’s
legal interpretations of the New York Convention as
well as its contract interpretation de novo; findings of
fact are reviewed for clear error.” VRG Linhas Aeras
S.A. v. MatlinPatterson Global Opportunities Partners
II L.P., 717 F.3d 322, 325 (2d Cir. 2013). If an
interpretation of Bolivian law is required, “the court’s
determination of an issue of foreign law is to be treated
as a ruling on a question of law,’ not `fact,’ so that
appellate review will not be narrowly confined to the
`clearly erroneous’ standard of Rule 52(a).” Advisory
committee’s note to 1966 adoption of Fed. R. Civ. P.
44.1; see also Animal Sci. Prods., Inc. v. Hebei Welcome
Pharm. Co., 138 S. Ct. 1865, 1873 (2018) (reasoning
that under Rule 44.1 “a federal court should carefully
consider a foreign state’s views about the meaning of
its own laws,” but “the appropriate weight in each case
will depend upon the circumstances”).
Whether the arbitration tribunal’s award on the
merits has been set aside or suspended is a knotty
issue. Not surprisingly, the parties cite almost no
American case law to support their positions. That is
because the validity of the merits award turns on
whether various procedural maneuvers in, and substantive rulings of, Bolivian courts were proper. And
Bolivian judicial proceedings on the merits award did

47a
not follow an entirely familiar pattern. In some ways,
the proceedings resembled an American interlocutory
appeal in which trial court litigation is not stayed. In
other ways, they did not.
Although our review of foreign law is de novo, the
district court’s opinion is instructive. That court concluded the merits award had not been set aside for
several reasons. First, the district court reasoned that
once the PCT in March 2016 reversed the Guarantee
Court’s decision on GCC’s amparo against the Eighth
Judge, none of the orders that arose out of the
simultaneous remand (and which appeared to sustain
the Ninth Judge Decision) had any legal effect. App. at
1251-54; see also id. at 1252 (stating that because
the March 2016 PCT order “revoked the legal basis for
the Ninth Judge Decision, the Ninth Judge Decision
cannot be reasonably understood to supersede the
Eighth Judge Decision”); id. at 1254 (rejecting, with
respect to the November 2016 PCT order, GCC’s
request to “view the Ninth Judge Decision in a vacuum
and ignore the significance of’ the March 2016 PCT
order). Second, the district court determined that the
January 2017 PCT order, despite referring to the
“subsistence” of the Ninth Judge Decision, served a
limited procedural purpose “and could not have given
substantive validity to the Ninth Judge Decision after
it had been rendered a nullity” by the March 2016 PCT
order. Id. at 1254-55; see also id. at 1254 (noting
that GCC sought, but did not receive, a statement in
the January 2017 PCT order that “the Ninth Judge
Decision was valid and in effect” notwithstanding
the March 2016 PCT order). Third, the district court
observed that “[t]he expert reports make clear” the
President of the PCT had “no legal authority to unilaterally issue” his November 2016 decree. Id. at 1255;

48a
see also id. (referencing the “three types of decisions”
the PCT is authorized to make under Bolivian law).
After independently reviewing the record, we agree
with the district court’s analysis. We recognize that
the district court’s ruling and our ruling insinuate that
the November 2016 PCT order, the November 2016
PCT Presidential decree, and the January 2017 PCT
order were improvidently issued and/or do not mean
that the Ninth Judge Decision remains in effect, even
though that is what each order or decree arguably
states or implies. No party, however, fits together all
of the pieces of the puzzle. In other words, no party
provides an explanation which renders consistent and
logical all of the twists, turns, and orders in the
Bolivian proceedings, at least by standards recognizable to American jurists and litigants. So while
CIMSA’s interpretation may not be seamless, we are
convinced there is no perfect explanation of what has
happened in Bolivia, and CIMSA’s construction is
more defensible than the alternative.
A more detailed examination of the evidence and
authorities proffered by CIMSA bears this out. Those
materials indicate that GCC sought to annul the
merits award. App. at 180-81, 381-82. The Eighth
Judge denied the request. Id. at 18182, 382-83. GCC
had no right to appeal that decision. Id. at 182-83, 383.
GCC’s only option was to pursue the “extraordinary
remedy” of an amparo, which is what GCC did,
asserting that the Eighth Judge failed to sufficiently
explain her reasoning. Id. at 182-83, 383-84. A
Guarantee Court agreed with GCC, temporarily revoked
the Eighth Judge Decision, and remanded the case to
the Eighth Judge to issue a new ruling. Id. at 183-84,
384-86. However, the validity of the Guarantee Court’s
actions was contingent upon further review by the

49a
PCT. Id. at 184-85, 384-86. In a March 2016 order, the
PCT reversed the Guarantee Court, holding that the
Eighth Judge had acted properly. Id. at 191-92,38788,873-74.
In the interim, the Ninth Judge entered the picture.
Instead of promptly remanding the matter to the
Eighth Judge for a new decision, the Guarantee Court
held on to the case for nearly two months, sending it
back when the Eighth Judge was on vacation. Id. at
185, 390. That resulted in the matter being routed
to a substitute judge—the Ninth Judge—who faced
a disqualification request from CIMSA and had
only approximately a week to review the voluminous
record; the Ninth Judge granted GCC’s annulment
request the day before the Eighth Judge returned from
vacation, despite the fact that substitute judges
typically do not issue substantive final judgments. Id.
at 185-86,390-92,899-902. CIMSA filed an amparo
against the Ninth Judge, which a Guarantee Court
granted in February 2016. Id. at 189-90,396–97. That
led to the case being remanded to the Eighth Judge,
with the validity of the actions of the Guarantee Court
again being contingent on PCT review. Id. at 190.
As indicated, though, roughly a month later, the
PCT in GCC’s original amparo concluded there was no
basis to challenge the Eighth Judge’s actions in the
first place. Id. at 191-92,387-88,873-74. That effectively
reinstated the merits award as a final and binding
judgment. Id. at 192, 388-90. Once CIMSA found out
about this PCT order, CIMSA reasonably concluded
that the reinstatement of the Eighth Judge Decision
and the merits award rendered superfluous a separate
attack on the Ninth Judge’s rulings. Id. at 191-92,871.
In the words of one of CIMSA’s experts, the Ninth
Judge Decision had “no legal effect” and was “rendered

50a
void” by the March 2016 PCT order, which “revoked
the only legal authority for a new decision on GCC’s
request for annulment.” Id. at 393; accord id. at
393-96,399–400,869-70,876-79. CIMSA consequently
withdrew its amparo against the Ninth Judge. Id. at
192, 397-98. Even with the withdrawal, a PCT ruled
on CIMSA’s amparo anyway, issuing an order that
was backdated almost six months. Id. at 192-93,
398-99.
This prompted GCC to file (without notice to CIMSA)
requests for “clarification.” Id. at 193,401,406-07.
GCC’s clarification requests produced a decree from
the President of the PCT regarding GCC’s amparo and
a January 2017 PCT order regarding CIMSA’s amparo
(both of which were issued without notice to CIMSA).
Id. at 193-94, 402. The presidential decree used
language that is difficult to understand, and in any
event, the President lacked authority under Bolivian
law to issue the order. Id. at 195-96,402-06,873,87980. The President was also one of the signatories of the
January 2017 PCT order, which (like the November
2016 PCT order) did not and could not overturn the
March 2016 PCT order finalizing the merits award
and rejecting GCC’s challenge to the Eighth Judge.
Id. at 196-97, 407-10, 870-71,880-86. Accordingly,
we conclude that the merits award has not been set
aside or suspended for purposes of the New York
Convention.
We also reject GCC’s argument that the arbitration
tribunal’s damages award is not binding because annulment proceedings are pending in Bolivian courts. A
court action in the country where the arbitration took
place does not create a defense to confirmation.
American judges hold—virtually unanimously—that
under the New York Convention “[a]n arbitration

51a
award becomes binding when no further recourse may
be had to another arbitral tribunal (that is, an appeals
tribunal).” Ministry, 665 F.3d at 1100-01 (emphasis
added, citation and internal quotation marks omitted).
American judges further hold that “[u]nder the [New
York] Convention, a court maintains the discretion to
enforce an arbitral award even when nullification
proceedings are occurring in the country where the
award was rendered.” Karaha Bodas Co., LLC v.
Perusahaan Pertambangan Minyak Dan Gas Bumi
Negara, 335 F.3d 357, 367 (5th Cir. 2003) (brackets
added).6
The rationale for this rule is straightforward. “When
the [New York] Convention was drafted, one of its
main purposes was to facilitate the enforcement of
arbitration awards by enabling parties to enforce them
in third countries without first having to obtain either
6

For additional examples of cases holding that the exhaustion
of arbitration proceedings makes an award “binding,” see Aperture
Software GmbH v. Avocent Huntsville Corp., No. 5:14-cv-00211JHE, 2015 WL 12838967, at *2 (N.D. Ala. Jan. 5, 2015); Boeing
Co. v. KB Yuzhnoye, No. CV 13-730 ABC (AJWx), 2013 WL 12131183,
at *6 (C.D. Cal. Dec. 18, 2013); Jorf Lasfar Energy Co., S.C.A. v.
AMCI Export Corp., No. Civ. A. 05-0423, 2006 WL 1228930, at *4
(W.D. Pa. May 5, 2006); Ukrvneshprom State Foreign Econ.
Enter. v. Tradeway, Inc., No. 95 Civ. 10278 (RPP), 1996 WL
107285, at *4 (S.D.N.Y. Mar. 12, 1996); and Fertilizer Corp. of
India v. IDI Mgmt., Inc., 517 F. Supp. 948, 957-58 (S.D. Ohio
1981). For more examples of cases holding that enforcement may
proceed despite pending judicial proceedings in the country
where the arbitration occurred, see Fakhri v. Marriot Int’l Hotels,
Inc., 201 F. Supp. 3d 696, 711 n.11 (D. Md. 2016); OJSC Ukrnafta
v. Carpatsky Petroleum Corp., No. Civ. A. H-09-891, 2011 WL
13131147, at *3 (S.D. Tex. Oct. 12, 2011); Jorf Lasfar, 2006 WL
1228930, at *4; and Alto Mar Girassol v. Lumbermens Mut. Cas.
Co., No. 04 C 7731, 2005 WL 947126, at *4 (N.D. Ill. Apr. 12,
2005).

52a
confirmation of such awards or leave to enforce them
from a court in the country of the arbitral situs.” Id. at
366-67 (brackets added). ‘By allowing concurrent
enforcement and annulment actions, as well as simultaneous enforcement actions in third countries, the
[New York] Convention necessarily envisions multiple
proceedings that address the same substantive challenges to an arbitral award.” Id. at 367 (brackets
added); see also Ingaseosas Int’l Co. v. Aconcagua
Investing Ltd., 479 F. App’x 955, 961 (11th Cir. 2012)
(unpublished) (“It is true that the [New York] Convention envisions multiple proceedings that address the
same substantive challenges to an arbitral award.”)
(citation and internal quotation marks omitted,
brackets added).
New York Convention provisions anticipate the possibility of a party seeking confirmation in one country
even though nullification proceedings are underway in
another. The New York Convention states:
If an application for the setting aside or
suspension of the award has been made to a
competent authority referred to in article
V(1)(e), the authority before which the award
is sought to be relied upon may, if it considers
it proper, adjourn the decision on the enforcement of the award and may also, on the
application of the party claiming enforcement
of the award, order the other party to give
suitable security.
21 U.S.T. 2157, art. VI. American judges recognize
that “a district court faced with a decision whether to
adjourn arbitral enforcement proceedings to await the
outcome of foreign proceedings must take into account
the inherent tension between competing concerns.”
Europcar Italia, S.p.A. v. Maiellano Tours, Inc., 156

53a
F.3d 310, 317 (2d Cir. 1998). Factors relevant to
the adjournment analysis include, without limitation,
(1) the general objective of the arbitration; (2) the
status of the foreign proceedings and the estimated
time for those proceedings to be resolved; (3) the level
of scrutiny and the standard of review in the foreign
proceedings; (4) other characteristics of the foreign
proceedings; and (5) the balance of possible hardships
to each of the parties. Id. at 317–18.
GCC elides the distinction between an arbitration
and a subsequent judicial challenge by attempting to
portray the issue as whether the law of the country
where the arbitration took place determines whether
an award is binding. The pivotal inquiry under any
forum’s law is whether the arbitration proceedings
have sufficiently run their course, not whether postarbitration judicial proceedings are available. Courts
typically look to the parties’ arbitration agreement,
the rules governing the arbitration, and other forum
laws to decide whether an award is binding. See, e.g.,
Aperture, 2015 WL 12838967, at *3 (relying on the
parties’ contract and arbitration rules); Fertilizer Corp.,
517 F. Supp. at 956-58 (relying on the parties’ contract,
arbitration rules, and the law of the forum). That is
logical, because the parties are free to agree on the
terms and conditions of their arbitration, as permitted
by law. Looking to the rules of the forum in this
context is quite different from looking to the law of the
forum with respect to judicial nullification options.
Diag Human S.E. v. Czech Republic–Ministry of
Health, 907 F.3d 606 (D.C. Cir. 2018), illustrates the
point. In that case, the D.C. Circuit affirmed a district
court’s ruling that an arbitration award was not
binding under the New York Convention. Id. at 60712. The D.C. Circuit recognized that the parties, as

54a
permitted by “Czech arbitration law,” agreed to “a
review process in which a second arbitration panel can
revisit the original award with the power to uphold,
nullify, or modify it.” Id. at 608. Citing cases like
Ministry, 665 F.3d at 1100-01, and Fertilizer Corp.,
517 F. Supp. at 958, the D.C. Circuit found not only
that “the parties had recourse to another arbitration
panel, which was sufficient to prevent the award from
becoming binding at that time,” but also that the
second panel had “invalidated” the award. Diag, 907
F.3d at 609. The D.C. Circuit observed that “[w]hen
the binding status of an award is in doubt under
Article V(1)(e) of the New York Convention, the court
may look to the law of the rendering jurisdiction,
though litigation of that issue is rare. This is true
particularly when the agreement incorporates local
arbitral law, as this agreement did here.” Id. at 611
(citing, among other cases, Aperture, 2015 WL 12838967,
at *2-3).
In the case before us, the parties’ agreement demonstrates that the arbitration award became binding
upon issuance for purposes of the New York Convention. The 2005 Shareholder Agreement’s “Waiver of
Remedies” clause stated that “[a]ny awards or order
issued by the Arbitration Court shall be final and of
mandatory compliance for the Parties to the Arbitration
who expressly waive all actions for annulment, objection, or appeal against the award.” Supp. App. at 2.
The 2005 Shareholder Agreement also specified the
use of IACAC arbitration rules, id., which rules
provided that “[t]he award shall be made in writing
and shall be final and binding on the parties and
subject to no appeal.” See 22 C.F.R. pt. 194, app. A, art.
29.2 (setting forth the IACAC rules as amended April
1, 2002). Bolivian law may very well permit a judicial
challenge to the damages award. That does not detract

55a
from the “binding” nature of the arbitration under the
New York Convention.
IV. Conclusion
For the foregoing reasons, we AFFIRM the district
court’s orders exercising personal jurisdiction over
GCC and confirming the arbitration award under the
New York Convention.

56a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
[Filed March 25, 2019]
————
Civil Action No. 1:15-CV-02120
————
COMPAÑÍA DE INVERSIONES MERCANTILES S.A.,
Petitioner,
v.
GRUPO CEMENTOS DE CHIHUAHUA, S.A.B. DE C.V.,
and GCC Latinoamérica, S.A. DE C.V.,
Respondents.
————
MEMORANDUM OPINION AND ORDER
Kane, J.
Petitioner Compafiía de Inversiones Mercantiles
S.A. (“CIMSA”) brought this action in 2015 pursuant
to 9 U.S.C. § 207 to confirm a foreign arbitral
award issued against Respondents Grupo Cementos
de Chihuahua, S.A.B. de C.V. (“GCC”) and GCC
Latinoamérica, S.A. de C.V. (“GCC Latinoamérica”) in
Bolivia. The resolution of this case has been prolonged
by ongoing litigation in Bolivia and obstacles to
effectuating service. In October 2018, I authorized
alternative service and Respondents were promptly
served. (See ECF Nos. 79 and 81). On December 12,
2018, I rejected Respondents’ challenges to jurisdiction and ordered the parties to present oral argument
on the merits of CIMSA’s Petition. (See ECF No. 82).
Having considered the parties’ oral arguments,

57a
presented on February 13, 2019, and the voluminous
filings and arguments contained therein, I now grant
CIMSA’s Petition to Confirm a Foreign Arbitral Award
(ECF No. 1) and the subsequent Motion to Confirm
Foreign Arbitral Award (ECF No. 50).
I. BACKGROUND
A. The Parties’ Contractual Relationship and
Arbitration Proceedings in Bolivia
Contractual Agreements and Negotiations
GCC, a Mexican corporation with its principal place
of business in Chihuahua, Mexico, “is a leading supplier of cement, aggregates, concrete and constructionrelated services in Mexico and the United States.”
(Hertzberg Decl. ¶ 2, ECF No. 1-10; GCC’s 2Q2015
Earnings Report, ECF No. 1-11). In the early-2000s,
GCC began “exploring the possibility of expanding” its
business into the southern hemisphere. (Hertzberg
Decl. ¶ 2; Amaya Decl. ¶ 5, ECF No. 62). In 2004, GCC
representatives traveled to La Paz, Bolivia to meet
with representatives from Sociedad Boliviana de
Cemento, S.A. (“SOBOCE”), Bolivia’s largest cement
company. (Doria Medina Decl. ¶ 2, ECF No. 1-9;
Amaya Decl. ¶ 6). Later that same year, GCC representatives mentioned to SOBOCE representatives
that GCC “was interested in growth opportunities in
South America.” (Amaya Decl. ¶ 7). SOBOCE representatives informed the GCC representatives that
CIMSA, a Bolivian corporation with its principal place
of business in Bolivia, “was searching for a new
partner to invest in SOBOCE.” (Id.). At the time,
CIMSA owned a controlling interest in SOBOCE.
(Hertzberg Decl. ¶ 3).
In 2005, representatives from GCC and CIMSA met
in Miami, Florida to discuss GCC’s “potential interest

58a
in acquiring shares in SOBOCE.” (Doria Medina Decl.
¶ 5). The parties engaged in extensive negotiations
over the next six months, and on September 22, 2005,
GCC Latinoamérica, GCC’s wholly-owned subsidiary,
acquired a 47 percent interest in SOBOCE. (Hertzberg
Decl. ¶ 3). The same day, GCC, GCC Latinoamérica,
SOBOCE, and CIMSA executed a shareholder’s agreement (the “2005 Agreement”) governed by Bolivian
law. (Amaya Decl. ¶ 20). GCC guaranteed GCC
Latinoamérica’s obligations under the 2005 Agreement. (Hertzberg Decl. ¶ 3).
The 2005 Agreement provided, among other things,
that each party had a right of first refusal with respect
to the other’s shares in SOBOCE. (Doria Medina Decl.
¶ 10). Under the agreement, either party could “transfer its shares to a third party after a period of five
years.” (Id.). However, the party wishing to transfer
its shares could only do so after providing notice and
“afford[ing] the other party an opportunity to purchase
the shares on the same or better terms within 30
days.” (Id.). The 2005 Agreement also provided that
any dispute between the parties would be “submitted
to conciliation and subsequent international arbitration for final resolution, subject to the rules of the
Inter-American Commercial Arbitration Commission
(IACAC),” known as the Comisión Inter-Americana de
Arbitraje Comercial (“CIAC”) in Spanish, “and as
modified by means of mutual agreement between the
Parties to the Arbitration.” (2005 Agreement, cl. 29.1,
ECF Nos. 62-1 & 62-2). Under the Agreement, the
arbitration was to be administered by the national
chapter of the CIAC in Bolivia. (Id.)
In 2009, Respondents informed CIMSA of their
desire to sell their SOBOCE shares. (Amaya Decl. ¶
24). Pursuant to CIMSA’s right of first refusal under

59a
the 2005 Agreement, the parties met in Miami six
different times in 2010 to negotiate an agreement that
would allow CIMSA to purchase Respondents’ shares
in SOBOCE. The parties “came to an agreement
regarding fundamental terms of sale” and signed an
agreement in La Paz, Bolivia the following month.
(Id.). However, the Government of Bolivia “expropriated a substantial division of SOBOCE’s business”
shortly before the transaction was scheduled to close.
(Doria Medina Decl. ¶ 15). As a result, CIMSA was
unable to pay for Respondents’ shares under the terms
of the new agreement, and the parties failed to close
the deal. (Id.; Amaya Decl. ¶ 29).
In 2011, the parties met in Houston, Texas to
negotiate another agreement under which CIMSA
would purchase Respondents’ SOBOCE shares pursuant to its right of first refusal under the 2005
Agreement. (Doria Medina Decl. ¶ 16; Amaya Decl. ¶¶
31-32). During the meeting, CIMSA proposed “two
alternative payment structures.” (Doria Medina Decl.
¶ 18). Negotiations continued via telephone and email
for several weeks, but the parties ultimately agreed on
one of the payment terms CIMSA proposed. (Id. ¶¶ 1922). In August 2011, Respondents “instructed CIMSA
to hire New York counsel to draft a final agreement.”
(Id. at ¶ 22). Respondents also retained their own
counsel from a New York-based law firm, and the
parties agreed that New York law would govern the
new agreement. (Id.). Nevertheless, Respondents proceeded to sell their SOBOCE shares to a third party on
August 18, 2011, despite previous indications that the
payment term CIMSA suggested at the 2011 meeting
was satisfactory. (Doria Medina Decl. ¶ 26; Amaya
Decl. ¶¶ 39-41).

60a
Arbitration Proceedings
In response, CIMSA submitted a notice of arbitration to the CIAC against Respondents in Bolivia,
and the parties appointed their chosen arbitrators
(the “Arbitral Tribunal” or “Tribunal”). (Doria Medina
Decl. ¶¶ 27-28). The parties agreed to bifurcate the
proceedings into two phases: a phase to determine
liability (“Merits Phase”), and a phase to determine
damages (“Damages Phase”). (Von Borries Decl. ¶ 15).
On September 13, 2013, the Arbitral Tribunal
issued a “Partial Final Award on Liability” (the
“Merits Award”) in favor of CIMSA. (Merits Award,
ECF No. 46-2; Von Borries Decl. ¶¶ 16-18). The Merits
Award concluded that Respondents violated “the
requirements of good faith as stipulated by Bolivian
law and the obligations emanating from subclause 6.3
of the 2005 Agreement,” and ruled to move on to the
second stage where it would “quantify the damages to
be paid to CIMSA by the Respondents.” (Merits Award
¶ 595, p. 158).
On April 10, 2015, the Arbitral Tribunal issued a
Final Award on Damages (the “Damages Award”).
(Damages Award, ECF No. 1-8). The Tribunal quantified CIMSA’s damages at approximately $34.1 million,
plus fees and costs, totaling $36,139,223, plus annual
interest at a rate of 6%. (Id. ¶ 377, p. 90). The
Respondents submitted a request for interpretation
and correction of the Damages Award asking the
Tribunal to amend its damages calculation. The
Tribunal rejected the request and confirmed its
damages calculation in its June 2015 Decision on the
Interpretation and Correction of the Final Arbitral
Award on Damages. (Decision on Interpretation of the
Damages Award, ECF No. 1-8, pp. 94-116).

61a
Respondents initiated court proceedings in Bolivia
seeking to annul both the Merits Award and the
Damages Award, as detailed below.
B. Post-Arbitration
Bolivia

Legal

Proceedings

in

The various legal proceedings in Bolivia are detailed
in the parties’ filings (See ECF Nos. 50, 61, 64, 65, 69,
71, 73, 76, 77, & 78), so here I outline only those events
most pertinent to my analysis and decision.
Bolivian Proceedings Regarding the Merits Award
In November 2013, two months after the Arbitral
Tribunal issued the Merits Award, and shortly after
the Tribunal commenced the Damages Phase of the
arbitration, Respondents filed a request for annulment of the Merits Award, which, pursuant to the law
at the time, was first submitted to the Arbitral
Tribunal for initial review. (Von Borries Decl. ¶ 32,
ECF No. 46). In February 2014, the Tribunal found
that the request satisfied the technical requirements
and could proceed to the Bolivian courts to decide the
merits of the request. (Id. ¶ 33).1 The request for
annulment was assigned to the Eighth Judge for the
1

Although the Tribunal gave Respondents two weeks to seek
suspension of the Damages Phase pending the court’s decision on
the request for annulment of the Merits Award, they never
requested suspension of the arbitration proceedings in Bolivia.
(Id. ¶¶ 33-34). Instead, months later in December 2014, they
obtained an ex parte anti-arbitration injunction from a court in
Chihuahua, Mexico, ordering suspension of the Damages Phase
of the arbitration proceedings. (Id. ¶ 34). The Arbitral Tribunal
considered the parties’ arguments on the Mexican court’s antiarbitration injunction, but concluded that the Mexican court did
not have jurisdiction to interfere with the arbitration in Bolivia.
(Id. ¶¶ 35-37).

62a
Civil and Commercial Court of the Judicial District of
La Paz, Dr. Rosario Sánchez Sánchez. On August 31,
2015, the Eighth Judge denied Respondents’ request
for annulment of the Merits Award. (“Eighth Judge
Decision,” No. 362/2015, ECF No. 65-4).
Bolivian law does not permit parties to appeal a trial
court decision in an action to set aside an arbitral
award. Under Bolivian Law No. 1770 (the “Old Arbitration Law”), a request for annulment is the exclusive
remedy for a party seeking relief from an arbitral
award, and there is no appeal from the trial court’s
decision on a request to annual an arbitral award.
(Von Borries Decl. ¶¶ 32, 43; Asbun Report ¶ 15, ECF
No. 49-1).2 However, if a judge violates a party’s
constitutional rights during the proceedings or in the
decision, the party may bring an amparo action
pursuant to Article 128 of the Bolivian Constitution
and Law No. 254 of the Bolivian Code of Constitutional
Procedure. (Asbun Report ¶17, ECF No. 49-1; Von
Borries Decl. ¶ 43). An amparo is not an appeal of the
substantive merits of the underlying claim, but is a
distinct action to address official conduct that violates
2

The Old Arbitration Law was replaced with Law No. 708 (the
“New Arbitration Law”) on June 25, 2015, but the Old Arbitration
Law continued to apply to all proceedings commenced prior to its
enactment, including Respondents’ challenge to the Merits
Award. (Von Borries Decl. ¶ 32, n. 2, p. 12). The New Arbitration
Law applies to the annulment proceedings on the Damages
Award, which Respondents initiated in July 2015. Like the Old
Arbitration Law, the New Arbitration Law provides that the only
way to challenge an arbitral award is to request that the Bolivian
trial court annul the award, and the court’s resolution of this
request is not appealable. (Asbun Report ¶ 15; see also Andrés
Moreno Gutierrez & Daniel Arredondo Zelada, Bolivia, GLOBAL
ARBITRATION REV., Sept. 4, 2017, available at https://globalarbi
trationreview.com/chapter/1147054/bolivia).

63a
a party’s constitutional rights. (See Asbun Report ¶
19).
Respondents filed an amparo against the Eighth
Judge, alleging that she violated its rights by, inter
alia, failing to sufficiently explain her decision.
Amparos are initially heard by departmental courts,
called “Guarantee Courts” when acting on amparos,
and the resolution of the Guarantee Court is subject to
review by the Plurinational Constitutional Tribunal
(“PCT”), the highest constitutional court in Bolivia.
Although a Guarantee Court’s resolution on an
amparo is subject to mandatory review by the PCT, it
is also subject to immediate compliance. Under this
simultaneous process of remand and review, after a
Guarantee Court grants an amparo, the case is sent to
the PCT for review and also sent back to the trial court
for compliance with the Guarantee Court’s resolution.
(Asbun Report ¶¶ 22-23; Von Borries Decl. ¶¶ 47-48).
On October 28, 2015, a Guarantee Court granted
Respondents’ amparo and revoked the Eighth Judge
Decision. (Guarantee Court Resolution No. 77/2015,
ECF No. 65-6). The Guarantee Court remanded the
case “so that the Eighth [ ] Judge may issue a new
decision with proper statement of grounds according
to the principle of consistency.” (Id. at 17). Rather than
send the case back to the Eighth Civil and Commercial
Court right away, the Guarantee Court waited more
than two months and sent the case back on Friday,
January 8, 2016, when the Eighth Judge was away on
a planned two-week long vacation (from January 4,
2016 through and including Monday, January 18,
2016). (Von Borries Decl. ¶ 49).
The Ninth Judge of the Civil and Commercial Court,
Fabiano Cristiam Chui Torrez, was assigned to monitor the Eighth Judge’s docket while she was away. On

64a
Monday, January 11, 2016, the next business day after
the Guarantee Court remitted the case to the Eighth
Civil and Commercial Court, Respondents moved the
Ninth Judge, who was covering, for a decision on its
request for annulment. (Id. ¶¶ 49-50). The next day,
CIMSA filed a petition to disqualify the Ninth Judge.
On January 15, 2016, the Ninth Judge dismissed
CIMSA’s petition for disqualification, and his decision
to reject the motion to disqualify was transferred to
the Second Civil Chamber of the Departmental Court
of Justice of La Paz for review. (Asbun Report ¶ 41).
On January 18, 2016, while the disqualification
matter was still pending before the Second Civil
Chamber, the Ninth Judge granted Respondents’
request for annulment of the Merits Award.3 (“Ninth
Judge Decision,” No. 13/2016, ECF No. 65-12). The
Ninth Judge issued his decision just one week after
receiving the case file, which he acknowledged was
sent for ruling on January 12, 2016 (see id. at 4), and
one day before the Eighth Judge was due to resume
duties.
CIMSA filed an amparo against the Ninth Judge on
February 6, 2016, alleging, inter alia, that the Ninth
Judge Decision violated CIMSA’s due process rights.
(Von Borries Decl. ¶59). On February 22, 2016, a
Guarantee Court granted CIMSA’s amparo, overturned the Ninth Judge Decision, and remanded the
case to the Eighth Judge. (Id. ¶¶ 60-61). Consistent
with the standard procedure, the Guarantee Court’s

3

The Second Civil Chamber ultimately rejected CIMSA’s
motion to recuse on February 23, 2016, more than a month after
the Ninth Judge had already issued his decision on Respondents’
request for annulment. (See Second Civil Chamber Resolution
No. R-58116, ECF No. 65-10).

65a
resolution granting CIMSA’s amparo was simultaneously sent to the PCT for mandatory review. (Id.)
While the CIMSA amparo against the Ninth Judge
was pending PCT review, the PCT issued a decision on
Respondents’ amparo against the Eighth Judge. On
March 16, 2016, the PCT issued a final decision, No.
0337/2016, that revoked Guarantee Court Resolution
No. 77/2015 and rejected the Respondents’ amparo
against the Eighth Judge. (“PCT Revocation Order,”
ECF No. 65-14). Specifically, the PCT decided “TO
REVOKE [Guarantee Court Resolution No. 77/2015
dated] October 28, and, accordingly, TO DENY the
protection sought” by Respondents in their amparo.4
(Id. p. 18). CIMSA maintains that this decision, from
the highest constitutional court in Bolivia, reinstated
the Eighth Judge Decision and made it legally valid
and binding.
CIMSA withdrew its amparo against the Ninth
Judge Decision after learning of the PCT Revocation
Order. (Von Borries Decl. ¶ 65). According to CIMSA,
it withdrew its amparo in September 2016 because it
understood the PCT Revocation Order to nullify the
Ninth Judge’s jurisdiction and eliminate any need for
constitutional relief. (Id.)
On November 21, 2016, after CIMSA withdrew its
amparo, the parties were notified of PCT Procedural
Order No. 581/2016, dated May 23, 2016. (“PCT Procedural Order,” ECF No. 65-16). The PCT Procedural
Order revoked Guarantee Court Resolution No.
04/2016, which had granted CIMSA’s amparo against
4

As the PCT acknowledged, Respondents’ amparo action
sought an order setting aside the Eighth Judge Decision and
ordering the judge a quo to issue a new decision. (See PCT
Revocation Order No. 0337/2016 ¶ I.1.3, p. 3).

66a
the Ninth Judge. The PCT concluded that it could
not “review the work of interpretation . . . of other
courts . . . except when it is explained why the
interpretive work is arbitrary, and the causal
connection is established.” (Id. p. 10). Because CIMSA
had not claimed a violation of the principle of legality
or established its causal connection with the right to
due process, the PCT ruled that it could not review the
merits of the Ninth Judge Decision and that the
Guarantee Court “did not carry out an adequate
verification of the background information” when it
addressed the merits and granted the amparo. (Id. pp.
10-11). The PCT emphasized that it did not examine
the merits of the case and that CIMSA was entitled to
refile its amparo action against the Ninth Judge. (Id.;
see also Von Borries Decl. ¶ 67). CIMSA asserts that it
did not refile its amparo because, having already tried
to withdraw its original amparo in light of the PCT
Revocation Order, it had no reason to seek relief from
the Ninth Judge Decision, which it deemed to be
invalid. (Von Borries Decl. ¶ 67).
On November 24, 2016, Respondents filed an ex
parte request to the PCT seeking clarification of the
PCT Procedural Order. PCT Clarification Order No.
004/2017, dated January 27, 2017, stated that because
the PCT Procedural Order did not reach the merits of
the CIMSA amparo, and therefore did not address the
validity or invalidity of the Ninth Judge Decision,
the Ninth Judge Decision “remains in effect,” or
“subsists,”5 in relation to the Procedural Order. (“PCT
5

The parties dispute the appropriate translation and meaning
of this statement. Respondents contend that it unambiguously
upholds the Ninth Judge Decision and declares that it remains in
effect. CIMSA, however, argues that “remains in effect” should be
more accurately understood to mean “subsists.” “In other words,”

67a
Clarification Order,” ECF No. 65-20). Notably,
although Respondents had asked the PCT to expressly
state that the Ninth Judge Decision was not modified
by the effects of the PCT Revocation Order, the PCT
Clarification Order included no such declaration. It
did not speak to the substantive validity of the Ninth
Judge Decision in light of the PCT’s revocation of the
Guarantee Court resolution from which the Ninth
Judge Decision originated.
In August 2016, Respondents requested clarification
and amendment of the PCT Revocation Order from
the president of the PCT, Juan Oswaldo Valencia
Alvarado. The president of the PCT then issued a
“decree” effectively stating that although the Guarantee Court’s resolution is no longer valid (because the
PCT Revocation Order revoked it), the legal acts
arising out of it—that is, the Ninth Judge Decision—
remain effective. (“President’s Decree,” ECF No. 6518; see also Asbun Report ¶ 76). The validity of the
President’s Decree is discussed below, but the circumstances surrounding the decree and the PCT Clarification Order should be mentioned here. The PCT
president authored both the President’s Decree and
the Clarification Order (acting in his role as a judge).
And while the decree is dated November 25, 2016, and
the Clarification Order dated January 27, 2017, the
documents were not placed in the case file until
December 29, 2017—the last day of Juan Oswaldo
Valencia Alvarado’s term as PCT president. (See

CIMSA argues, “because the PCT Procedural Order did not
evaluate the validity of the Ninth Judge Decision, the PCT
Procedural Order could not revoke the Ninth Judge Decision.”
(Pet’r Reply at 49, ECF No. 73).

68a
Asbun Report ¶¶ 74, 76, 83, 84, 91, & 92; Von Borries
Decl. ¶¶ 72, 73, 76, & 78).
Bolivian Proceedings Regarding the Damages Award
In July 2015, two months after the Arbitral Tribunal
issued the Damages Award, Respondents filed a
request to annul it. The request for annulment was
assigned to the Twelfth Judge of the Civil and Commercial Court, Karina Erika Valdez Cuba. In a decision dated October 9, 2015, the Twelfth Judge granted
Respondents’ request and annulled the Damages
Award. (Twelfth Judge Decision No. 154/2015, ECF
No. 65-36). The Twelfth Judge accepted two out of five
proposed grounds for annulment, concluding that the
Arbitral Tribunal had breached Respondents’ right to
a defense and right to due process by (1) relying on an
exhibit that had been accepted into evidence during
the Merits Phase, but that was not presented or
recognized to be evidence under consideration during
the Damages Phase; and (2) relying on its own
“experience” in valuing CIMSA’s damages. (See id. pp.
15-20; Rivera Decl. ¶ 54; Von Borries Decl. ¶ 90). The
Twelfth Judge ordered the arbitration panel to issue a
new award consistent with her ruling. (Twelfth Judge
Decision No. 154/2015 p. 23).
CIMSA then sought an amparo from the PCT,
“arguing that the Twelfth Judge had violated its due
process rights by improperly acting as a court of
appeal and reopening the evidentiary phase of the
arbitration.” (Von Borries Decl. ¶ 92). A Guarantee
Court rejected CIMSA’s amparo, but upon final review
the PCT revoked the Guarantee Court’s decision and
vacated the Twelfth Judge’s annulment order. (PCT
Judgment 1481/2016-S3, issued Dec. 16, 2016, ECF
No. 65-38). The PCT ordered the Twelfth Judge to

69a
issue a new decision on the request to annul the
Damages Award consistent with its order. (Id.).
On April 19, 2017, while the damages annulment
proceedings were pending before the Twelfth Judge,
Respondents commenced a collateral action challenging the applicable arbitration law. (Von Borries Reply
Decl. ¶ 42, ECF No. 71). The Twelfth Judge suspended
her consideration of Respondents’ request to annul the
Damages Award while the PCT considered the unconstitutionality action. (Id.). In March 2018, the PCT
rejected Respondents’ constitutional challenge to the
arbitration law and sent the case file back to the
Twelfth Judge to issue a new decision on the request
for annulment of the Damages Award. (See id. ¶¶ 4344; Rivera Reply Decl. ¶ 45, ECF No. 76).
On July 27, 2018, while the Twelfth Judge was
considering the request to annul the Damages Award
on remand, Respondents filed a petition asserting that
the Twelfth Judge lacked jurisdiction to rule on the
Damages Award because it was effectively nullified by
the alleged annulment of the Merits Award. (Oral
Argument Tr. at 32:8-18; 35:9-16, ECF No. 92). The
Twelfth Judge must rule on Respondents’ July 2018
petition before deciding the request for annulment of
the Damages Award. (Id. at 32:25-33:5).
The Twelfth Judge may decide that she is not
qualified to rule on whether the Merits Award was
actually annulled, in which case it is unclear whether
she would then issue a decision on the Damages
Award notwithstanding Respondents’ July 2018
petition. (See id. at 83:18-21). If she rejects Respondents’ July 2018 petition and decides that she does have
jurisdiction to consider the Damages Award (because
it was not nullified by the alleged annulment of the
Merits Award), she will have approximately 30 days to

70a
issue a decision on the request for annulment of the
Damages Award, consistent with the PCT Damages
Order that remanded the case. (See id. at 37:3-8).
Regardless of how the Twelfth Judge rules on
Respondents’ July 2018 petition or the request for
annulment of the Damages Award, the losing party
will likely seek an amparo. (See id. at 83:21-84:3).
II. LEGAL STANDARD
CIMSA brings this action to confirm a foreign
arbitral award pursuant to the Convention on the
Recognition and Enforcement of Foreign Arbitral
Awards of June 10, 1958 (the “New York Convention”),
codified at 9 U.S.C. § 201 et seq. When a party to a
foreign arbitration moves to confirm an award under
the New York Convention, the district court must
“confirm the award unless it finds one of the grounds
for refusal or deferral of recognition or enforcement of
the award specified in the . . . Convention.” 9 U.S.C.
§ 207. The seven exclusive grounds upon which courts
may refuse to confirm an award are specified in Article
V of the New York Convention.6 “Courts construe these
6

Article V of the New York Convention in full provides:
1. Recognition and enforcement of the award may be
refused, at the request of the party against whom it is
invoked, only if that party furnishes to the competent
authority where the recognition and enforcement is
sought, proof that:
(a) The parties to the agreement . . . were, under the
law applicable to them, under some incapacity, or the
said agreement is not valid under the law to which the
parties have subjected it or, failing any indication
thereon, under the law of the country where the award
was made; or
(b) The party against whom the award is invoked was
not given proper notice of the appointment of the

71a
defenses narrowly, to encourage the recognition and
enforcement of commercial arbitration agreements
in international contracts.” CEEG (Shanghai) Solar
Science & Technology Co., Ltd v. LUMOS LLC, 829
F.3d 1201, 1206 (10th Cir. 2016) (internal quotations
omitted). The party opposing enforcement of the
arbitral award has the burden of proving that one of
arbitrator or of the arbitration proceedings or was
otherwise unable to present his case; or
(c) The award deals with a difference not contemplated by or not falling within the terms of the submission to arbitration, or it contains decisions on matters
beyond the scope of the submission to arbitration,
provided that, if the decisions on matters submitted to
arbitration can be separated from those not so submitted, that part of the award which contains decisions on
matters submitted to arbitration may be recognized
and enforced; or
(d) The composition of the arbitral authority or the
arbitral procedure was not in accordance with the
agreement of the parties, or, failing such agreement,
was not in accordance with the law of the country
where the arbitration took place; or
(e) The award has not yet become binding on the
parties, or has been set aside or suspended by a
competent authority of the country in which, or under
the law of which, that award was made.
2. Recognition and enforcement of an arbitral award
may also be refused if the competent authority in the
country where recognition and enforcement is sought
finds that:
(a) The subject matter of the difference is not capable
of settlement by arbitration under the law of that
country; or
(b) The recognition or enforcement of the award would
be contrary to the public policy of that country.
New York Convention art. V(1)-(2).

72a
the defenses applies. Id. “[This] burden is a heavy one,
as the showing required to avoid summary confirmance is high.” Encyclopaedia Universalis S.A. v.
Encyclopaedia Britannica, Inc., 403 F.3d 85, 90 (2d
Cir. 2005) (internal quotations omitted).
As relevant here, Article V(1)(e) provides that a
court may refuse to enforce an arbitral award if “[t]he
award has not yet become binding on the parties, or
has been set aside or suspended by a competent
authority of the country in which, or under the law of
which, that award was made.” New York Convention
art. V(1)(e). While deference must generally be
afforded to the decision of a competent authority in the
primary jurisdiction, there is a narrow exception to
this rule when “the foreign judgment setting aside the
award is ‘repugnant to fundamental notions of what is
decent and just in the State where enforcement is
sought’ . . . or violated ‘basic notions of justice.’” ThaiLao Lignite Co., Ltd. v. Gov’t of the Lao People’s
Democratic Republic, 997 F.Supp.2d 214, 223
(S.D.N.Y. 2014), aff’d 864 F.3d 172 (2nd Cir. 2017)
(quoting TermoRio S.A. E.S.P. v. Electranta S.P., 487
F.3d 928, 938 (D.C. Cir. 2007)).
III. ANALYSIS
CIMSA contends that Respondents cannot establish
a defense to confirmation with respect to the Merits
Award because it was not effectively annulled in
Bolivia. (See Pet’r Reply at 41-59, ECF No. 73). They
further argue that even if the Ninth Judge Decision
could be understood to annul the Merits Award, it was
so “tainted with judicial misconduct [that it] should
not be recognized.” (Pet’r Reply at 50). Meanwhile,
Respondents assert that the Merits Award has been
lawfully set aside by a competent authority in Bolivia,
and they argue that the judicial corruption alleged by

73a
CIMSA does not “warrant ignoring the decisions of the
courts of the primary jurisdiction.” (Resp. at 41, ECF
No. 61).
With respect to the Damages Award, CIMSA
contends that Respondents have no defense to confirmation because the Damages Award has not been set
aside in Bolivia and is binding under the New York
Convention. (Pet’r Reply at 36-38). Respondents do not
dispute that the Damages Award has not yet been
aside, but they argue that the Damages Award is not
binding under Bolivian law. Respondents argue that if
I will not dismiss CIMSA’s Petition, I should exercise
my discretion under Article VI of the New York
Convention to stay the case pending resolution of their
request to annul the Damages Award in Bolivia.
(Resp. at 59-60).
A. Whether the Merits Award Has Been Set
Aside
The Impact of the PCT Revocation Order on the Ninth
Judge Decision
The status of the Merits Award depends on the legal
validity and current effect of the Ninth Judge Decision, which the parties debate. CIMSA has presented
a strong case that the PCT Revocation Order (which
upheld the Eighth Judge Decision and rejected
Respondents’ amparo) rendered the Ninth Judge
Decision null and void. The origin of the Ninth Judge
Decision—the Guarantee Court’s remand order—was
ultimately revoked by the PCT. As Dr. Jorge Asbun,
an expert on Bolivian constitutional law, explains,
“the default rule, as mandated by the Constitution and
the Constitutional Procedural Code, is that when a
Guarantee Court resolution is revoked, both the
resolution itself as well as any acts based upon it are

74a
rendered without effect.” (Asbun Reply ¶ 29, ECF No.
69-2). Indeed, it would be illogical for actions arising
out of a Guarantee Court’s resolution to remain
binding if the PCT ultimately overturns the resolution. (See Asbun Report ¶¶ 47-51, ECF No. 49-1). This
would render the PCT’s review meaningless. (Id. ¶ 50).
Accordingly, the Ninth Judge Decision “would only
operate to override the Eighth Judge Decision if the
PCT had affirmed the Guarantee Court’s” remand
order. (Id. ¶ 54). Because the PCT Revocation Order
revoked the legal basis for the Ninth Judge Decision,
the Ninth Judge Decision cannot be reasonably
understood to supersede the Eighth Judge Decision.
(See id.)
7

The expert report of Mr. Andaluz, submitted by
Respondents, does not convincingly refute this. Mr.
Andaluz states that the PCT Revocation Order could
not revoke the Ninth Judge Decision because Respondents’ amparo was against the Eighth Judge, not the
Ninth Judge. (Andaluz Report ¶ 75.2, p. 64, ECF No.
64-2). This argument completely ignores the context in
which the Ninth Judge Decision arose.8 Far more
compelling is Dr. Asbun’s conclusion that because the
“Ninth Judge Decision arose in the proceedings on
[Respondents’] amparo . . . the final decision in those
7

Dr. Asbun cites to PCT precedent supporting this rule. For
example, the PCT has recognized that “the obvious consequence
of the revocation of the decision granting the amparo, is that
things return to their previous state, or as they were before the
amparo decision from the Guarantee Judge or amparo was
complied with.” (Asbun Reply ¶ 19, ECF No. 69-2) (citing SCP
98/2004-R, issued Jan. 21, 2004).
8

While I do not take issue with Mr. Andaluz’s qualifications
or his general credibility as an expert on arbitration, his reports
include opinions on Bolivian law that are often vague, noncommittal, and unpersuasive.

75a
proceedings, [the PCT Revocation Order,] bears
directly on its validity.” (Asbun Reply p. 2).
Respondents have likewise failed to establish their
alternative argument—that the PCT Revocation
Order could only render the Ninth Judge Decision
invalid if it expressly stated that it did so. (See Resp.
at 43). Dr. Asbun asserts that, contrary to Respondents’ contention, Bolivian law recognizes the basic
principle that the PCT’s revocation of a Guarantee
Court resolution also revokes any decisions emanating
from it. (Asbun Reply ¶ 18). Because this is the default
rule, established in Articles 129.IV and 202.6 of the
Political Constitution of the State and Articles 38 et
seq. of the Constitutional Procedural Code, the PCT
need not make an express pronouncement of the effect
of its revocation order unless it intends to make an
exception and deviate from the default rule. (Id.). Mr.
Andaluz does not dispute that this is a default basic
principle in Bolivian law. He merely states that “[i]f
the [PCT Revocation Order] would have revoked the
[Ninth Judge Decision], it would have said so, because
the [Revocation Order] is dated March 16, 2016, two
months after the [Ninth Judge Decision] was issued
(January 18, 2016).” (Andaluz Report ¶ 75.1). This is
unconvincing.
The Effect of the PCT Procedural Order
Respondents point to the PCT Procedural Order as
evidence of the validity of the Ninth Judge Decision.
They claim that the only way for CIMSA to nullify the
Ninth Judge Decision was to have it revoked through
an amparo. (See Resp’t Reply at 46, ECF No. 78).
According to Respondents, the PCT Procedural
Order, which dismissed CIMSA’s amparo against the
Ninth Judge, “affirmed the [Ninth Judge Decision’s]
continued vitality.” (Id.). But, as CIMSA is quick to

76a
point out, Respondents’ characterization of the PCT
Procedural Order and focus on the outcome of
CIMSA’s amparo “is misplaced.” (Pet’r Reply at 47).
CIMSA argues that the outcome of its amparo against
the Ninth Judge no longer mattered once the PCT
Revocation Order rendered the Ninth Judge Decision
a nullity, hence why CIMSA withdrew its amparo
after learning of the PCT Revocation Order. (Id.).
In asserting that the PCT Procedural Order gave
substantive validity to the Ninth Judge Decision,
Respondents ask the Court to view the Ninth Judge
Decision in a vacuum and ignore the significance of the
PCT Revocation Order. Dr. Asbun explains that “the
judges of the PCT are only authorized to decide the
specific questions presented within the particular
constitutional action before them.” (Asbun Reply ¶ 26).
Therefore, the PCT Procedural Order only decided the
procedural validity of the Ninth Judge Decision for
purposes of the proceedings relating to CIMSA’s
amparo, and it could not have decided the substantive
validity of the Ninth Judge Decision in relation to the
PCT Revocation Order. (Id.).
The Effect of the PCT Clarification Order
Respondents rely on the statement in the PCT
Clarification Order that the Ninth Judge Decision
“subsists.” (See Resp’t Reply at 47). However, as
CIMSA emphasizes, the PCT Clarification Order did
not provide the substantive declaration Respondents
sought: a declaration that the Ninth Judge Decision
was valid and in effect notwithstanding the PCT Revocation Order. (See Pet’r Reply at 43; PCT Clarification
Order No. 004/2017). Dr. Asbun explains that the term
“subsistence,” when understood in the context of that
particular proceeding, must relate to the impact of the
PCT Procedural Order on the Ninth Judge Decision,

77a
not the validity of the Ninth Judge Decision writ large.
(See Asbun Reply ¶¶ 30-31). I find compelling Dr.
Asbun’s statement that “clarificatory decisions, such
as the PCT Clarification Order, may only refer to the
particular decision they purport to clarify and cannot
address decisions issued in different proceedings.” (Id.
¶ 35). Thus, the PCT Clarification Order served a
limited purpose and could not have given substantive
validity to the Ninth Judge Decision after it had been
rendered a nullity by the PCT Revocation Order.
The Effect of the President’s Decree
Without providing any basis for accepting the
purported legality of the President’s Decree, Respondents argue that it “confirms [the Ninth Judge
Decision’s] continued validity.” (Resp. at 44). The circumstances surrounding the President’s Decree,
described in the Background section above, are
unusual to say the least. However, I need not dissect
these troubling circumstances or give the President’s
Decree more attention than it warrants. The expert
reports make clear that the President of the PCT has
no legal authority to unilaterally issue such a decree.
Bolivian law authorizes the PCT to issue only three
types of decisions (“decrees” are not among them),
which must be issued by the full PCT or a duly
constituted chamber of the PCT. (Asbun Report ¶¶ 7880). The PCT President issued the decree on his own,
not collectively as part of a PCT chamber, and the
document includes no official PCT docket number or
recognized decision type. (Id. ¶¶ 81-82). Notably, Mr.
Andaluz dances around the legality of the President’s
Decree, never directly attesting to its validity.
(Andaluz Report ¶ 75.7). Instead, he hedges that if the
President’s Decree lacks validity, CIMSA should have
challenged it. (See id.). I agree with CIMSA that the

78a
President’s Decree has no legal value and no bearing
on the alleged validity of the Ninth Judge Decision.
Therefore, I find that the Merits Award has not been
set aside by a competent authority in Bolivia. The
Eighth Judge Decision denied Respondents’ request to
annul the Merits Award, and that decision was
ultimately confirmed by the PCT. Neither the Ninth
Judge Decision nor the procedural and technical PCT
orders undermine that result. Because Respondents
have not demonstrated that the Merits Award has
been set aside by a competent authority in Bolivia, I
need not address CIMSA’s alternative argument that
I should not recognize the Ninth Judge Decision even
if it did effectively annul the Merits Award.9
B. Whether the Damages Award is Binding
A court may refuse to enforce an arbitral award
under the New York Convention if the award “has not
yet become binding on the parties.” New York Convention art. V(1)(e). As I concluded above, Respondents
had no further recourse with respect to the Arbitral
Tribunal’s liability finding once the Eighth Judge
Decision rejected their request to annul the Merits
Award.10 Thus, the Merits Award is binding and has
9

I note that even if the effect of the PCT Revocation Order on
the Ninth Judge Decision were in doubt, I would question the
legitimacy of the Ninth Judge Decision given the evidence of
potential misconduct. For instance, I cannot fathom how he could
have reviewed the 30,000 page record, analyzed the parties’
arguments, and written a thoughtful and well-reasoned decision
in one week. (See Von Borries Decl. ¶ 54). Had his decision
somehow survived the PCT Revocation Order, it would, for many
reasons, remain suspect.
10

Under both the Old Arbitration Law and the New
Arbitration Law, the only way to challenge an arbitral award in
Bolivia is to request that the court annul the award, and the

79a
the effect of res judicata.11 The binding nature of the
Damages Award, however, is more difficult to
determine.
Respondents contend that as long as their request to
annul the Damages Award is pending in Bolivian
court, the award is not final and binding under
Bolivian law. (Resp. at 60). First, they argue that in
Bolivia, a “writ of execution is required to prove the
validity of the arbitration award.” (Oral Argument Tr.
at 33:11-13). Yet reputable sources indicate that the
New Arbitration Law, which applies to the challenge
against the Damages Award, only requires a writ of
execution to prove enforceability in the case of foreign
arbitral awards. See Gutierrez & Zelada, supra note 2
(explaining that Article 122 of the New Arbitration
Law lists the grounds for refusing to recognize and
enforce a foreign arbitral award, including the absence
of enforceability due to the lack of a writ of execution).
Supporting this conclusion is the fact that the lack of
a writ of execution is not one of the exclusive grounds
for annulling an arbitration award made in Bolivia
pursuant to Article 112 of the New Arbitration Law.
(See PCT Judgment 1481/2016-S3 § III.3, p. 16, ECF
No.65-38).

court’s resolution of this request is not appealable. See supra
note 2.
11

Article 60 of the Old Arbitration Law, which applies to the
Merits Award, states: “The award shall have the effect of a
judicial judgment with the normative authority of res judicata
and its binding effect shall be obligatory and inexcusable from
the time that notices served on the parties accompanied by
a resolution that would so state its binding and res judicata
effect.” THE FORDHAM PAPERS 2011, CONTEMPORARY ISSUES IN
INTERNATIONAL ARBITRATION AND MEDIATION 149 (Arthur W.
Rovine, ed., Martinus Nijhoff Publishers 2012).

80a
Respondents’ next argument is that under Bolivian
arbitration law, an arbitral award is only enforceable
once a Bolivian court has ruled on (and denied) a
request for annulment. (See Resp’t Reply at 62).
However, the expert report of Mr. Andaluz on which
Respondents rely only states that under the Old
Arbitration Law, an award must be expressly declared
enforceable by a court following the resolution of a
request for annulment made against it. (Andaluz
Report ¶ 78).12 Because Respondents have not provided the full text in Spanish or in English of either
the Old or the New Arbitration Law, I am left in the
dark as to whether Mr. Andaluz’s characterization of
these provisions is accurate and whether they also
appear in the New Arbitration Law. But even assuming they do, these provisions would only dictate what
a party must do to enforce an award in Bolivia—they
do not speak to the finality or binding nature of an
award in any context beyond enforcing an award
domestically. And here, although the parties agreed
that Bolivian law would apply to the arbitration
proceedings, CIMSA is not seeking recognition or
enforcement of the award in Bolivia. CIMSA moves to
enforce the award in the U.S. pursuant to the New
York Convention, and under the New York Convention, the existence of ongoing judicial proceedings in
Bolivia is not a defense to enforcement.13
12

Paragraph 78 of the Andaluz Report states, “As it is known,
for an award to be final, the motion for annulment against it (1)
must have been accepted or declared inadmissible (Article 60.I of
Law 1770); and, (2) it must have been declared enforceable by an
express resolution in that sense (Article 60.II).”
13

The New York Convention distinguishes between a challenge that successfully set aside the award and a challenge that
is merely pending. Compare New York Convention Article V(1)(e)
(providing that a court may refuse to enforce an arbitral award if

81a
The New York Convention does not define “binding
on the parties,” but it would be contrary to the
Convention’s intent to conclude that “binding” means
the award must be enforceable in the country where
the arbitration took place. One of the main goals of the
New York Convention “was to facilitate the enforcement of arbitration awards by enabling parties to
enforce them in third countries without first having to
obtain either confirmation of such awards or leave to
enforce them from a court in the country of the arbitral
situs.” Certain Underwriters at Lloyd’s London v.
Argonaut Ins. Co., 500 F.3d 571, 576 n. 4 (7th Cir.
2007) (quoting Karaha Bodas Co. v. Perusahaan
Pertambangan Minyak Dan Gas Bumi Negara, 335
F.3d 357, 366-67 (5th Cir. 2003)). To that end, the
New York Convention purposefully “eradicate[ed] the
requirement that a court in the rendering state
recognize an award before it could be taken and
enforced abroad.” Yusuf Ahmed Alghanim & Sons v.
Toys “R” Us, Inc., 126 F.3d 15, 22 (2nd Cir. 1997).
Furthermore, U.S. courts have held that “[a]n arbitration award becomes binding when ‘no further
recourse may be had to another arbitral tribunal (that
is, an appeals tribunal).’” Ministry of Def. & Support v.
Cubic Def. Sys., 665 F. 3d 1091, 1100 (9th Cir. 2011)
(quoting Fertilizer Corp. of India v. IDI Mgmt., Inc.,
517 F. Supp. 948, 958 (S.D. Ohio 1981)). In Cubic
“[t]he award has not yet become binding on the parties, or has
been set aside or suspended by a competent authority of the
country in which, or under the law of which, that award was
made”), with New York Convention Article VI (providing that if
an application to set aside the award has been made to a
competent authority in the country in which the award was
made, the court “may, if it considers it proper, adjourn the
decision on the enforcement of the award” pending the resolution
of the foreign proceedings).

82a
Defense Systems, the Ninth Circuit concluded that the
award had become binding because all arbitration
appeals had been exhausted, even though the defendant argued that “the award had not yet been
confirmed.” 665 F. 3d 1091, 1101 n. 6.14 The Second
Circuit has similarly concluded that “the confirmation
of an arbitration award is a summary proceeding that
merely makes what is already a final arbitration
award a judgment of the court,” and thus an “award
need not actually be confirmed by a court to be valid.”
Florasynth, Inc. v. Pickholz, 750 F.2d 171, 176 (2d Cir.
1984) (internal citation omitted).
Respondents cite a 1989 case from the Southern
District of New York for the proposition that “a determination that the award is final and binding [is made]
according to the law of the country where the award
was rendered.” Dworkin-Cossell Interair Courier Servs.,
Inc. v. Avraham, 728 F. Supp. 156, 161 (S.D.N.Y.
1989). (Resp’t Reply at 62). But Dworkin dealt with
ambiguity in the arbitration award itself, which compelled the court to remand the award to the arbitration
panel for clarification. 728 F. Supp. at 161-62.
Dworkin cites Fertilizer Corporation, in which the
court considered Indian law as part of the “final and
binding” inquiry because the Indian Arbitration Act
provided that all arbitration awards shall be final and
binding unless the parties’ arbitration agreement
expressed a different intention. Fertilizer Corp., 517 F.
Supp. at 956. The Fertilizer Corporation court therefore took into account Indian law, the parties’ agree14

See also Boeing Co. v. KB Yuzhnoye, 2013 WL 12131183, at
*6 (C.D. Cal. Dec. 18, 2013) (concluding that because all arbitral
appeals had been exhausted, and the award was being reviewed
by a court, not an arbitrator, the award had become binding and
Article V(1)(e) did not apply).

83a
ment, and the rules the parties agreed to govern the
arbitration, before ultimately holding that the arbitral
award was final and binding for purposes of the New
York Convention notwithstanding the fact that an
Indian court was reviewing the award. Id. at 956-57.15
Moreover, another district court examining Fertilizer
Corporation found that “[n]othing in Fertilizer
Corporation indicates the law of the arbitral situs is
generally biding on the issue of whether the award is
‘binding’ under the New York Convention.” Aperture
Software GmbH v. Avocent Huntsville Corp., 2015 WL
12838967, at *2–3 (N.D. Ala. Jan. 5, 2015)
(unpublished).
The D.C. Circuit recently recognized that “[w]hen
the ‘binding’ status of an award is in doubt under
Article V(1)(e) of the New York Convention, the court
may look to the law of the rendering jurisdiction . . .
particularly when the [parties’] agreement incorporates local arbitral law . . . .” Diag Human S.E. v. Czech
Republic - Ministry of Health, 907 F.3d 606, 611 (D.C.
Cir. 2018). But there, the parties expressly agreed to a
review process authorized under Czech arbitration
law “in which a second arbitral panel can revisit the
original award with the power to uphold, nullify, or
15

In supporting its holding, the Fertilizer Corporation court
noted a particularly instructive comment from the General
Counsel of the American Arbitration Association: “The fact that
recourse may be had to a court of law does not prevent the award
from being ‘binding.’ This provision should make it more difficult
for an obstructive loser to postpone or prevent enforcement by
bringing, or threatening to bring, proceedings to have an award
set aside or suspended.” Id. at 958 (quoting G. Aksen, American
Arbitration Accession Arrives in the Age of Aquarius: United
States Implements United Nations Convention on the Recognition
and Enforcement of Foreign Arbitral Awards, 3 Sw.U.L.Rev. 1, 11
(1971)).

84a
modify it.” Id. at 608 (emphasis added). Thus, in that
case, the powers of the review arbitration panel and
the effects of its actions “hinge[d] on Czech law.” Id. at
611. Here, the parties’ agreement and the applicable
IACAC Rules provided that the decisions of the
Arbitral Tribunal would be final and binding.
The parties’ 2005 Agreement states: “Any awards or
orders issued by the Arbitral Tribunal shall be final
and binding on the Parties to the Arbitration, who
hereby expressly waive all motions to vacate, defenses
and appeals against said award. The arbitral award
may be enforced in any court having competent jurisdiction over same or over the Parties to the Arbitration
or their assets.” (2005 Agreement, cl. 29.2). The
IACAC Rules to which the parties submitted similarly
provide: “The award shall be made in writing and shall
be final and binding on the parties and subject to no
appeal. The parties undertake to carry out the award
without delay.” IACAC Rules art. 29.2. Furthermore,
the Arbitral Tribunal itself certified that the Merits
Award “definitively rules on [l]iability” (Merits Award
p. 159), and that the Damages Award “represents the
definitive decision on damages.” (Damages Award p.
90). Thus, the terms of the parties’ 2005 Agreement
and the IACAC Rules incorporated therein contradict
Respondents’ characterization of the award as nonbinding. See Int’l Trading & Indus. Inv. Co. v.
DynCorp Aero. Tech., 763 F. Supp. 2d 12, 22 (D.D.C.
2011) (concluding that “the terms of the Agreement
belie any suggestion that the Award issued by the
arbitrator was non-binding”).
Therefore, I find that even if a Bolivian court would
not enforce the award at this juncture, it is binding
under the New York Convention because the
arbitration has concluded, a final award has been

85a
issued, and there are no further proceedings within
the arbitral process.
C. Whether a Stay is Appropriate
Respondents argue that if the Court does not
dismiss CIMSA’s petition, it should nevertheless
exercise its discretion under Article VI of the New
York Convention to stay the case pending a decision
by the Twelfth Judge on Respondents’ request to
annul the Damages Award. “If an application for the
setting aside or suspension of the award has been
made to a competent authority [of the country in
which, or under the law of which, that award was
made],” the court in which enforcement is sought
“may, if it considers it proper,” stay enforcement
proceedings under the New York Convention. New
York Convention, art. VI.
There is an inherent tension between the goals of
the New York Convention and granting a stay. “[A]
district court should not automatically stay enforcement proceedings on the ground that parallel proceedings are pending in the originating country.”
InterDigital Comms., Inc. v. Huawei Invest. & Holding
Co., 166 F. Supp. 3d 463, 470 (S.D.N.Y. 2016)
(quotation omitted).
On the other hand, “where there is a parallel
annulment proceeding in the originating country and
there is a possibility the award will be set aside, a
district court may be acting improvidently by
enforcing the award prior to the completion of the
foreign proceedings.” Europcar Italia, S.p.A. v.
Maiellano Tours, Inc., 156 F.3d 310, 317 (1998). In
Europcar, the Second Circuit articulated six nonexclusive factors to consider in determining whether a

86a
stay is warranted. 156 F.3d at 317-18. These factors
are:
(1) the general objectives of arbitration—the
expeditious resolution of disputes and the
avoidance of protracted and expensive
litigation;
(2) the status of the foreign proceedings and
the estimated time for those proceedings to be
resolved;
(3) whether the award sought to be enforced
will receive greater scrutiny in the foreign
proceedings under a less deferential standard
of review;
(4) the characteristics of the foreign proceedings including (i) whether they were brought
to enforce an award . . . or to set the award
aside . . .; (ii) whether they were initiated
before the underlying enforcement proceeding so as to raise concerns of international
comity; (iii) whether they were initiated by
the party now seeking to enforce the award in
federal court; and (iv) whether they were
initiated under circumstances indicating an
intent to hinder or delay resolution of the
dispute;
(5) a balance of the possible hardships to
each of the parties . . .; and
(6) any other circumstances that could tend
to shift the balance in favor of or against
adjournment . . . .
Europcar, 156 F.3d at 317-18.
Although the Tenth Circuit has not had occasion to
consider and apply the Europcar factors, a number of

87a
federal courts have embraced their use. See, e.g., Four
Seasons Hotels & Resorts, B.V. v. Consorcio Barr S.A.,
377 F.3d 1164, 1172 n.7 (11th Cir. 2004); Chevron
Corp. v. Republic of Ecuador, 949 F. Supp. 2d 57, 7172 (D.D.C. 2013). Therefore, I will address the Article
VI considerations under the Europcar framework,
beginning with the first and second factors, which,
“[b]ecause the primary goal of the Convention is to
facilitate the recognition and enforcement of arbitral
awards, . . . should weigh more heavily in the district
court’s determination.” Europcar, 156 F.3d at 318.
1. The General Objectives of Arbitration
While CIMSA contends that the general objectives
of arbitration are best served by confirming the award
rather than granting a stay, Respondents argue that
a stay is warranted because “[b]oth parties are
engaged in a battle in the Bolivian courts, as they
should be, given that they agreed to seek arbitration
in Bolivia . . . .” (Oral Argument Tr. at 42:4-6).
However, the primary goal of arbitration is to avoid
extensive and costly court battles. The parties have
been litigating in Bolivia for more than five years, and
those proceedings have been far from expeditious. If
history is any indication, the legal proceedings in
Bolivia will continue for an unpredictable amount of
time. Respondents concede that they “can’t provide an
exact time line for when the [D]amages [A]ward
proceedings are going to run their course.” (Id. at 42:810). And regardless of how the Twelfth Judge rules on
the request to annul the Damages Award, assuming
she decides she has jurisdiction to decide it, the losing
party will undoubtedly seek an amparo. (See id. at
83:21-84:1).
The rising expense is also troubling. The parties’
legal fees and expenses for the arbitration proceedings

88a
alone totaled over $3 million. (See Damages Award ¶¶
333, 336, p. 80). CIMSA then incurred $75,000 in legal
costs just for the initial litigation proceedings relating
to Respondents’ request to annul the Merits Award.
(See id. ¶¶ 210-11, p. 56). This amount was calculated
before the Eighth Judge Decision and the various
proceedings that followed, including the Guarantee
Court Resolution No. 77/2015, the Ninth Judge
Decision, and the PCT Revocation Order, so there is no
telling the amount of legal costs CIMSA ultimately
incurred in relation to litigation on the Merits Award.
Add to this CIMSA’s legal costs in litigating Respondents’ challenge to the Damages Award, Respondents’
legal costs for all the court proceedings in Bolivia, and
the parties’ legal costs in the present action, and the
overall litigation expenses could now be astronomical.
Given the amount of time that has passed since the
arbitration concluded and the increasing costs of
protracted litigation in more than one country, I find
the overarching goals of arbitration weigh in favor of
confirmation and against a stay.
2. The Status of the Foreign Proceedings
Respondents urge this Court to grant a stay in light
of the “significant issues of Bolivian law still to be
resolved by the Twelfth Judge.” (Oral Argument Tr. at
41:11-12). However, as noted above, Respondents
cannot confidently estimate when a final resolution
will occur. The fact that this dispute has been “stayed
for nearly three years in deference to the Bolivian
annulment proceedings,” (Resp. at 61), only points to
the protracted nature of the dispute and the likelihood
that one or both of the parties will pursue further legal
challenges in Bolivia.

89a
It is not clear whether the Twelfth Judge will find
she has jurisdiction to issue a decision on the request
to annul the Damages Award, and the implications of
her declining jurisdiction are unknown. What is
known is that, assuming the Twelfth Judge asserts
jurisdiction, she will then have 30 days to rule on the
request to annul the Damages Award. (Oral Argument
Tr. at 37:3-8).
But even then, the losing party would undoubtedly
pursue an amparo, and the litigation could go on and
on with anyone’s guess as to when there would be a
truly final resolution of the matter in the Bolivian
courts. (Id. at 83:18-84:4).
Because there is “no clear end” to the litigation
proceedings in Bolivia, this second factor weighs in
favor of confirmation and against a stay. See Hardy
Exploration & Prod. (India), Inc. v. Gov't of India,
Ministry of Petroleum & Nat. Gas, 314 F. Supp. 3d 95,
106 (D.D.C. 2018) (“[T]he fact that the underlying
arbitral award was rendered five years ago and the
fact that there is no clear end to the Indian set-aside
proceedings in sight counsels against granting [ ] a
stay.”), appeal filed, D.C. Cir. No. 18-7093; see also
Gold Reserve, Inc. v. Bolivarian Republic of Venezuela,
146 F. Supp. 3d 112, 135 (D.D.C. 2015) (“As no final
resolution appears imminent, the Court finds this
factor also weighs in favor of [the party seeking to
enforce the award].”).
3. Scrutiny of Award in Foreign Proceedings
This factor is intended to provide appropriate
“deference to proceedings in the originating country
that involve less deferential standards of review on the
premise that, under these circumstances, a foreign
court well-versed in its own law is better suited to

90a
determine the validity of the award.” Europcar, 156
F.3d at 317. While neither party has addressed in
detail the comparable level of scrutiny the award
will receive in the remaining Bolivian proceedings,
Respondents have presented nothing to indicate that
the level of scrutiny the Damages Award will receive
in the Bolivian proceedings tips the balance in favor of
a stay.
In Bolivia, the court reviewing a request for
annulment may set aside the arbitral award only on
limited grounds under the New Arbitration Law.16
These grounds, which do not appear to be much
broader than those under Article V of the New York
Convention, evince a conscious restriction on the available recourse against an arbitral award. As the PCT
has explained, the New Arbitration Law “recogniz[es]
the right to challenge the award[,] but in a strict
sense[,] for the purpose of correcting defects or
irregularities in arbitration decisions.” (PCT
Judgment 1481/2016-S3 § III.3, p.17).
The PCT has already vacated the Twelfth Judge’s
annulment decision and ordered the Twelfth Judge to
issue a new decision consistent with the PCT’s
December 2016 judgment. (See id. p. 32).17 While the
16

These include: (1) the matter is not subject to arbitration;
(2) the Arbitral Award Violates law and order; (3) one of the
parties’ right to a defense has been affected by the arbitration
proceeding; (4) the Arbitral Tribunal grossly overstepped its
authority in the Arbitral Award, in relation to a dispute that was
not foreseen in the arbitration agreement; and (5) the Arbitral
Tribunal was irregularly created. (See PCT Judgment 1481/2016S3 § III.3, p. 16).
17

On remand, the Twelfth Judge will revisit the bases on
which she annulled the Damages Award: that the Arbitral
Tribunal breached Respondents’ right to a defense and due
process by (1) considering evidence not presented during the

91a
parties debate the likely outcome of the Twelfth
Judge’s review of the annulment action on remand, it
will be difficult for the judge to reach the same result
without repeating the reversible errors identified by
the PCT. The PCT found that the Twelfth Judge
erroneously conflated and attempted to broaden the
scope of application of two different grounds for
annulment. (Id. § III.5.2, pp. 27-28). It further
concluded that the Twelfth Judge impermissibly overstepped her authority by revisiting the evidence to
reach a different interpretation than that reached by
the arbitrators. (Id. § III.5.2, p. 25). This suggests that
the review standard in Bolivia, even if more searching
than that under the New York Convention, may not
favor Respondents on remand. See Chevron Corp., 949
F. Supp. 2d at 72 (“[T]he fact that the Dutch District
Court has already denied the motion to set aside
suggests that to the extent the standard is any more
searching, it has not helped Ecuador in its attempt to
resist confirmation.”).
When it is not clear whether the award will receive
greater scrutiny in the foreign proceedings, “the
possibility that the [foreign court] will set aside the
award[ ] weighs mildly in favor of granting a stay.” In
re Arbitration of Certain Controversies between Getma
Int’l & Republic of Guinea, 142 F. Supp. 3d 110, 116
(D.D.C. 2015) (internal quotations omitted); see also
Venco Imtiaz Constr. Co. v. Symbion Power LLC, 2017
WL 2374349, at *7 (D.D.C. May 31, 2017) (concluding
that this factor weighs only mildly in favor of a stay
even when the standard of review in the foreign
proceedings is slightly less deferential and gives the
Damages Phase to decide a portion of the damages, and (2)
relying on its own experience in making its damages calculation.
(Von Borries Decl. ¶ 90; Rivera Decl. ¶ 54).

92a
foreign “court more leeway to not enforce the award”).
Thus, this factor can only marginally weigh in favor of
Respondents and does not tip the scale towards a stay
when the first two factors favor CIMSA.
4. The Characteristics
Proceedings

of

the

Foreign

The fourth factor includes four distinct considerations: (i) whether the proceedings were brought to
enforce an award (which would tend to weigh in favor
of a stay) or to set the award aside (which would tend
to weigh in favor of enforcement); (ii) whether the
proceedings were initiated before the underlying
enforcement proceeding so as to raise concerns of
comity; (iii) whether the proceedings were initiated by
the party now seeking to enforce the award in federal
court; and (iv) whether the proceedings were initiated
under circumstances indicating an intent to hinder or
delay resolution of the dispute. Europcar, 156 F.3d at
318.
Although the Bolivian proceedings were initiated
before the proceedings in this Court, the remaining
considerations counsel against a stay and in favor of
enforcement. The first and third considerations clearly
weigh in favor of enforcement given that the proceedings in Bolivia were brought by Respondents, not
CIMSA, and sought to set aside rather than enforce
the award.
In examining the fourth consideration, I take particular note of the fact that “a stay of confirmation should
not be lightly granted lest it encourage abusive tactics
by the party that lost in arbitration.” Id. at 317. Even
though CIMSA has itself filed amparos and objections
that have added to the protracted proceedings in
Bolivia, it did so to protect its interests once entangled

93a
in Bolivian legal proceedings it did not initiate or
expect. Despite the parties’ agreement to “waive all
motions to vacate, defenses and appeals against said
award,” (2005 Agreement, cl. 29.2), the Respondents
wasted no time in filing a series of challenges and
subsequent appeals in Bolivian courts when the
outcome of the arbitration was unfavorable to them.
When Respondents had the opportunity to seek
suspension of the Damages Phase in Bolivia, they
instead sought an injunction in Mexico. And when
they failed to set aside the Merits Award through the
sole annulment process available in Bolivia, (see
Asbun Report ¶ 15), they employed unconventional
and suspect means to get more favorable decisions
from select judges. While Bolivian arbitration law
provided Respondents with a limited mechanism for
challenging the award, Respondents’ “contributions to
the protractedness of the litigation . . . cannot be
denied.” Hardy Exploration, 314 F. Supp. 3d at 108.
5. The Balance of the Possible Hardships to
Each of the Parties
The balance of hardships also counsels in favor of
enforcement rather than a stay. At the outset of their
business dealings, the parties mutually agreed that
disputes would be resolved through arbitration and
that the decision of the arbitral tribunal would be final
and not subject to appeal. Despite this agreement,
CIMSA has entertained years of tumultuous legal
proceedings, when it was Respondents’ breach of
contract that caused CIMSA to seek relief through
arbitration in the first place.
Respondents breached their contract with CIMSA
more than seven years ago, and CIMSA prevailed on
the merits of the dispute in arbitration more than five
years ago. Nearly four years have passed since the

94a
Arbitral Tribunal handed down the Damages Award,
yet CIMSA has been unable to collect a single cent of
the monetary relief it was awarded. Europcar advised
courts to “keep[ ] in mind that if enforcement is postponed under Article VI . . . the party seeking enforcement may receive ‘suitable security.’” 156 F.3d at 318.
While “suitable security” would provide CIMSA with
necessary protection in the event of a stay, this
protection does not offset the hardship CIMSA has and
will suffer were this Court to continue to delay
confirmation of the award. “[G]iven the length of time
that [CIMSA] has waited to receive the award, and
the amount of money at issue, [CIMSA] would be
burdened should the Court delay confirmation of the
award.” Hardy Exploration, 314 F. Supp. 3d at 108.
6. Other Considerations
Neither party presents any other circumstances
that would shift the balance in favor of or against a
stay.
Because the Europcar factors, on balance, weigh in
favor of enforcement and against a stay, I conclude
that a stay is unwarranted.
IV. CONCLUSION
For the aforementioned reasons, I confirm the Final
Award on Damages of the Arbitral Tribunal and lift
the order suspending GCC America’s obligation to file
its Garnishee Report (ECF No. 18).
Accordingly, it is ORDERED that:
1. CIMSA’s Motion to Lift the Abatement Order
(ECF No. 42) is GRANTED;

95a
2. CIMSA’s Petition (ECF No. 1) and Motion to
Confirm a Foreign Arbitral Award (ECF No. 50) are
GRANTED;
3. The Clerk shall enter judgment in favor of
Petitioner CIMSA in the amount of $36,139,223, plus
annual interest at a rate of 6% from April 10, 2015 to
the date of entry of judgment;
4. Post-judgment interest shall accrue at the applicable federal rate; and
5. Petitioner CIMSA shall be awarded its costs
incurred in this action.
DATED this 25th day of March, 2019.
/s/ John L. Kane
JOHN L. KANE
SENIOR U.S. DISTRICT JUDGE

96a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
[Filed December 12, 2018]
————
Civil Action No. 1:15-CV-02120
————
COMPAÑÍA DE INVERSIONES MERCANTILES S.A.,
Petitioner,
v.
GRUPO CEMENTOS DE CHIHUAHUA, S.A.B. de C.V.,
and GCC LATINOAMÉRICA, S.A. de C.V.,
Respondents.
————
ORDER RE RESPONDENTS’CROSS-MOTION
TO DISMISS THE PETITION (ECF NO. 61)
————
Kane, J.
In their Response to Petitioner’s Motion to Confirm
Foreign Arbitral Award, Respondents impermissibly
included a Cross-Motion to Dismiss the Petition
(ECF No. 61). Local rule of practice 7.1(d) prohibits a
party from including a motion in a response or reply.
D.C.COLO.LCivR 7.1(d). The Cross-Motion to Dismiss
the Petition, which raises jurisdictional challenges as
well as arguments on the merits, should have been
filed as a separate document.1 Notwithstanding this
1

But denying the presumed motion for this reason would be
without prejudice, thus inviting a new motion that complies with

97a
error, I have considered the jurisdictional challenges
and find that this Court may properly exercise
personal jurisdiction over Respondents in this case.
Thus, to the extent the Cross-Motion is construed as
a Motion to Dismiss for lack of jurisdiction, it is
DENIED. I will not rule on the merits of the Motion to
Confirm Foreign Arbitral Award (ECF No. 50) at this
time, and ORDER oral argument as specified below.
FACTUAL BACKGROUND
Grupo Cementos de Chihuahua, S.A.B. de C.V.
(“GCC”), a Mexican corporation with its principal
place of business in Chihuahua, Mexico, “is a
leading supplier of cement, aggregates, concrete and
construction-related services in Mexico and the United
States.” (Hertzberg Decl. ¶ 2, ECF No. 1-10; GCC’s
2Q2015 Earnings Report, ECF No. 1-11). In the early2000s, GCC began “exploring the possibility of
expanding” its business into the southern hemisphere.
(Hertzberg Decl. ¶ 2; Amaya Decl. ¶ 5, ECF No. 62). In
2004, GCC representatives traveled to La Paz, Bolivia
to meet with representatives from Sociedad Boliviana
de Cemento, S.A. (“SOBOCE”), Bolivia’s largest
cement company. (Doria Medina Decl. ¶ 2, ECF No. 19; Amaya Decl. ¶ 6). Later that same year, GCC
representatives mentioned to SOBOCE representatives that GCC “was interested in growth opportunities in South America.” (Amaya Decl. ¶ 7). SOBOCE
representatives informed the GCC representatives
that Compafiía de Inversiones Mercantiles S.A.
(“CIMSA”), a Bolivian corporation with its principal
place of business in Bolivia, “was searching for a new
the local rules. Enough time has already been wasted in this case
by procedural quiddities which need not be compounded by my
requiring the submission of a new, properly submitted motion.

98a
partner to invest in SOBOCE.” (Id.). At the time,
CIMSA owned a controlling interest in SOBOCE.
(Hertzberg Decl. ¶ 3).
As a result of these communications, GCC representatives traveled to Miami, Florida on March 25,
2005 (the “2005 Miami Meeting”) to meet with CIMSA
representatives and discuss GCC’s “potential interest
in acquiring shares in SOBOCE.” (Doria Medina Decl.
¶ 5). At the meeting, CIMSA’s representatives provided GCC representatives with “an appraisal of
SOBOCE’s enterprise value,” which included “basic
information about valuation, pricing, and the percentage of SOBOCE shares that might be available for
sale.” (Id.; Amaya Decl. ¶ 11). However, no explicit
negotiations took place between the parties at the
2005 Miami Meeting. (Amaya Decl. ¶ 11).
Over the next six months, the parties engaged in
extensive negotiations in the form of “letters, emails,
and phone calls between Mexico and Bolivia, as well
as meetings in those two countries.” (Id. at ¶ 12). On
September 22, 2005, GCC Latinoamérica, S.A. de C.V.
(“GCC Latinoamérica”), GCC’s wholly-owned subsidiary, acquired a 47 percent interest in SOBOCE.
(Hertzberg Decl. ¶ 3). The terms of the sale—including
the purchase price—were ultimately the same as those
proposed at the 2005 Miami Meeting. (Doria Medina
Decl. ¶¶ 7-8; Amaya Decl. ¶ 13). The same day, GCC,
GCC Latinoamérica, SOBOCE, and CIMSA executed
a shareholder’s agreement (the “2005 Agreement”)
governed by Bolivian law. (Amaya Decl. ¶ 20). GCC
guaranteed GCC Latinoamérica’s obligations under
the 2005 Agreement. (Hertzberg Decl. ¶ 3).
The 2005 Agreement provided, among other things,
that each party had a right of first refusal with respect
to the other’s shares in SOBOCE. (Doria Medina Decl.

99a
¶ 10). Under the agreement, either party could “transfer its shares to a third party after a period of five
years.” (Id.). However, the party wishing to transfer
its shares could only do so after providing notice and
“afford[ing] the other party an opportunity to purchase
the shares on the same or better terms within 30
days.” (Id.). The 2005 Agreement also provided that
any dispute between the parties would be “resolved by
arbitration administered by the National Chapter of
the Comisión Inter-Americana de Arbitraje Comercial
(“CIAC”) in Bolivia.” (Amaya Decl. ¶ 26; 2010
Shareholders’ Agreement, cl. 15.1, ECF No. 62-4).
On September 23, 2005, GCC paid for the SOBOCE
shares using “a bank account it held at a branch
of Wells Fargo Bank, N.A., located in San Francisco,
California.” (Doria Medina Decl. ¶ 8). Additionally,
under the 2005 Agreement, CIMSA and GCC
Latinoamérica “were entitled to receive annual payments of shareholder dividends from SOBOCE.”
(Doria Medina Decl. ¶ 9). From 2005 to 2011, GCC and
GCC Latinoamérica (collectively, “Respondents”)
“directed SOBOCE to distribute dividends due to
them” to the same Wells Fargo account each year—
approximately $21 million in total. (Id.).
In 2009, Respondents informed CIMSA of their
desire to sell their SOBOCE shares. (Amaya Decl.
¶ 24). Pursuant to CIMSA’s right of first refusal under
the 2005 Agreement, the parties met in Miami six
different times in 2010 (the “2010 Miami Meetings”) to
negotiate an agreement that would allow CIMSA
to purchase Respondents’ shares in SOBOCE (the
“2010 Agreement”). During these meetings, the
parties discussed—and eventually resolved—several
“key conflicts regarding the purchase price, timing,
and other terms of the sale.” (Doria Medina Decl. ¶ 14).

100a
On April 23, 2010, during the final 2010 Miami
Meeting, the parties “came to an agreement regarding
fundamental terms of sale.” (Id.). The parties signed
an agreement in La Paz, Bolivia the following month.
(Id.).
However, the Government of Bolivia “expropriated
a substantial division of SOBOCE’s business” shortly
before the transaction was scheduled to close. (Doria
Medina Decl. ¶ 15). As a result, CIMSA was unable to
pay for Respondents’ shares under the terms of the
2010 Agreement and, thus, the parties failed to close
the deal. (Id.; Amaya Decl. ¶ 29).
In June 2011, the parties agreed to meet in Houston,
Texas (the “2011 Houston Meeting”) in order to
negotiate another agreement under which CIMSA
would purchase Respondents’ SOBOCE shares pursuant to its right of first refusal under the 2005
Agreement (the “2011 Agreement”). (Doria Medina
Decl. ¶ 16; Amaya Decl. ¶¶ 31-32). During the
meeting, CIMSA proposed “two alternative payment
structures.” (Doria Medina Decl. ¶ 18). Negotiations
continued via telephone and email for several weeks,
but the parties ultimately agreed on one of the
payment terms CIMSA proposed at the 2011 Houston
Meeting. (Id. at ¶¶ 19-22). In August 2011, Respondents “instructed CIMSA to hire New York counsel to
draft a final agreement.” (Id. at ¶ 22). Respondents
also retained their own counsel from a New Yorkbased law firm, and the parties agreed that New York
law would govern the 2011 Agreement. (Id.). Nevertheless, Respondents proceeded to sell their SOBOCE
shares to a third party on August 18, 2011, despite
previous indications that the payment term CIMSA
suggested at the 2011 Houston Meeting was satisfactory. (Doria Medina Decl. ¶ 26; Amaya Decl. ¶¶ 39-41).

101a
In response, CIMSA submitted a notice of arbitration to the CIAC against Respondents in Bolivia,
and the parties appointed their chosen arbitrators
(the “Tribunal”). (Doria Medina Decl. ¶¶ 27-28). On
September 13, 2013, the Tribunal issued a Partial
Award on the Merits and Jurisdiction (the “Merits
Award”) in favor of CIMSA. (Id. at ¶ 29). The Merits
Award held, among other things, that Respondents
breached the 2005 Agreement by “failing to negotiate
with CIMSA in good faith following the Houston
meeting.” (Id.).
On April 10, 2015, the Tribunal issued a Final
Award on Damages (the “Damages Award”). (Id. at
¶ 30; see also Damages Award, Pet. Ex. D, ECF No. 18). In calculating the Damages Award, the Tribunal
selected the valuation “carried out by management in
March 2010 that did not envisage the creation of a
plant by the Government.” (Damages Award ¶ 304).
This valuation is the “same valuation SOBOCE representatives presented to GCC” during the 2010 Miami
Meetings. (Pet’r Reply at 17, ECF No. 73; Doria
Medina Decl. ¶¶ 13-14).
Respondents subsequently sought to annul the
awards in a Bolivian court. (See Von Borries Decl.
¶ 40, ECF No. 46; Rivera Decl. ¶¶ 16-18, ECF No. 65).
Additionally, Respondents obtained from a Mexican
court in Chihuahua, Mexico an ex parte anti-arbitration
injunction “precluding CIMSA from commencing or
continuing any action directing at confirming or
enforcing any award issued by the [the Tribunal] in
the proceedings.” (Von Borries Decl. ¶ 34). While
CIMSA argues that Bolivia’s highest court ultimately
upheld the Merits Award after a lengthy review

102a
process, Respondents contest this point.2 (Pet’r Mot. at
14, ECF No. 50; Resp’ts Resp. at 15, ECF No. 61). It is
undisputed that annulment proceedings regarding the
Damages Award remain ongoing in Bolivia. (Pet’r Mot.
at 15; Resp’ts Resp. at 16). CIMSA now seeks to
confirm and enforce the Damages Award pursuant to
the Convention on the Recognition and Enforcement
of Foreign Arbitral Awards (the “Convention”) in this
Court.
Respondents contest this Court’s exercise of jurisdiction, arguing that it lacks personal jurisdiction over
the Respondents,3 and, alternatively, that the action
should be dismissed on the basis of forum non conveniens because Mexico is an adequate alternative forum.
ANALYSIS
For a court to exercise specific personal jurisdiction
over a nonresident defendant, the defendant must
have “certain minimum contacts with [the forum]
such that the maintenance of the suit does not offend
traditional notions of fair play and substantial justice.” Int’l Shoe Co. v. State of Wash., Office of
Unemployment Comp. & Placement, 326 U.S. 310, 316
2

Respondents argue that the Merits Award is invalid under
Bolivian law. However, as noted above, this Order focuses on the
issue of jurisdiction and does not analyze the merits of the parties’
claims regarding the enforceability of the awards under Bolivian
law.
3

Because I find that this Court has specific personal jurisdiction over Respondents, I need not address the question of whether
the Court has quasi in rem jurisdiction over GCC. See Compl. at
2, ECF No. 2 (asserting that this Court has quasi in rem jurisdiction over GCC based upon its ownership of property in the
District of Colorado); Resp’ts Resp. at 20-21 (contending that
Respondents have no assets in the United States to support quasi
in rem jurisdiction).

103a
(1945) (internal quotations omitted). Federal Rule of
Civil Procedure 4(k)(2) allows courts to aggregate
nationwide contacts in order to exercise jurisdiction
where the defendant’s contacts with any one state are
insufficient. Fed. R. Civ. P. 4(k)(2); see Pandaw Am.,
Inc. v. Pandaw Cruises India Pvt. Ltd., 842 F. Supp.
2d 1303, 1311 (D. Colo. 2012). In order to establish
jurisdiction under Rule 4(k)(2), a plaintiff must show
that: “(1) the plaintiff’s claim arises under federal law;
(2) the defendant is not subject to jurisdiction in any
state’s courts of general jurisdiction; and (3) the
exercise of jurisdiction comports with due process.”4
Pandaw, 842 F. Supp. 2d at 1310 (internal citations
omitted). With respect to the third prong, a court may
4
Because Respondents do not dispute the first two requirements for jurisdiction under Rule 4(k)(2), this Order focuses on
whether the Court’s exercise of personal jurisdiction would
comport with due process. However, I note that in analyzing the
second requirement, courts in this district have adopted the
following approach taken by most circuits:

A defendant who wants to preclude the use of Rule
4(k)(2) has only to name some other state in which the
suit could proceed. Naming a more appropriate state
would amount to a consent to personal jurisdiction
there . . . . If, however, the defendant contends that he
cannot be sued in the forum state and refuses to
identify any other state where suit is possible, then the
federal court is entitled to use Rule 4(k)(2). This
procedure makes it unnecessary to traipse through the
50 states, asking whether each could entertain the
suit.
Pandaw, 842 F. Supp. 2d at 1303 (quoting ISI Int’l, Inc. v. Borden
Ladner Gervais LLP, 256 F.3d 548, 552 (7th Cir.2001); see also
Archangel Diamond Corp., 75 F. Supp. 3d at 1362 (agreeing with
the approach taken by the Seventh Circuit and the district court
in Pandaw). Here, Respondents contest jurisdiction in the United
States and fail to identify any state were suit is possible.

104a
constitutionally exercise jurisdiction under Rule
4(k)(2) “as long as [the defendant] has minimum
contacts with the United States as a whole.” Archangel
Diamond Corp. Liquidating Tr. v. OAO Lukoil, 75 F.
Supp. 3d 1343, 1365 (D. Colo. 2014); see also Pandaw,
842 F. Supp. 2d at 1311 (“[T]he forum in this analysis
is the United States as a whole rather than
Colorado.”). Under this part of the analysis, “there is
no requirement that there be any contacts at all with
the forum state, ‘even though it is a relevant factor to
consider.’” Archangel Diamond Corp., 75 F. Supp. 3d
at 1365 (quoting Touchtone Grp., LLC v. Rink, 913 F.
Supp. 2d 1063, 1072 (D. Colo. 2012)).
In order to determine whether the Respondents’
contacts with the United States are sufficient to
support a constitutional exercise of specific personal
jurisdiction, I must analyze whether: (1) Respondents
performed some act “by which [they] purposefully
avail[ed] [themselves] of the privilege of conducting
activities in the forum”; (2) CIMSA’s claim is one that
“arises out of or results from the [Respondents’] forumrelated activities”; and (3) the exercise of jurisdiction
is reasonable. Taylor v. Phelan, 912 F.2d 429, 432
(10th Cir. 1990) (quoting the test set forth in Data
Disc, Inc. v. Sys. Tech. Assocs., Inc., 557 F.2d 1280,
1287 (9th Cir. 1977)).
I. PERSONAL JURISDICTION
A. Respondents’ Contacts Constitute Purposeful Availment
The first prong of the due process analysis states
that “the nonresident defendant must do some act or
consummate some transaction with the forum or
perform some act by which he purposefully avails
himself of the privilege of conducting activities in the

105a
forum, thereby invoking the benefits and protections
of its laws.” Taylor, 912 F.2d at 432 (10th Cir. 1990)
(internal citations omitted). Purposeful availment
“precludes specific jurisdiction as a result of ‘random,
fortuitous, or attenuated contacts.’” Bell Helicopter
Textron, Inc. v. Heliqwest Int’l, Ltd., 385 F.3d 1291,
1296 (10th Cir. 2004) (quoting Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 475 (1985)). Thus, a court
“must examine the quality and quantity” of a defendant’s contacts with the forum to determine whether
the exercise of personal jurisdiction over the defendant
comports with due process. OMI Holdings, Inc. v.
Royal Ins. Co. of Canada, 149 F.3d 1086, 1092 (10th
Cir. 1998).
For example, in Telecordia Tech Inc. v. Telkom SA
Ltd., the Third Circuit held that “traveling to the
forum to consult with the other party can constitute
purposeful availment.” 458 F.3d 172, 177 (3d Cir.
2006) (internal citation omitted). There, Telecordia—a
New Jersey corporation—brought a petition to enforce
a foreign arbitral award it received resulting from the
breach of a multimillion dollar contract it entered into
with Telkom, a South African telecommunications
company. Id. at 175. Telkom visited New Jersey on
numerous occasions “in connection with” the contract,
including traveling “to participate in testing-related
matters once problems arose in the contract.” Id. at
178. Although the arbitral proceedings took place in
London and applied South African law, Telkom frequently communicated with Telecordia’s New Jersey
office, paid Telecordia through a New Jersey bank, and
“breached the contract by failing to make payments to
said New Jersey bank.” Id. The Third Circuit concluded that Telkom’s contacts with the forum constituted purposeful availment because, among other
things, Telkom representatives traveled to the forum

106a
pursuant to the business relationship of the parties.
Id. at 178. Additionally, the court noted that “although
the New York Convention does not diminish Due
Process constraints” in asserting personal jurisdiction
over a foreign defendant, “the desire to have portability of arbitral awards prevalent in the Convention
influences the answer as to whether Telkom ‘reasonably anticipate[d] being haled into’ a New Jersey court.”
Id. at 178-179 (quoting World-Wide Volkswagen Corp.
v. Woodson, 444 U.S. 286, 297 (1980)).
Here, although Respondents themselves possess no
assets in Colorado, GCC’s Denver, Colorado-based
subsidiary—GCC America, Inc. (“GCC America”)—
does. (See Schuette Report ¶ 1.2, ECF No. 74).
Consequently, in 2016, GCC generated “more than 70
percent of its income from sales in the United States”
and borrowed at least $260 million from U.S. investors
in 2013 and again in 2017. (Id. at ¶¶ 1.2, 2).
Additionally, at least one of Respondents’ senior
representatives—GCC’s general counsel—maintains
an office in Denver, Colorado. (Sareva Decl. ¶¶ 21-22,
ECF No. 44). But my analysis is not limited to
Colorado. Because Rule 4(k)(2) requires the Court to
“consider national contacts with the United States,”
Archangel Diamond Corp., 75 F. Supp. 3d at 1364,
Respondents’ contacts also include, as CIMSA
suggests, activities in Miami, Houston, New York, and
San Francisco. (See Pet’r Reply at 4).
Respondents argue that their contacts with the
United States—the 2005 Miami Meeting, the 2010
Miami Meetings, the 2011 Houston Meeting, the use
of a United States bank account, the retention of a
New York attorney, and the inclusion of a New York
choice-of-law provision in the 2011 Agreement—are
too isolated to constitute purposeful availment.

107a
Respondents contend that the meetings in Miami and
Houston represent only a fraction of the meetings
and communications between the parties and, thus,
are insufficient to establish purposeful availment.
Respondents note that the parties never executed the
2011 Agreement, which contained a New York choiceof-law provision, and that the agreement the parties
did execute—the 2005 Agreement—was governed by
Bolivian law. Thus, Respondents argue, these contacts
with the United States “are insufficient to establish
the purposeful availment element of the due process
test.” (Resp’ts Resp. at 27) (internal quotations
omitted).
CIMSA, on the other hand, stresses that courts must
consider the quality and nature of a party’s contacts
with the forum in determining whether personal
jurisdiction is appropriate. (See Pet’r Reply at 5).
While it is relevant that other negotiations between
the parties occurred outside the United States, it
does not change the fact that Respondents met with
CIMSA within the forum eight times, and they did so
“pursuant to the business relationship” of the
parties—just as Telkom did in Telecordia Tech.
Telecordia Tech, 458 F.3d at 178. At nearly all of these
meetings, senior representatives of Respondents,
CIMSA, and SOBOCE discussed the fundamental
terms of ongoing and prospective contracts between
them, including “price, timing, and other terms of
sale.” (Doria Medina Decl. ¶ 14).
Furthermore, like Telkom in Telecordia Tech,
Respondents used a U.S. bank—Wells Fargo in San
Francisco, California—in connection with a binding
agreement between the parties. In 2005, Respondents
purchased the SOBOCE shares through its Wells
Fargo bank account in order to consummate the 2005

108a
Agreement. (See Doria Medina Decl. ¶ 8). Although
Respondents did not make any additional periodic
payments through the bank like Telkom did in
Telecordia Tech, they did direct SOBOCE to distribute
the dividends due to them under the agreement
through the same bank account from 2005 to 2011. (Id.
at ¶ 9). Citing Hau Yin To v. HSBC Holdings PLC,
2017 WL 816136 (S.D.N.Y. Mar. 1, 2017), Respondents
argue that the use of a U.S. bank account “incidental
to a foreign transaction” is insufficient to establish
personal jurisdiction. (See Resp’ts Resp. at 25). But
unlike Hau Yin To, the use of a U.S. bank here was not
“passive.” See Hau Yin To, 2017 WL 816136 at *9 n.6.
In this case, foreign parties selected to open and use,
for several years, a U.S. bank account in connection
with their business relationship. (See Pet’r Reply
at 15-16). And here, the parties did not use U.S.
banks simply for the “conversion of currency” into
U.S. Dollars. Cf. United World Trade, Inc. v.
Mangyshiakneft Oil Production Ass’n, 33 F.3d 1232,
1237 (10th Cir. 1994) (concluding that because no part
of the contract was to be performed in the United
States, “the transfer and conversion of currency in the
United States [was] not a ‘direct’ effect that would
provide a basis for jurisdiction”).
These contacts in the aggregate—coupled with “the
desire to have portability in arbitral awards prevalent
in the Convention” discussed in Telecordia Tech—
indicate that Respondents “reasonably anticipated
being haled into” court in the United States.
Telecordia Tech, 458 F.3d at 178-79.
B. CIMSA’S Claims Arise Out of Respondents’
Contacts
The second prong of the due process analysis states
that “the claim must be one which arises out of or

109a
results from the defendant’s forum related activities.”
Taylor, 912 F.2d at 432 (internal quotations omitted).
A court may apply either a but-for or proximate cause
test in determining whether the plaintiff’s cause of
action arises out of the defendant’s contacts with the
forum. Dudnikov v. Chalk & Vermilion Fine Arts, Inc.,
514 F.3d 1063, 1079 (10th Cir. 2008) (finding no need
to pick between the tests because plaintiffs’ cause of
action would arise from defendants’ contacts with
Colorado under either theory). Under the but-for
approach, “any event in the causal chain leading to the
plaintiff’s injury is sufficiently related to the claim to
support the exercise of specific jurisdiction.” Id. at
1078. By comparison, the proximate cause test is
“considerably more restrictive” and “calls for courts to
examine whether any of the defendant’s contacts with
the forum are relevant to the merits of the plaintiff’s
claim.” Id.
Here, CIMSA argues that, even under the more
restrictive proximate cause test, the 2005 Miami
Meeting, the resulting 2005 Agreement, and Respondents’ initial performance under that agreement in the
2010 Miami Meetings and the 2011 Houston
meetings—which the parties conducted pursuant to
CIMSA’s right of first refusal—are relevant to
CIMSA’s claims. (See Pet’r Reply at 17). In evaluating
SOBOCE’s value and, thus, CIMSA’s damages, the
Tribunal selected the same valuation SOBOCE
representatives presented to Respondents at the
2010 Miami Meetings. Additionally, in determining
whether Respondents breached the 2005 Agreement,
the Tribunal referenced the 2011 Houston Meeting
and specifically cited to the failed 2011 Agreement—
which was negotiated by U.S. attorneys, contained a
U.S. choice-of-law provision, and required participation of a U.S. bank—in support of its conclusion that

110a
Respondents created a legitimate expectation that
CIMSA would be able to exercise its right of first
refusal under the 2005 Agreement. (See id.; Pet’r Mot.
at 4-5). Thus, CIMSA argues, these contacts satisfy
the proximate cause test because they are sufficiently
relevant to Respondents’ underlying breach of the
2005 Agreement, which led to the arbitral award
CIMSA now seeks to enforce.
Respondents argue, among other things, that
CIMSA’s claims arise out of the underlying arbitration
proceeding—which occurred entirely in Bolivia—
rather than the parties’ contractual dispute. Respondents’ construction of the “arising out of” requirement
in the context of foreign arbitral awards seemingly
limits the Court’s jurisdiction under the Convention to
disputes between foreign parties only where the
arbitration proceedings took place in the United
States. (See Resp’ts Reply at 33-35, ECF No. 78; Pet’r
Reply at 19).
As CIMSA argues, however, this limited construction makes little sense in the context of actions under
the Convention and courts evaluating specific
jurisdiction in confirmation proceedings “consistently
consider whether the defendants’ contacts ‘arise out of’
the underlying dispute, not the arbitral proceedings.”
(Pet’r Reply at 18). Like the arbitral proceedings here,
the proceedings in Telecordia Tech took place entirely
outside the United States and applied the law of
a foreign forum. Nevertheless, the Third Circuit
exercised jurisdiction over Telkom after finding
Telecordia’s claims arose out of Telkom’s contacts with
the forum, including—as is the case here—repeated
travel to the United States in connection with the
agreement. See Telecordia Tech, 458 F.3d at 178.
Thus, while the award to be confirmed under the

111a
Convention does not necessarily need to have been
issued outside the United States, the fact that it was
does not bar a U.S. court from exercising jurisdiction
and enforcing the award when the underlying dispute
arises out of sufficient contacts with the forum. A
contrary result would frustrate the primary purpose of
the Convention: to authorize the courts of signatory
states to enforce foreign arbitral awards.
Therefore, CIMSA’s claims “arise out of” Respondents’ contacts with the United States.
C. Exercising Jurisdiction over Respondents is
Reasonable
The third—and final—prong of the due process
analysis states that the “exercise of jurisdiction must
be reasonable.” Taylor, 912 F.2d at 432 (internal
quotations omitted). A court “assess[es] reasonableness by weighing five factors: ‘(1) the burden on the
defendant, (2) the forum state's interest in resolving
the dispute, (3) the plaintiff's interest in receiving
convenient and effective relief, (4) the interstate
judicial system's interest in obtaining the most
efficient resolution of controversies, and (5) the shared
interest of the several states in furthering fundamental substantive social policies.’” TH Agric. & Nutrition,
LLC v. Ace European Grp. Ltd., 488 F.3d 1282, 1292
(10th Cir. 2007) [hereinafter THAN] (quoting Intercon,
Inc. v. Bell Atl. Internet Sols., Inc., 205 F.3d 1244, 1249
(10th Cir. 2000)). Additionally, a court evaluating
reasonableness must take the “strength of a defendant’s minimum contacts” into account. THAN, 488
F.3d at 1292. The reasonableness prong “evokes a
sliding scale: the weaker the plaintiff’s showing on
[minimum contacts], the less a defendant need show
in terms of unreasonableness to defeat jurisdiction.”

112a
OMI Holdings, Inc., 149 F.3d at 1092 (alteration in
original) (quoting Ticketmaster-New York, Inc. v.
Alioto, 26 F.3d 201, 210 (1st Cir. 1994)).
In THAN, the Tenth Circuit held that exercising
jurisdiction in Kansas over several European insurers
(collectively, the “Insurers”) would be unreasonable.
488 F.3d at 1297-98. There, TH Agriculture & Nutrition, LLC (“THAN”)—a Kansas corporation—sued the
Insurers for breach of insurance policies. Id. at 128485. The policies contained a “worldwide territory-ofcoverage clause” with an option to defend THAN in
legal proceedings, but the Insurers did not solicit
business in or receive payments from Kansas. Id. at
1288. Philips, THAN’s parent company headquartered
in the Netherlands, “solicited the insurance policies
through a Dutch broker . . . and all dealings related
to the policies . . . took place in the Netherlands or
Switzerland.” Id. Additionally, the policies included a
clause stating that “any dispute” between the parties
would be “subject to the law of the Netherlands” and
would be litigated in a Dutch court. Id. at 1286.
The Tenth Circuit concluded in THAN that three
reasonableness factors—the plaintiff’s interest in
convenient and effective relief, the interstate judicial
system’s interest in obtaining efficient resolution, and
the state’s interest in furthering fundamental substantive policies— weighed in favor of the Insurers. Id.
at 1288. The court explained that THAN could receive
“convenient and effective relief” in the Netherlands,
none of the necessary witnesses resided or transacted
business in the forum, and, in light of the choice-of-law
provision, “exercising jurisdiction in Kansas would
interfere with Dutch sovereignty.” Id. at 1294, 1296,
1297. Additionally, the court determined that the
remaining two factors—the burden on the defendant

113a
and the forum state’s interest in adjudicating the
dispute—did not weigh for or against the exercise of
jurisdiction.5 Id. at 1297.
Here, Respondents argue that all five fairness
factors weigh in favor of a finding of unreasonableness.
They contend that the travel and “translation of
voluminous documents” required to litigate this
matter in the United States “impose a substantial
burden” on them as nonresidents and that here, as was
the case in THAN, the “worldwide nature” of their
business is insufficient alone to eliminate the burden
placed on them. (Resp’ts Resp. at 30, ECF No. 61).
Additionally, Respondents claim that they themselves
possess no assets in the United States and argue that
Colorado has “little or no interest in resolving the
matter.” (Id.) Furthermore, Respondents argue that
the third and fourth factors favor a finding of no
personal jurisdiction because Petitioner, like the
plaintiff in THAN, can receive convenient, effective,
and efficient relief in another forum—Mexico.
CIMSA’s counterarguments are more compelling.
First, unlike the Insurers in THAN, Respondents
repeatedly demonstrated their willingness and ability
to travel to the United States to negotiate key terms of
the Agreement. While the “worldwide nature” of a
party’s business is insufficient alone to eliminate the
burden of litigating in the United States, Petitioner
5

First, the court noted that while “modern technology and the
worldwide nature of the Insurers’ business minimize the burden
of litigating in a foreign forum,” they are not significant alone to
“tip the scales in favor of exercising jurisdiction.” Id. at 1293,
1297. Second, the court reasoned that the fact that “the law of the
Netherlands, not Kansas, [governed] the dispute” balanced the
forum’s interest in “providing a forum for resolution of its
resident’s dispute.” Id. at 1297.

114a
argues that regular travel in connection with the
Agreement indicates that the first factor “should not
weigh in favor of either party.” (Pet’r Reply at 20).
Second, unlike the Insurers in THAN who received no
payments from the forum, GCC concedes that it
generates 70 percent of its global income— approximately $550 million—from sales within the United
States, and “has borrowed at least $260 million from
U.S. investors in 2013 and again in 2017.” (Id;
Schuette Report ¶ 1.2; GCC 2017 Offering Mem., Ex.
A to Schuette Report, ECF No. 74). Additionally, one
of Respondents’ senior executives—GCC’s general
counsel—maintains an office in Denver. (Savera Decl.
¶¶ 21- 22). As CIMSA argues, Respondents’ substantial business in the forum constitutes conduct affecting
forum residents and, thus, supports a finding of
reasonableness.
Third, despite Respondents’ claim that CIMSA could
receive convenient and effective relief in Mexico,
Respondents obtained an ex parte court order from a
Mexican court “expressly enjoin[ing] CIMSA from
commencing any proceedings to confirm the award in
Mexico.” (Pet’r Reply at 34). Respondents’ assertion
that Mexico is an adequate alternative forum is
doubtful at best. Respondents claim that (1) the ex
parte anti-arbitration injunction is a preliminary
injunction which CIMSA is “free to challenge” before
the Mexican court, and (2) the injunction remained in
effect only “until the annulment proceedings with
respect to the [Merits Award] . . . concluded, which
CIMSA itself argues has already occurred.” (Resp’ts
Reply at 37). However, while CIMSA is “free to
challenge” the injunction in a Mexican court, it
remains wholly uncertain whether such a challenge
would be successful. CIMSA’s demonstrated inability
to even serve Respondents in Mexico indicates that

115a
fair and efficient litigation of these proceedings in that
forum is unlikely.6
Furthermore, Respondents’ characterization of the
ex parte injunction is misleading. While part of the
Mexican court order calls for “[t]he suspension of the
Damages Phase [of the Arbitral Proceedings] pending
a . . . definitive decision on GCC’s request for annulment by the competent Bolivian courts,” a separate
section of the same order grants GCC “[a]n injunction
precluding CIMSA from commencing or continuing
any action directed at confirming or enforcing any
award issued by the Arbitral Tribunal in the proceedings.” (Van Borries Decl. ¶ 34) (emphasis added).
Therefore, the injunction’s scope likely is not limited
to the Merits Award—a point Respondents would
almost certainly make if CIMSA sought enforcement
of the Damages Award in a Mexican court.
CIMSA’s situation presents a sharp contrast from
THAN, where no facts indicated the Dutch court was
inadequate and the parties agreed their contract
would be governed by Dutch law in a Dutch forum.
Here, it is impossible to say with any certainty that
Mexico is an adequate alternative forum or that an
attempt by CIMSA to enforce its award in Mexico
would be considered fairly and efficiently. For these
reasons, the third and fourth fairness factors favor a
finding of reasonableness as well.

6

I previously granted CIMSA’s Motion to Authorize Alternative Service in part because of the inability to effectuate service
in Mexico. (Order Granting Mot. to Authorize Alternative Service, ECF No. 79). Here, I again find that “the Mexican authorities’ inability or unwillingness to serve the Respondents at their
corporate headquarters” belies the contention that Mexico is an
adequate alternative forum for CIMSA’s claim. (Id. at 2).

116a
Finally, the fifth factor weighs in favor of CIMSA
because the United States, as a member of the
Convention, has a strong policy in favor of arbitration.
First, a decision declining to exercise jurisdiction
simply because Respondents have stronger contacts
with other U.S. states is inconsistent with Rule 4(k)(2)
and risks precluding CIMSA from seeking relief
effectively in other forums. Under Rule 4(k)(2), courts
analyze a defendant’s contacts with the United States
as a whole. Consequently, the jurisdictional analysis
is no different here than if CIMSA filed in Florida,
Texas, California, or any other U.S. forum where
Respondents’ contacts purportedly are less attenuated. Given the universal applicability of this analysis,
a ruling that personal jurisdiction is improper may
affect adversely CIMSA’s chances of obtaining relief in
another U.S. forum.
Leaving CIMSA without a forum to seek enforcement of its award would frustrate many of the
substantive policy goals the Convention purports to
further. And, as explained above, Respondents have
not shown that Mexico is an adequate alternative
forum. Refusing to assert jurisdiction under these
circumstances would deprive CIMSA of its best—and
perhaps its only— chance at seeking relief. Such a
result undoubtedly frustrates the Convention’s primary goal: to encourage arbitration by recognizing and
enforcing arbitral awards granted in other contracting
states.
II. THE
DOCTRINE
OF
FORUM
CONVENIENS IS INAPPLICABLE

NON

Respondents also argue that, even if the Court does
possess jurisdiction, the action should be dismissed
on the basis of forum non conveniens. “There are
two threshold questions in the forum non conveniens

117a
determination: first, whether there is an adequate
alternative forum in which the defendant is amenable
to process . . . and second, whether foreign law
applies.” Gschwind v. Cessna Aircraft Co., 161 F.3d
602, 605 (10th Cir. 1998) (internal citations omitted).
Only if “the answer to both questions is yes [does] the
court [go] on to weigh the private and public interests
bearing on the forum non conveniens decision.” Id. at
606.
The Tenth Circuit has not directly addressed
whether the doctrine of forum non conveniens is
available in an arbitral award confirmation proceeding such as this, and I see no reason to expressly hold
that it is in this case. As explained above, I reject
Respondents’ contention that Mexico is an adequate
alternative forum. Furthermore, jurisdiction in this
forum is supported by the United States’ “emphatic
federal policy in favor of arbitral dispute resolution,”
which “applies with special force in the field of
international commerce.” Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 631
(1985). Therefore, because Mexico is not an adequate
alternative forum and because the policy goals of the
Convention weigh in favor of exercising jurisdiction,
dismissal on the basis of forum non conveniens is
inappropriate.
CONCLUSION
For the reasons above, I find that jurisdiction over
Respondents is proper. Thus, to the extent the CrossMotion to Dismiss the Petition (ECF No. 61) is construed as a Motion to Dismiss for lack of jurisdiction,
the Cross-Motion is DENIED. I will not rule on the
merits of the Motion to Confirm Foreign Arbitral
Award (ECF No. 50) at this time, and ORDER the
parties to present oral argument on the question of

118a
confirming the foreign arbitral award at a hearing to
be scheduled by the Court. The parties are ORDERED
to confer and call chambers JOINTLY on or before
January 8, 2019, to set a date and time for the hearing,
303-844-6118.
DATED this 12th day of December, 2018.
/s/ John L. Kane
JOHN L. KANE
SENIOR U.S. DISTRICT JUDGE

119a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
[Filed October 22, 2018]
————
Civil Action No. 1:15-cv-02120-JLK
————
COMPAÑÍA DE INVERSIONES MERCANTILES S.A.,
Petitioner,
v.
GRUPO CEMENTOS DE CHIHUAHUA, S.A.B. de C.V.,
and GCC LATINOAMÉRICA, S.A. de C.V.,
Respondents.
————
ORDER GRANTING PETITIONER’S
MOTION TO AUTHORIZE ALTERNATIVE
SERVICE (ECF No. 43)
Petitioner, Compafiía de Inversiones Mercantiles
S.A. (“CIMSA”), seeks an Order pursuant to Federal
Rule of Civil Procedure 4(f)(3) authorizing CIMSA to
serve Respondents through alternative means (ECF
No. 43). Rule 4(f)(3) permits service “by other means
not prohibited by international agreement, as the
court orders.” FED. R. CIV. P. 4(f)(3). In this case,
CIMSA must “show[ ] that [it] made reasonable efforts
to serve the [Respondents] pursuant to the Hague
Convention and that the court’s intervention will
avoid further unduly burdensome or futile efforts at
service.” Clancy Sys. Int’l, Inc. v. Image Sensing Sys.,
No. 16-cv-01848-CMA-KMT, 2016 U.S. Dist. LEXIS
190020, at *7-8 (D. Colo. Oct. 14, 2016) (internal
quotations and citations omitted). For the reasons that

120a
follow, I find that CIMSA has satisfied both elements
and hereby GRANT the Motion to Authorize Alternative Service.
First, CIMSA acted with reasonable diligence in
attempting to effect service through the Mexican
Central Authority (MCA). CIMSA complied with the
MCA’s requirement to submit a separate form for each
Respondent, and the Request for Service, complete
with two forms, was accepted by the MCA and
forwarded to the judicial authorities in Chihuahua.
The failure to effectuate service was due not to any
error on CIMSA’s part, but was the result of the
judicial officer’s purported inability to locate Respondents at the address provided. The judicial officer’s
claim that she was unable to locate Respondents at
the address provided is confounding given that the
Request for Service contained the correct address—
Respondents’ only publicly available address. Notably,
this is the same address at which CIMSA successfully
delivered to Respondents a copy of the summons and
complaint via DHL. (Mot. at 4; Pet’r’s Reply at 3-4,
ECF No. 67).
Second, allowing service through alternative means
will avoid the unnecessary delays that would result
from further efforts to effect service under the Hague
Convention, efforts which are certain to be burdensome and likely to be futile. It took the MCA nearly
two years to notify CIMSA that the judicial authorities
in Chihuahua had been unable to serve Respondents.
(Mot. at 3). Given the Mexican authorities’ inability
or unwillingness to serve the Respondents at their
corporate headquarters, I am doubtful that further
attempts to effectuate service under the Hague
Convention would be efficient or successful. The

121a
court’s intervention is warranted under these circumstances.
Finally, it is clear that Respondents are on notice
of these proceedings and are in regular contact with
counsel. They have submitted multiple briefs and
other filings, yet refuse to waive service or authorize
their counsel to accept service. I will not abide Respondents’ irksome and peevish attempts to frustrate
service unnecessarily while they actively participate
in the present litigation. Therefore, I find that service
of Respondents through their U.S. counsel, Cleary
Gottlieb and/or general counsel Sergio Saenz, by email will comport with due process.
Accordingly, the Motion to Authorize Alternative
Service (ECF No. 43) is GRANTED, and CIMSA shall
promptly effectuate service of process upon Respondents through their U.S. counsel.
DATED this 22nd day of October, 2018.
/s/ John L. Kane
JOHN L. KANE
SENIOR U.S. DISTRICT JUDGE

